<html>
<title> - HOMELAND SECURITY SCIENCE AND TECHNOLOGY: PREPARING FOR THE FUTURE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



   HOMELAND SECURITY SCIENCE AND TECHNOLOGY: PREPARING FOR THE FUTURE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,
                   SCIENCE AND RESEARCH & DEVELOPMENT
                                 of the
                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2003

                               __________

                            SERIAL NO. 108-7

                               __________

 Printed for the use of the Subcommittee on Cybersecurity, Science and 
  Research & Development and the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
97-119                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012004


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 CHRISTOPHER COX, California, Chairman

JENNIFER DUNN, Washington            JIM TURNER, Texas, Ranking Member
C.W. BILL YOUNG, Florida             BENNIE G. THOMPSON, Mississippi
DON YOUNG, Alaska                    LORETTA SANCHEZ, California
F. JAMES SENSENBRENNER, JR.,         EDWARD J. MARKEY, Massachusetts
Wisconsin                            NORMAN D. DICKS, Washington
W.J. (BILLY) TAUZIN, Louisiana       BARNEY FRANK, Massachusetts
DAVID DREIER, California             JANE HARMAN, California
DUNCAN HUNTER, California            BENJAMIN L. CARDIN, Maryland
HAROLD ROGERS, Kentucky              LOUISE McINTOSH SLAUGHTER,
SHERWOOD BOEHLERT, New York            New York
LAMAR S. SMITH, Texas                PETER A. DeFAZIO, Oregon
CURT WELDON, Pennsylvania            NITA M. LOWEY, New York
CHRISTOPHER SHAYS, Connecticut       ROBERT E. ANDREWS, New Jersey
PORTER J. GOSS, Florida              ELEANOR HOLMES NORTON,
DAVE CAMP, Michigan                    District of Columbia
LINCOLN DIAZ-BALART, Florida         ZOE LOFGREN, California
BOB GOODLATTE, Virginia              KAREN McCARTHY, Missouri
ERNEST J. ISTOOK, JR., Oklahoma      SHEILA JACKSON-LEE, Texas
PETER T. KING, New York              BILL PASCRELL, JR., New Jersey
JOHN LINDER, Georgia                 DONNA M. CHRISTENSEN,
JOHN B. SHADEGG, Arizona               U.S. Virgin Islands
MARK E. SOUDER, Indiana              BOB ETHERIDGE, North Carolina
MAC THORNBERRY, Texas                CHARLES GONZALEZ, Texas
JIM GIBBONS, Nevada                  KEN LUCAS, Kentucky
KAY GRANGER, Texas                   JAMES R. LANGEVIN, Rhode Island
PETE SESSIONS, Texas                 KENDRICK B. MEEK, Florida
JOHN E. SWEENEY, New York

                      JOHN GANNON, Chief of Staff

         UTTAM DHILLON, Chief Counsel and Deputy Staff Director

                  STEVEN CASH, Democrat Staff Director

                    MICHAEL S. TWINCHEK, Chief Clerk

   Subcommittee on Cybersecurity, Science, and Research & Development

                    MAC THORNBERRY, Texas, Chairman

PETE SESSIONS, Texas, Vice Chairman  ZOE LOFGREN, California
SHERWOOD BOEHLERT, New York          LORETTA SANCHEZ, California
LAMAR SMITH, Texas                   ROBERT E. ANDREWS, New Jersey
CURT WELDON, Pennsylvania            SHEILA JACKSON-LEE, Texas
DAVE CAMP, Michigan                  DONNA M. CHRISTENSEN,
ROBERT W. GOODLATTE, Virginia          U.S. Virgin Islands
PETER KING, New York                 BOB ETHERIDGE, North Carolina
JOHN LINDER, Georgia                 CHARLES GONZALEZ, Texas
MARK SOUDER, Indiana                 KEN LUCAS, Kentucky
JIM GIBBONS, Nevada                  JAMES R. LANGEVIN, Rhode Island
KAY GRANGER, Texas                   KENDRICK B. MEEK, Florida
CHRISTOPHER COX, California, ex      JIM TURNER, Texas, ex officio
officio

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Mac Thornberry, Chairman, Subcommittee on 
  Cybersecurity, Science, and Research & Development, Select 
  Committee on Homeland Security
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Robert E. Andrews, a Representative in Congress 
  From the State of New Jersey...................................    23
The Honorable Sherwood Boehlert, a Representative in Congress 
  From the State of New York.....................................    28
The Honorable Dave Camp, a Representative in Congress From the 
  State of Michigan..............................................    32
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    19
The Honorable Christopher Cox, Chairman, Select Committee on 
  Homeland Security and a Representative for the State of 
  California.....................................................    36
The Honorable Jennifer Dunn, a Representative in Congress From 
  the State of Washington........................................    24
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina
  Prepared Statement.............................................     6
  Oral Statement.................................................    17
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Florida
  Prepared Statement.............................................     5
The Honorable John Linder, a Representative in Congress From the 
  State of Georgia...............................................    19
The Honorable Zoe Lofgren a Representative in Congress From the 
  State of California
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Ken Lucas, a Representative in Congress From the 
  State of Kentucky..............................................    27
The Honorable Kendrick B. Meek, a Representative in Congress From 
  the State of Florida...........................................    30
The Honorable Pete Sessions, a Representative in Congress From 
  the State of Texas.............................................    15
The Honorable Lamar S. Smith, a Representative in Congress From 
  the State of Texas.............................................     4
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas.................................................    33
The Honorable Greg Weldon, a Representative in Congress From the 
  State of Oregon................................................    21

                                WITNESS

The Honorable Charles McQueary, Ph.D., Under Secretary for 
  Science and Technology Science and Technology Directorate, U.S. 
  Department of Homeland Security
  Oral Statement.................................................     7
  Prepared Statement.............................................     9

                   MATERIALS SUBMITTED FOR THE RECORD

Reponses to Questions for the Record from Under Secretary Charles 
  E. McQueary....................................................    51

 
       HOMELAND SECURITY AND TECHNOLOGY: PREPARING FOR THE FUTURE

                              ----------                              


                        WEDNESDAY, MAY 21, 2003

                  House of Representatives,
         Subcommittee on Cybersecurity, Science and
                                  Research and Development,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2 p.m., in room 
2118, Rayburn House Office Building, Hon. Mac Thornberry 
[chairman of the subcommittee] presiding.
    Present: Representatives Thornberry, Sessions, Boehlert, 
Smith, Weldon, Camp, Linder, Lofgren, Andrews, Christensen, 
Etheridge, Lucas, Langevin, Meek, Cox (ex officio), and Turner 
(ex officio). Also present, Ms.Dunn.
    Mr. Thornberry. The subcommittee will come to order. This 
hearing of the Subcommittee on Cybersecurity, Science and 
Research and Development will take testimony today on Homeland 
Security Science and Technology: Preparing for the Future. It 
is the intention of the chairman and ranking member, Ms. 
Lofgren, that as many members as possible have a chance to ask 
questions. Therefore, we are going to ask that members strictly 
abide by the 5-minute rule and ask unanimous consent to waive 
oral opening statements beyond the chairman and ranking member, 
but allow all members to put a written opening statement into 
the record. And without objection, it is so ordered.
    I want to welcome members, witnesses and guests to this 
hearing. This subcommittee is charged with oversight of several 
complex and important issues related to homeland security. 
During the nearly 2 years which Congress considered legislation 
to create the Department of Homeland Security, I became 
convinced that one of the keys to success for the new 
Department would be the ability to identify and research and 
develop and field quickly products and services that help make 
us safer. Getting this part right is very important, 
organizationally and operationally. And whether it is computer 
technology that allows us to integrate government databases or 
whether it is new detectors that help keep radiological 
material from coming into this country, technology is central 
to a safer America.
    And yet we can not be satisfied with a government as usual 
approach where in the case of the things that are often 
discussed in this committee, it can take up to 20 years to 
field new technologies. We are facing an enemy that is fast, 
nimble and lethally aggressive, and we have got to be just as 
fast and just as aggressive, not just in pursuing the enemy, 
but in pursuing new technologies that help keep us safer.
    That is why I know the subcommittee is anxious to hear 
today how the new Department is doing to set up the Science and 
Technology Directorate. We are interested to see how the 
Department intends to identify existing technologies that we 
need and get them out into the field quickly. We are interested 
to see how the new Department intends to conduct research and 
development and set priorities in those areas. We are 
interested in how we can best ensure a productive cooperative 
relationship with the private sector, the academic community 
and government, because we are all going to have to work 
together if we are going to be successful. We are interested in 
whether the Homeland Security Act of 2002 needs to be changed 
in some way to help us get the job done.
    And I will say that this subcommittee is interested in 
being a full partner with the Department and the administration 
because it is only with a new kind of legislative executive 
partnership that we will be as successful as we need to be. We 
have a lot of challenges ahead of us. But obviously, we have 
the ability to work together and overcome them. Before 
yielding, I want to thank the Armed Services Committee for 
allowing us to use their facilities here. I also want to thank 
Eric Fischer and his team from the Congressional Research 
Service, who have done a terrific job in helping us prepare for 
this hearing, but also have prepared some outstanding reports, 
which I would commend to all members.
    Finally, I want to thank my partner on this subcommittee, 
Ms. Lofgren, for her help and her contributions in getting this 
subcommittee started as we are getting the full committee 
going. Ms. Lofgren brings a wealth of knowledge and expertise 
to these issues, as well as a cooperative spirit, and I 
certainly look forward to our continued work together and I 
would yield to her at this time.

     PREPARED STATEMENT OF THE HONORABLE MAC THORNBERRY, CHAIRMAN, 
  SUBCOMMITTEE ON CYBERSECURITY, SCIENCE, AND RESEARCH & DEVELOPMENT, 
                 SELECT COMMITTEE ON HOMELAND SECURITY

    I want to welcome Members, our witness, and guests to this hearing 
conducted by the Subcommittee on Cybersecurity, Science, and Research 
and Development of the Select Committee on Homeland Security.
    This Subcommittee is charged with oversight of several complex and 
important issues related to homeland security.
    During the nearly two years that Congress considered legislation to 
create the Department of Homeland Security, I became convinced that one 
of the keys to success for the new Department would be the ability to 
identify, research, develop, and field products and services quickly. 
Getting this part right--organizationally and operationally--is very, 
very important.
    Whether it is computer technology that allows government agencies 
to see the full range of information about a potential visitor to the 
United States or various sensors and detectors that help prevent 
weapons of mass destruction from being smuggled into the country, 
technology is central to a safer America.
    Yet, to be successful, we cannot be satisfied with a standard, 
government ``business as usual'' approach. We must do better. We are 
facing an enemy that is fast, nimble, and lethally aggressive. We've 
got to be just as fast and just as aggressive, not just in pursuing 
this enemy, but in pursuing new technologies that will help keep our 
cities and towns more secure.
    That's why the Subcommittee is anxious to hear how far along the 
new Department is in setting up the Science and Technology Directorate.
    That's why we're interested to see how the Department intends to 
identify existing technologies that are needed for homeland security 
and then field them quickly.
    That's why we're interested to see how the Department intends to 
conduct research and development in areas that are needed but do not 
presently exist.
    We are also interested in how the Department intends to set 
priorities, rather than simply spread money around indiscriminately.
    We're interested in how we can best ensure a productive, 
cooperative relationship among business, the academic community, and 
government because this challenge is going to require the best from all 
of us.
    We're interested in whether the Homeland Security Act of 2002 that 
established the Department needs to be tweaked or changed in some way 
to make sure that the job gets done.
    And we're interested in being full partners with the Department and 
the administration because it is only with a new kind of legislative-
executive partnership that we will be as successful as we need to be in 
protecting our homeland.
    We have enormous challenges before us--bureaucratic and political 
pressures among them. But together, we must overcome those challenges 
and quickly get tools that help protect and defend our homeland into 
the hands of those who need them.
    Before I turn to our witness, I want to thank Eric Fischer and his 
team from the Congressional Research Service for helping to prepare for 
today's hearing.
    I also want to thank my partner in this subcommittee, Ms. Lofgren, 
for her help and contribution to getting things going. She brings a 
wealth of knowledge and expertise to these issues, as well as a 
cooperative spirit, and I look forward to our continued work together.

    Ms. Lofgren. Thank you. Today is the first hearing for the 
Cybersecurity, Science and Research and Development Subject 
Committee. But before I make some brief comments on today's 
hearing, I want to take a minute to thank Chairman Mac 
Thornberry and his talented staff. I greatly appreciate your 
efforts to work in a bipartisan manner, and I look forward to 
cooperating with you in the coming months on the significant 
cybersecurity and technology challenges that our country faces. 
There is no shortage of issues that this subcommittee should 
address, and I am confident that we will be able to accomplish 
much together.
    Today's hearing marks the second time that I have had the 
opportunity to hear Dr. McQueary testify in front of Congress 
in the past week. Dr. McQueary appeared before the House 
Science Committee last Wednesday, and the fact that he has 
testified before two different committees recently, underscores 
the importance that we in Congress place in the mission of the 
science and technology directorate and, of course, the 
Department of Homeland Security as a whole.
    We face major challenges to secure our country. The Select 
Committee on Homeland Securities' oversight should be devoted 
to getting the new Department up and running as quickly and 
efficiently as possible. This subcommittee must also ensure 
that the issue of cybersecurity, science and research and 
development receive a proper level of attention within DHS 
itself.
    I want to be assured that Dr. McQueary has the budget, 
staff, resources and most important, access to get the job 
done. Since our appointment to this subcommittee, Chairman 
Thornberry and I have spent much of our time studying and 
learning about the many complex issues involving cybersecurity, 
science and research and development. These issues are 
sometimes difficult to grasp and not as easy to comprehend as 
the threats to our borders and infrastructure. I believe it is 
important for this subcommittee to help inform the public by 
explaining the threats and vulnerabilities involved in 
cybersecurity. I hope that Dr. McQueary will spend some time 
today explaining these threats and vulnerabilities. If these 
issues are better understood, then we can better prepare and 
defend our country and its citizens. I also would like to hear 
from you today on the Department's relationship with agencies 
like the National Science Foundation, the National Institute of 
Standards and Technology, and DARPA.
    It is critical that DHS cooperates with these and other 
like agencies. The Department can gain valuable experience from 
each. However, I also think it is important that these agencies 
remain independent from DHS. I am concerned that the Department 
may drain these agencies of their resources, and I don't want 
to hear from the good people at NIST that all their best staff 
has been detailed to DHS.
    Finally, I represent Silicon Valley, one of the most 
innovative places on earth. The people in the valley thrive on 
solving complex problems. Since my appointment, countless 
engineers, programmers, professors, researchers and high tech 
CEOs have approached me to express their interest in helping 
DHS with their mission. Some have innovative homeland security 
products. Others have theories on information systems 
protection, and some have seen, done academic studies on 
cybersecurity. All have valuable expertise to offer.
    The problem that almost all encounter is they do not know 
whom to approach to pass on their experience and ideas, and I 
hope that Dr. McQueary will shed some light on the structure of 
the science and technology directorate. I want to know what 
office will handle inquiries from the private sector and 
academic community. Thank you again for appearing today. I look 
forward to working with you, Dr. McQueary, in the weeks and 
months to come and certainly, our very able Chairman 
Thornberry, and I yield back the balance of my time, Chairman.
    Mr. Thornberry. I thank the gentlelady. And Dr. McQueary, 
let me welcome you. Let me explain just briefly that there are 
a variety of things going on at this time. Your colleague, Asa 
Hutchinson, is over in the Capitol giving a briefing to members 
and members are coming and going. I think there may also be a 
markup in the Judiciary Committee. I would yield to the 
gentleman from Texas, Mr. Smith, briefly for his personal 
explanation.
    Mr. Smith. Thank you Mr. Chairman. First of all, of course, 
thank you for convening such an important hearing. I don't know 
of a more important subject we can be considering. Also having 
served as the chairman of the Crime Terrorism Homeland Security 
Subcommittee, I have a special interest in cyber crime. Having 
said that, however, I do have a markup of the Judiciary 
Committee that is going on right now, so I want to explain to 
you and to our witness why I need to be leaving immediately. 
But I would ask you if it is at all possible to submit three 
questions that I have in writing to our witness and hope for a 
response in a reasonable amount of time.
    Mr. Thornberry. We will absolutely do so. Without objection 
those questions will be submitted for the record and we will 
work with the folks at the Department to get an answer.
    [The information follows:]

   PREPARED STATEMENT THE HONORABLE ZOE LOFGREN, A REPRESENTATIVE IN 
                 CONGRESS FROM THE STATE OF CALIFORNIA

    Today is the first meeting of the Cybersecurity, Science, and 
Research & Development Subcommittee. Before I make some brief comments 
on today's hearing, I want to take a minute to thank Chairman Mac 
Thornberry and his talented staff. I greatly appreciate it your efforts 
to work in a bipartisan manner, and I look forward to cooperating with 
you in the coming months on the significant cybersecurity and 
technology challenges that our country faces. There is no shortage of 
issues that this subcommittee should address, and I am confident that 
we will be able to accomplish much together.
    Today's hearing marks the second time that I have had the 
opportunity to hear Dr. Charles McQueary testify in front of Congress 
in the past week. Dr. McQueary appeared before the House Science 
Committee last Wednesday. The fact that Dr. McQueary has testified 
before two different committees recently underlines the importance that 
we in Congress place in the mission of the Science and Technology 
Directorate, and of course, the Department of Homeland Security (DHS) 
as a whole.
    We face major challenges in trying to secure our country. The 
Select Committee on Homeland Security's oversight should be devoted to 
getting the new Department up and running as quickly and efficiently as 
possible. This subcommittee must also insure that the issues of 
cybersecurity, science, and research & development receive a proper 
level of attention within DHS itself. I want to be assured that Dr. 
McQueary has the budget, staff resources, and most important, the 
access to get the job done.
    Since our appointment to this subcommittee, Chairman Thornberry and 
I have spent much of our time studying and learning about the many 
complex issues involving cybersecurity, science, and research & 
development. These issues are difficult to grasp, and not as easy to 
comprehend as the threats to our boarders and infrastructure. I believe 
it is important for this subcommittee to help inform the public by 
explaining the threats and vulnerabilities involved in cybersecurity. I 
hope that Dr. McQueary will spend some time today explaining these 
threats and vulnerabilities. If these issues are better understood, 
then we can better prepare and defend our country and its citizens.
    I also would like to hear from you today on the Department's 
relationship with agencies like the National Science Foundation (NSF), 
the National Institute of Standards and Technology NIST), and the 
Defense Advanced Research Projects Agency (DARPA). It is critical that 
DHS cooperate with these and other like agencies. The Department can 
gain valuable experience from each. However, I also think it is 
important that these agencies remain independent from DHS. I am 
concerned that the Department may drain these agencies of their 
resources. I do not want to hear from the good people at NIST that all 
of their best staff has been detailed to DHS.
    Finally, I represent Silicon Valley, one of the most innovative 
places on Earth. People in the Valley thrive on solving complex 
problems. Since my appointment, countless engineers, programmers, 
professors, researchers and high tech CEO's have approached me to 
express their interest in helping DHS with their mission. Some have 
innovative homeland security products, others have theories on 
information system protection, and some have even done academic studies 
on cybersecurity. All have valuable expertise to offer. The problem 
that almost all encounter is that they do not know whom to approach to 
pass on their experience and ideas. I hope Dr. McQueary will shed some 
light on the structure of the Science and Technology Directorate. I 
want to know what office will handle inquiries from the private sector 
and academic community.
    Thank you again for appearing today. I look forward to working with 
you in the weeks and months to come.

       PREPARED STATEMENT OF THE HONORABLE SHEILA JACKSON-LEE, A 
          REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA

    Mr. Chairman and Mr. Ranking Member, I thank you for convening this 
important hearing today to continue our efforts to protect our 
homelands.
    I look forward to hearing the testimony of our witness today. The 
Department of Homeland Security's Directorate of Science and Technology 
has a unique function. The Directorate is charged with developing and 
deploying cutting edge technologies and new capabilities so that the 
men and women responsible for protecting our homeland can do so most 
efficiently.
    The development of new technologies to protect our homeland opens 
the door to possible violations of personal rights and invasions of 
privacy. I am particularly concerned about the use of the internet to 
invade privacy in the name of conducting law enforcement 
investigations.
    The Select Committee on Homeland Security's Subcommittee on 
Cybersecurity, Science, Research, and Development has the 
responsibility of ensuring that violations of personal privacies and 
rights do not occur while still giving law enforcement agents adequate 
discretion to do their jobs.
    The Internet has become a cornerstone of our economy and 
information network. Our national infrastructure depends on maintaining 
the distribution of goods and services that are essential to the 
defense and economic security of the United States. To an ever 
increasing extent, this distribution is becoming dependent on the free 
use of the Internet. I am concerned that we will diminish the value of 
the Internet in our haste to protect the country against terrorist 
attacks.
    In addition to the use of the Internet as a market place for goods 
and services, the Internet may be the most perfect embodiment of the 
American ideals of free speech, open communication, and the 
``marketplace of ideas'' that has ever existed. As the Supreme Court 
has written, online ``any person with a phone line can become a town 
crier with a voice that resonates farther than it could from any 
soapbox.''
    Speakers and listeners with great and small resources have access 
to an almost unlimited amount of content and diversity of views. That 
marketplace of ideas is threatened when monopolies that control access 
to the Internet can also control the available speech.
    Internet Service Providers control both the content and the 
services that their customers can receive, which gives them the power 
to shape the market place of commercial goods and of ideas. It concerns 
me that commercial organizations have such power, but I am even more 
concerned about the power that the government is capable of assuming in 
its efforts to ensure cybernet security against terrorists.
    The United States has now reached the point where a total 
surveillance society has become a realistic possibility. Many people 
still do not grasp that Big Brother surveillance is no longer the stuff 
of books and movies. Given the capabilities of today's technology, the 
only thing protecting us from a full-fledged surveillance society are 
the legal and political institutions we have inherited as Americans. 
Unfortunately, the September 11 attacks have led some to embrace the 
fallacy that weakening the Constitution will strengthen America.''
    From government watch lists to secret wiretaps - Americans are 
unknowingly becoming targets of government surveillance. It is 
dangerous for a democracy that government power goes unchecked and for 
this reason it is imperative to maintain government accountability, no 
matter how frightened we become by the threat of terrorism.
    I look forward to hearing Dr. McQueary's testimony to address these 
concerns.

PREPARED STATEMENT OF THE HONORABLE BOB ETHERIDGE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NORTH CAROLINA

    Thank you, Chairman Thornberry and Ranking Member Lofgren, for 
holding this hearing. I would also like to welcome Dr. Charles McQueary 
who hails from the great state of North Carolina, although he does not 
have the privilege of living in the Second Congressional District.
    The work of the Science and Technology Directorate of the 
Department of Homeland Security is critical in the protection of 
Americans both here and abroad. This group is responsible for research 
and development of technologies that will protect not only our nation's 
critical infrastructure, but more importantly, the products developed 
by this group, in conjunction with private contractors and other 
government agencies, will help supply and protect our first responders.
    I understand that the Directorate's immediate priorities include 
developing and deploying systems to help protect the United States from 
illicit radiological, nuclear, biological and chemical agents, as well 
as high explosives. I am glad to see that the Directorate intends to 
work closely with private industry to identify appropriate and!or 
adaptable products that are on the shelf or in the development 
pipeline. Our country is blessed with entrepreneurs with great talent, 
good ideas and amazing ingenuity, and it is incumbent upon the federal 
government to utilize these resources.
    America is also the home of some of the best research universities 
in the world, many of them in North Carolina. The professors, 
researchers and students at these world-class institutions are involved 
in cutting-edge research that have a broad array of applications for 
homeland security. It is critical that the Department of Homeland 
Security encourage and foster this research, as well as the education 
of the scientists, mathematicians and other technologists our country 
needs now and in the future to continue America's tradition of state-
of-the-art research and development.
    I also look to the Science and Technology Directorate to look 
beyond colleges and universities to promote science and math education 
for our children. In the 2001 Hart-Rudman report ``Road Map for 
National Security: Imperative for Change,'' the authors state that the 
greatest threat to our country, second only to the detonation of a 
weapon of mass destruction, would be ``a failure to manage properly 
science, technology and education for the common good over the next 
quarter century.''
    The Department of Homeland Security will have to balance response 
to current threats with long-range planning. Currently, one-third of 
all U.S. science and engineering doctoral degrees and 40 percent of 
PhDs in computer science go to foreign students. Studies have shown 
that American students sorely lag behind their counterparts in other 
nations in science and math education. Many students who do go on to 
college do not enter technology fields because they see it as ``too 
hard,'' and the financial rewards do not seem to balance the time and 
effort it takes to get advanced degrees needed for top-level research 
positions.
    The federal government must work with private industry and schools 
across the country to improve basic science and math education by 
providing teachers with the opportunities for advanced training in 
these fields, the proper equipment for labs and experiments, and time 
to teach. Gifted teachers prove every day that students can learn and 
come to love science and math. Our children are our future, and 
investment now in their educations will provide benefits for many years 
to come.
    Secretary McQueary, thank you again for briefing our Subcommittee 
on the Science and Technology Directorate. I am sure that our questions 
and concerns will necessitate many repeat visits, and I look forward to 
working with you to determine the best products, methods and procedures 
for protecting our country.

    Mr. Thornberry. Let me now recognize our witness, honorable 
Dr. Charles McQueary, Under Secretary for Science and 
Technology. Dr. McQueary has previously served as president of 
the business units for General Dynamics, AT&T and Lucent 
Technologies. Perhaps most impressively, he holds a Ph.D. in 
engineering mechanics and an M.S. in mechanical engineering 
from the University of Texas. And no further qualifications are 
necessary.
    Dr. McQueary, thank you for being here and the floor is 
yours.

   STATEMENT OF THE HONORABLE CHARLES McQUEARY, PH.D., UNDER 
 SECRETARY FOR SCIENCE AND TECHNOLOGY, SCIENCE AND TECHNOLOGY 
       DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Dr. McQueary. Thank you, Mr. Chairman. Congresswoman 
Lofgren, distinguished members of the committee, it is a 
pleasure for me to be here today to discuss the Department of 
Homeland Security's Science and Technology Directorate. It is a 
great honor and a great responsibility to lead the science and 
technology efforts of this Directorate and the Department to 
meet the challenges of protecting our homeland and our way of 
life. The most important mission for the Science and Technology 
Directorate is to develop and deploy cutting-edge technologies 
and new capabilities so that the dedicated men and women who 
serve to secure our homeland can perform their jobs more 
effectively and efficiently. They, as well as the American 
people, are my customers.
    Our plans for fiscal year 2004 reflect this relationship 
and our desire is to provide capability to the field as rapidly 
as possible. The threats to our homeland are many. We must 
constantly monitor these threats and assess our vulnerabilities 
to them. We must develop new and improved capabilities to 
counter chemical, biological, radiological and nuclear, 
explosive, and cyber threats. And we must mitigate the effects 
of terrorist attacks should they occur. The Science and 
Technology Directorate's program must also enhance the 
conventional missions of the Department to protect and provide 
assistance to civilians in response to natural disasters, law 
enforcement needs, and other activities.
    This Directorate will support the mission needs of the 
Information Analysis and Infrastructure Protection Directorate, 
the Border and Transportation Security Directorate, the United 
States Coast Guard, the United States Secret Service, and the 
Emergency Preparedness and Response Directorate through 
coordinated and focused research and development programs. 
Through the initial planning process for the Science and 
Technology Directorate, we were guided by current and future 
threat assessments, by our current capability to respond to 
that threat, and by the priorities spelled out in the 
President's National Strategy for Homeland Security.
    Thus, our key specific areas of emphasis are listed as 
follows: Develop and deploy state-of-the-art high-performance 
low-operating-cost systems to prevent the illicit traffic of 
radiological nuclear materials and weapons into and within the 
United States. Second item is to provide state-of-the-art high-
performance, low-operating-cost systems to rapidly detect and 
mitigate the consequences of the release of biological and 
chemical agents.
    Third, provide state-of-the-art high-performance, low-cost-
operating systems to detect and prevent illicit high explosive 
transit into and within the United States. Fourth, enhance the 
missions of the Department operational units through targeted 
research, development, test and evaluation, and systems 
engineering and development. Fifth, develop and provide 
capabilities for protecting cyber and other critical 
infrastructures. Sixth, develop capabilities to prevent new 
technology as a surprise by anticipating emerging threats. And 
finally, item Number 7, develop, coordinate, and implement 
technical standards for chemical, biological, radiological, and 
nuclear countermeasures.
    We will implement our activities through focused portfolios 
that support our mission. These portfolios are as follows: 
biological countermeasures, chemical and high explosive 
countermeasures, radiological and nuclear countermeasures, 
critical infrastructure protection, threat and vulnerability 
testing and assessment, and the standards and State and local 
program. Through the Homeland Security Advanced Research 
Projects Agency, our directorate will explore cutting-edge 
approaches to addressing current and emerging threats. It is 
our estimate that at least $350 million of the overall requests 
will be carried out by a HSARPA in fiscal year 2004. Our 
strategy includes evaluation, prototyping and rapid deployment 
of available technologies to the field.
    To do this, we will establish a technology clearinghouse 
and partnership with the Technology Support Working Group, 
which has performed a similar mission over the past several 
years with great success for the Departments of State and 
Defense. Through this partnership, we will encourage and 
support innovative solutions to enhance homeland security, and 
we will engage the private sector in rapid prototyping of 
homeland security technologies.
    A knowledgeable workforce focused on Homeland Security is 
essential to our ability to address advancements in science and 
technology. Declining enrollments in specific academic fields 
such as radiochemistry is leading to a lack of workers in areas 
of science and technology, important to America's efforts to 
protect the homeland. Therefore, we will establish fellowship 
programs at the graduate and post-graduate levels to encourage 
research activities in these areas, and thus develop the 
foundation America needs to sustain our technical advantage in 
the war against terrorism.
    We will also establish university centers of excellence to 
provide an enduring and focused research capability to the 
Nation in this effort.
    Mr. Chairman, thank you again for the opportunity to appear 
before this subcommittee. This concludes my prepared statement. 
With the committee's permission, I would like to request that 
my formal statement be submitted for the record.
    Mr. Thornberry. Without objection.

         PREPARED STATEMENT OF THE HON. DR. CHARLES E. McQUEARY

Introduction
Good afternoon. Chairman Thornberry, Ranking Member Lofgren, and 
distinguished members of the subcommittee. It is a pleasure to be with 
you today to discuss the Department of Homeland Security's Science and 
Technology Directorate. It is a great honor and a great responsibility 
to lead the science and technology efforts of this Directorate and the 
Department to meet the challenges of protecting our homeland and our 
way of life.
The most important mission for the Science and Technology Directorate 
is to develop and deploy cutting edge technologies and new 
capabilities, so that the dedicated men and women who serve to secure 
our homeland can perform their jobs more effectively and efficiently--
they are my customers. Our plans for fiscal year 2004 reflect this 
relationship and our desire to provide capability to the field as 
rapidly as is possible.
The threats to our homeland are many. We must constantly monitor these 
threats and assess our vulnerabilities to them; develop new or improved 
capabilities to counter chemical, biological, radiological, nuclear, 
explosive, and cyber threats; and mitigate the effects of terrorists 
attacks should they occur. The Science and Technology Directorate's 
program must also enhance all of the Department's missions, whether or 
not they are focused on the threat of terrorism.
Throughout the initial planning process for the S&T Directorate we have 
been guided by the Homeland Security Act, current threat assessments, 
our understanding of capabilities that exist today or that can be 
expected to appear in the near term, and, importantly, by the 
priorities spelled out in the President's National Strategy for 
Homeland Security.
Thus, our key specific areas of emphasis are to:
        <bullet> Develop and deploy state-of-the art, high-performance, 
        low operating-cost systems to prevent the illicit traffic of 
        radiological/nuclear materials and weapons into and within the 
        United States.
        <bullet> Provide state-of-the art, high-performance, low 
        operating-cost systems to rapidly detect and mitigate the 
        consequences of the release of biological and chemical agents.
        <bullet> Provide state-of-the art, high-performance, low 
        operating-cost systems to detect and prevent illicit high 
        explosives transit into and within the United States.
        <bullet> Enhance missions of all Department operational units 
        through targeted research, development, test and evaluation 
        (RDT&E), and systems engineering and development.
        <bullet> Develop and provide capabilities for protecting cyber 
        and other critical infrastructures.
        <bullet> Develop capabilities to prevent new-technology as a 
        surprise weapon by anticipating emerging threats.
        <bullet> Develop, coordinate and implement technical standards 
        for chemical, biological, radiological, and nuclear (CBRN) non-
        medical countermeasures.

Research, Development, Test and Evaluation Portfolio
We are requesting $803M in fiscal year 2004 to provide applied 
research, development, demonstrations, and testing of products and 
systems that address these key areas of emphasis. The Science and 
Technology Directorate will implement its activities through focused 
portfolios that address biological, chemical, radiological and nuclear, 
and cyber threats; support the research and development needs of the 
operational units of the Department; and receive innovative input from 
private industry and academia as well as national and Federal 
laboratories. In particular, the Homeland Security Advanced Research 
Projects Agency (HSARPA) will have an essential role in meeting the 
goals and objectives of the Department and the Directorate across the 
range of the portfolios.

These portfolios and activities are described as follows:
Biological Countermeasures--Biological threats come in many forms. They 
can be toxins, viruses, or bacteria, distributed by airborne aerosols, 
or in food or water supplies, or in the case of contagious diseases, 
spread among infected people or animals. Timely detection and early 
initiation of prophylaxis and decontamination is the key to mitigating 
the consequences of any biological attack, should it occur. We are 
requesting $365M in fiscal year 2004 to:
        <bullet> Develop and deploy a Biological Warning and Incident 
        Characterization System (BWIC). BWIC will consist of three 
        major elements: a nationwide bio-surveillance system that looks 
        for early biological indicators of the exposure of people, 
        animals and plants to biological agents; development of a 
        public health surveillance system working through the 
        Department of Health and Human Services and its Centers for 
        Disease Control and Prevention's (CDC) public health 
        surveillance system to detect early adverse health events in 
        the population as a result of such agents; and environmental 
        monitoring networks in selected cities that can detect the 
        agent directly. S&T plans to work closely with the CDC in 
        developing this seamless sentinel system. This activity will be 
        available as a pilot in fiscal year 2004.
        <bullet> Continue the National Biodefense Analysis and 
        Countermeasures Center (NBACC), initiated in fiscal year 2003, 
        as a key component in implementing the President's National 
        Strategy for Homeland Security. The NBACC will leverage the 
        expertise of America's cutting- edge medical and biotechnical 
        infrastructure to focus on the biological agent threat, 
        including performing risk assessments. It is an essential, new 
        approach to integrating national resources for homeland 
        security, supporting public health, and law enforcement. The 
        analytical capabilities of the NBACC will be functional in 
        fiscal year 2004, and closely coordinated with the National 
        Institute of Health and the Food and Drug Administration.
Finally, the Plum Island Animal Disease Center is expected to be 
transferred from the Department of Agriculture to DHS in June 2003. We 
plan to work closely with USDA in areas of mutual concern in animal 
disease research and diagnostics.
Chemical Countermeasures--According to the National Research Council's 
Report Making the Nation Safer, ``chemicals continue to be the weapon 
of choice for terrorist attacks. They are readily available and have 
the potential to inflict significant casualties.'' In fact, terrorist 
attacks on civilian populations with chemical warfare agents have 
already occurred. In the Aum Shrinrikyo attack on the Tokyo subway, 
casualties were limited only because the attackers did not use an 
effective agent dispersal method. Similarly, accidental releases of 
toxic industrial chemicals have demonstrated that materials relatively 
widely available in modern industrial societies can result in a large 
number of casualties.
Significant work on chemical defense in military situations has been 
conducted focusing on battlefield attacks using chemical warfare 
agents. However, major gaps exist regarding civilian defense, most 
notably in strategies for dealing with the broader spectrum of threats 
(e.g. toxic industrial materials); detection systems capable of 
continuous monitoring with very low false positive rates; deployed 
chemical defense systems; and a robust forensic capability. The 
Chemical Countermeasures portfolio is requesting $55M to address these 
shortcomings through a balanced mix of activities: 1) systems studies 
will be used to prioritize efforts amongst the many possible chemical 
threats and targets; 2) new detection and forensic technologies will be 
developed and demonstrated; 3) protective systems that integrate 
physical security, ultra-sensitive detection, information management, 
and consequence management strategies will be developed and piloted in 
selected high value facilities such as airports and subways; 4) the 
Science and Technology Directorate will work with the Information 
Analysis and Infrastructure Protection and Borders and Transportation 
Security Directorates to characterize and reduce the vulnerability 
posed by the large volumes of toxic industrial materials in use by the 
critical infrastructures, stored or transported within this nation; and 
5) ensuring coordination with the CDC for public health response and 
management of detected events.
High Explosives--Detection of high explosives and mitigation is now a 
prime focus of the Transportation Security Administration (TSA). The 
current terrorist threat extends beyond air transport to all other 
modes of transportation and fixed facilities. The Department of 
Homeland Security will build on TSA's R&D in this area to develop and 
deploy more effective explosives detectors that can address the broader 
threats. Development of reliable stand-off detection capability of 
large quantities of explosives, especially in vehicles, is particularly 
needed. For this purpose $1OM is requested in fiscal year 2004.
Radiological and Nuclear Countermeasures--Countering the threat of 
radiological or nuclear attack is one of the top priorities of the 
Department of Homeland Security and the Science and Technology 
Directorate. The Radiological and Nuclear Countermeasures portfolio is 
requesting $13 7M to address this threat through a comprehensive 
systems approach that emphasizes early detection; effective 
intervention capabilities at the Federal, state and local levels; 
development of mitigation technologies and science-based consequence 
management programs for use should an attack occur; and effective 
training at all levels of response. Concurrent efforts focused on 
deployment, evaluation and improvements to currently available 
technologies; a research and development program for advanced 
technologies and their continuous insertion into operational use; and 
the provision for an enduring science and technology base to address 
long-term challenges such as the detection of highly-enriched uranium 
and heavily shielded radioactive sources is used to address both 
today's threats and those of the future.
Threat and Vulnerabilitvg Testing and Assessment--The purpose of the 
Threat and Vulnerability, Testing and Assessment (TVTA) program is to 
create advanced modeling, and information and analysis capabilities 
that can be used by the organizations in the Department to fulfill 
their missions and objectives. One thrust of this program is to develop 
advanced computing, information, and assessment capabilities in support 
of threat and vulnerability analysis, detection, prevention and 
response. This portfolio also conducts extensive research and 
development activities in the area of cybersecurity, addressing areas 
not currently addressed elsewhere in the Federal government. An example 
of this is developing tools and techniques for assessing and detecting 
the insider threat. The TVTA program uses a strategy of multi-year 
investments that infuse new capabilities into the DHS mission 
directorates on a regular basis based on strategic five year road maps. 
A spiral development process ensures early use and feedback by intended 
users and operators of all technologies developed within the program. 
Successively, more complete and refined prototypes lead to operational 
pilots and fully operational systems for the Department organizations. 
$90M is requested in fiscal year 2004 to support this activity.
Critical Infrastructure Protection--Our national infrastructure 
provides the continual flow of goods and services that are essential to 
the defense and economic security of the United States. Many of these 
functions are so vital that major disruptions would cause severe 
consequences to the behavior and activities of our citizens. Our free 
society and the high quality of life that we value depend upon the 
reliable operation of the infrastructure. In addition, we must protect 
the lives of our citizens and key assets such as many national 
monuments and icons.
The Critical Infrastructure Protection (CIP) portfolio has three 
primary goals: (1) develop, implement, and evolve a rational approach 
for prioritizing CIP strategies and resource allocations using 
modeling, simulation, and analyses to assess vulnerabilities, 
consequences, and risks; (2) propose and evaluate protection, 
mitigation, response, and recovery strategies and options; and (3) 
provide real-time support to decision makers during crises and 
emergencies--$5M is requested in fiscal year 2004 for this activity, 
which also leverages work being done elsewhere in the Federal 
government and the Department of Homeland Security.
Standards/State and Local Programs--Standards should be applied to all 
elements of the homeland security infrastructure to ensure a robust 
capability to defend against and to respond to any crisis situation--
whether it is the result of terrorism, natural causes, or a 
catastrophic accident. Organizing and integrating the efforts of the 
government and the private sector will enable the Department of 
Homeland Security to develop standards for equipment used for detection 
of materials that could be used in a terrorist attack. This will reduce 
the probability of a successful terrorist attack on the United States 
and facilitate development of a vital and enduring ability to respond 
to national emergencies.
The Standards/State & Local Program will provide consistent and 
verifiable measures of effectiveness of homeland security related 
equipment and systems in terms of basic functionality, appropriateness 
and adequacy for the task, interoperability, efficiency, and 
sustainability. The Science and Technology Directorate will facilitate 
the development of guidelines in conjunction with both users and 
developers. The guidelines will encompass user needs and operating 
conditions, as well as the capabilities and the limitations of the 
technologies. The Standards/State and Local Program will develop, in 
collaboration with operational end-users, performance measures, testing 
protocols, certification methods, and a reassessment process 
appropriate to each threat countermeasure and for the integrated 
system. The Standards/State and Local Program will address all elements 
of the homeland security mission including equipment, information, 
analyses, personnel, and systems. Special emphasis will be placed on 
soliciting input from the actual users in the state and local response 
communities, and on providing effective methods for communicating 
information back to these agencies.
Major program objectives include working with the private sector to 
establish a network of homeland security certification laboratories. 
This will provide a consistent level of assurance in the effectiveness 
of detection and other operational equipment. Consistent standards for 
training and certification of personnel will also be developed. The 
program will continue to broaden the suite of technical standards for 
various forms of equipment and systems and will provide protocols and 
standard data collection formats for test and evaluation projects 
undertaken by the Science and Technology Directorate. $25M is requested 
in fiscal year 2004 to support this important effort.
Support to Department of Homeland Security Components--The Science and 
Technology Directorate has the responsibility to provide Federal, state 
and local operational end-users with the technology and capabilities to 
protect the United States homeland from catastrophic terrorist attacks 
and enhance their capabilities for conducting their conventional 
missions. An essential component of this responsibility is to 
coordinate and collaborate with the other components of the Department 
to assist and enhance their technical capabilities through integrated 
research and development activities. The integration of the Science and 
Technology Directorate research and development efforts with the 
Information Analysis and Infrastructure Protection Directorate is 
specifically described in the Threat and Vulnerability, Testing and 
Assessment, and the Critical Infrastructure Protection portfolios. In 
addition, the Science and Technology Directorate will support the 
mission needs of the Border and Transportation Security Directorate, 
the United States Coast Guard, the United States Secret Service and the 
Emergency Preparedness and Response Directorate through coordinated and 
focused research and development programs. Research and development in 
potentially high payoff technologies will be emphasized. $55M is 
requested in fiscal year 2004 for this purpose.
Rapid Prototyping Program--Significant capabilities exist in private 
industry for the rapid development and prototyping of technologies in 
support of the homeland security mission. A mechanism to quickly and 
easily access the capabilities of private industry will allow the 
Department of Homeland Security to more effectively fulfill its mission 
requirements. The Science and Technology Directorate will establish a 
partnership with the Technical Support Working Group (TSWG) to provide 
the Department with a technology clearinghouse to encourage and support 
innovative solutions to enhance homeland security and to engage the 
private sector in rapid prototyping of homeland security technologies. 
$30M is requested in fiscal year 2004 to solicit from the private 
sector near-term capability that can be rapidly prototyped and fielded.
Homeland Security Fellowship Programs Programs--Advancements in science 
and technology have the potential to change or increase the threats to 
our security; these advancements also improve our ability to thwart 
these emerging threats, A knowledgeable workforce focused on homeland 
security is essential to our ability to address advancements in science 
and technology.
The vast scope of the science and technology needed to address homeland 
security coupled with declining enrollments in specific areas such as 
nuclear science and technology, and radiochemistry are leading to a 
lack of qualified applicants for relevant research and development. 
This program requests $10M to support strategic partnerships with the 
academic community to provide support for qualified students and 
faculty.
Emering Threats--Advancements in science and technology have the 
potential to change or increase the threats to our security. These 
advancements also improve our ability to thwart these emerging threats.
The Emerging Threats program will support the exploration of 
innovative, cross-cutting, out-of- the box approaches for anticipating 
and responding to new and emerging threats. It will also establish and 
support studies and analyses to be conducted by the new Homeland 
Security Institute. $22M is requested in fiscal year 2004 for this 
purpose.
The scope of the work to be conducted by this budget is broad but 
focused on the areas that improve our capabilities to thwart terrorist 
attacks by early detection and identification of the threat, effective 
protection and intervention technologies, mitigation of potential 
consequences should an attack occur, and a robust forensics and 
attribution capability. Our strategy includes early deployment of off-
the-shelf technologies to provide initial defensive capability and 
near- term utilization of emerging technologies to counter today's 
terrorist threats and the development of new capabilities to thwart 
future and emerging threats. A key part of our efforts will be 
conducted through the Homeland Security Advanced Research Projects 
Agency to engage industry, academia, government, and other sectors in 
innovative research and development to meet operational needs. Although 
I have described the budget request along product lines, such as 
biological and chemical countermeasures, it is our estimate that at 
least $350M of the overall request will be carried out by HSARPA in 
fiscal year 2004.
Mr. Chairman and members of the subcommittee, this concludes my 
prepared statement. I would be pleased to address any questions.

     McQueary. And I would now be pleased to answer any 
questions that you might have for me.
    Mr. Thornberry. Thank you. I will reserve my questions 
towards the end and recognize the ranking member, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. And thank you, 
Doctor. I assume, from your testimony, that the technology 
clearinghouse, or partnership, would be the point of contact 
for individuals who have technology that they want to make 
known to you. I am wondering, and I think the chairman has had 
the same experience I have had, and I think all the members 
have had. I mean, there are a lot of people with good ideas and 
some of them aren't very good as well. There are people who are 
vendors and there is nothing wrong with that, but it is 
certainly not something that the committee wants to deal with.
    We want to make sure that vendors are dealt with in an 
appropriate fashion administratively, but that good ideas have 
an opportunity to be heard because there are some very smart 
and innovative things that are out there. Can you tell us, with 
some detail, how people with ideas or products may interface 
with you specifically so that we can deal with these 
individuals in an appropriate manner?
    Dr. McQueary. I would be happy to do that. As you may 
recognize, we are just building the Science and Technology 
Directorate, and we are about 50 people at the present time and 
continuing to grow. And so our ability to be able to respond to 
all of the inputs we get has been limited from the standpoint 
of having face-to-face contact. So with that as the backdrop, 
we have really three methods that are available to us.
    One, we have enlisted the Technical Support Working Group, 
from which we have recently issued a broad agency announcement 
to indicate areas that we have interest in, and we will also 
use that same organization to review for us and make 
recommendations on an e-mail site that we have. It is 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b3828222e25282e653f2e2823252427242c320b2f2338652c243d">[email&#160;protected]</a>, which, at the present time, I have, 
I would say, about 500 inputs that have come in from various 
industry sources. So those two areas. And then--when we see 
things that look like they might have near-term applicability 
we are actually inviting people in to meet with them to hear 
what kinds of things that might be of interest.
    So it is really three methods that we have. And my 
objective is to get the point where we can respond in a very 
respectful and rapid way to the inputs we are getting, because 
I am finding there are an enormous number of ideas out in 
America that people have to offer for us, and what we need to 
do is be in a position to evaluate those.
    Ms. Lofgren. On a similar vein, there are certainly, you 
know, people with a product to sell are trying to sell a 
product and that may be good or bad depending on how good a 
product it is. The academic community has a different focus 
obviously. And I am aware, and I am sure other committee 
members are aware that there are some incredible talent out in 
our academic communities, and that is a lot of transportation 
to and fro between defense agencies and academia as well. 
Certainly, in California we have a wealth of information both 
at Berkley and at Stanford, and I am wondering if you can give 
us some insight on how we might best incorporate the wealth of 
talent information ideas that we find at such academic 
institutions with what you are doing in a way that would be 
most productive.
    Dr. McQueary. Well, first of all, if you know of something 
specifically, we would certainly encourage you to either 
contact us directly, have your staff contact us, or have 
someone from the organization contact us too using the methods 
that I described earlier, because we are anxious to hear about 
as many things as we can. I personally am trying to get out and 
to see and listen to as many different things as I can. 
Obviously my ability to be able to do that every day is not 
possible. And with our relatively small staff, we are having it 
is a challenge to be able to get the people out on the road to 
listen to the many different things. But universities are 
extremely important to us and will be an important part of our 
program as we go forward and we certainly expect to find 
cutting-edge research in the university.
    We expect we will find instances where private industry and 
universities partner in order to create a broader capability to 
bring things to us. And so certainly, universities are going to 
be a key issue and, of course, we are going to identify some 
number of centers of excellence that will be in universities as 
a part of our overall program.
    Ms. Lofgren. Perhaps the committee could be of assistance 
to you, as we--the chairman and I have talked about our work 
plan through the year and even have thought about going out 
into the country and maybe we can collaborate, the three of us, 
on how to bring all of those talents together.
    Dr. McQueary. I would welcome the opportunity to discuss it 
in more detail with you.
    Ms. Lofgren. Last week, Chairman Boehlert asked if you 
could provide him with a list of people and dollars working on 
cybersecurity nwithin DHS. Have you had a chance to do that 
yet.
    Dr. McQueary. No, we have not. We have not completed that 
yet. But we will provide that as we indicated.
    Ms. Lofgren. I wonder if this committee could also get a 
copy of that.
    Dr. McQueary. Absolutely. We would be happy to do that.
    Ms. Lofgren. Thank you very much. Also last week, we asked 
if we could get a copy of the memorandum of understanding 
signed on May 19 between DHS and the Department of Commerce, 
specifically with NIST. Has the MOU been signed yet?
    Dr. McQueary. No, it actually has not been signed. We ran 
into scheduling difficulty and I expect to meet with Secretary 
Phil Bond tomorrow to accomplish that. That is the current 
plan. One never knows when the schedule may have to be changed 
again, but that's our current plan.
    Ms. Lofgren. Again, perhaps this committee could also get a 
copy of this MOU.
    Dr. McQueary. Absolutely. Anything we have is available to 
you.
    Ms. Lofgren. Also, last week, we had a discussion--brief 
discussion of the--what is necessary to provide an analysis of 
biometric standards. And I see actually since the chairman's 
being very kind, my time is up and we probably will have time 
for a second round. I am going to reserve that question and set 
an example for all of us to stay within our 5 minutes.
    Mr. Thornberry. The Chair thanks the gentlelady, and it is 
my intention to have another round of questions, particularly 
if folks are as good as the ranking member in observing the 
clock. The Chair would yield at this time to the vice chairman 
of the subcommittee, the gentleman from Texas, Mr. Sessions.
    Mr. Sessions. I thank the chairman very much, and also 
greatly respect and appreciate the questions that have been 
asked by the ranking member.
    Dr. McQueary, welcome. We are delighted that you are here 
today. As you can tell you have an eager group of members in 
front of you who are really after information from you to know 
how we should proceed. Obviously, I believe that the road map 
that you have given us today is not only well presented and 
well prepared, but gives us an idea of the measures that you 
have before you.
    The first question I would have to you is as related to 
page 3, where you go through the seven pieces or piece parts, 
things that you are interested in doing. Where did these 
pieces--were they handled by some portion of government before 
you came into this job? Is someone else--had they developed 
these? It was somewhere, or was this something that you believe 
that the government is taking up for the first time?
    Dr. McQueary. If you could guide me, which page, what are 
you referring to?
    Mr. Sessions. Page 3.
    Dr. McQueary. Of my oral remarks, or--
    Mr. Sessions. Yes, sir. It would be in your oral remarks. 
For instance number one is develop and employ state of the 
art--
    Dr. McQueary. Oh, yes.
    Mr. Sessions. Those things, did those--did you come up with 
those yourself, or had work been underway in some other part of 
the government and then you had to go in and extract that?
    Dr. McQueary. Well, if you go back to the President's 
National Strategy on Homeland Security, you will find that each 
and every one of those are listed as key priorities in the 
National Strategy. So we have taken that as explicit guidance 
of our work package. We have also reviewed it in areas to see 
whether it should be supplemented, and I would say that at this 
point, not only I but also the team who has been working on 
this are very comfortable with those seven items as being the 
key priorities for us.
    Mr. Sessions. I am also. So include me in that list of 
people.
    Dr. McQueary. All right. Thank you.
    Mr. Sessions. What my question is, sir, is had someone in 
this government been working on any of these products before 
you listed them where there would be prior work that could be--
had been done to where you would review, or at least take up 
where that had come? Because it seems like this will be, 
obviously, your function. Are you picking up the pieces of any 
of these from some work that had previously been done?
    Dr. McQueary. Yes. In fact, many of those items were 
already being investigated by the Department of Energy and that 
was transferred to us as a part of the overall restructuring to 
form the Department of Homeland Security. So most of those 
items that are listed there, and I could be--if you would like 
me to be--I would be happy to provide you with explicit ones.
    Mr. Sessions. No. I am very happy--what you are saying is 
that some of this work had been going on. Did you get those 
people with them, too?
    Dr. McQueary. We did not--we received six people out of 
DOE, and in the case of work that's being done at the national 
labs, of course those people are available to us. But we did 
not get more than the six from DOE in terms of program managers 
and people who run the programs.
    Mr. Sessions. These items that are listed here, come--and I 
think are listed properly, and I agreed with them, but they 
come at a high priority to this Congress and certainly the 
American public at this time. Can you talk with me about the 
rapid prototyping program and how quickly you believe that they 
will be to a point to where you are satisfied that they are 
producing not only the processes to evaluate these items, but 
to move them forward to where they become readily available to 
us? Would you mind spending just a minute and talking about 
that because that is going to decide, I believe, our success or 
failure in the immediate future. And your time table as to an 
evaluation there would help this committee.
    Dr. McQueary. If I could back up just a little from that 
question and provide a little bit more detail for you. Our 
primary focus today, if you will, and for the next several days 
and short number of months is to investigate what kinds of 
things already exist out in America today that we believe could 
be brought to the test stage where we could go into the field 
and try these things, and then initiate a development program 
and subsequent manufacture if that seems to be productive.
    Now, I believe that you have--the question you have asked, 
I am interpreting that to be a little bit later in the process 
in which we have got, we have had an idea. We develop a 
prototype and we are not quite sure what to do. My experience 
in industry is that it is very important if you have a 
prototype you must go into a full-scale development within a 
short time frame, and also, in order to be able to effectively 
transfer whatever the product might be into manufacturing, if 
you expect to be able to get it in a timely fashion and at a 
cost, you can afford and get it on a schedule that--and be able 
to have it perform the way you want it to perform. So--
    Mr. Sessions. Good. I completely agree with that. I am just 
going to make one additional comment, and then I am going to 
yield my time. It is my hope that we can as rapidly as 
possible, and is seems like it fits your philosophy, to 
determine as quickly as possible what is out there, how it 
might be used, quickly deployed. And as long as we get 
something that's leading edge, I hope we don't have to be 
perfect with it.
    Dr. McQueary. I am believe the 95 percent quickly, is much 
better than 99 percent if it takes forever.
    Mr. Sessions. Right. And so I am very hopeful that you will 
find that this rapid prototyping program lives up to its name. 
And I will be intensely interested in seeing the success of 
that. And I want to thank you for being here today. I yield 
back, chairman.
    Dr. McQueary. Thank you.
    Mr. Thornberry. I thank the gentleman. And I think he is 
exactly right. The Chair yields to the gentleman from North 
Carolina, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman. And let me welcome 
you again also and thank you. I want to ask one question, a 
little bit off of cybersecurity, but it's important. You 
visited, I think, in the last couple of weeks, with a number of 
the folks in universities in North Carolina. And one of the 
individuals, Dr. Barker, I believe, who is the director of 
Textile Production and Comfort Center, raised an issue about 
the need for consistent standards for first responder 
equipment. Could you sort of summarize where we are with that? 
You had indicated that we were going to be working with NIST to 
get a memorandum of understanding, so we would have a 
consistent standard across as we spent money on that very 
quickly. Can you sort of give us some indication of where we 
are?
    Dr. McQueary. Well, yes. As I indicated earlier, we expect 
to sign a memorandum of understanding with NIST tomorrow, 
assuming things come as we think they are. We have already 
issued the draft standards for radiological devices because 
those are important ones, and we would expect and we are doing 
that, by the way, in concert with support from NIST, as well as 
the American National Standards Institute, too, as well as some 
other standards agency. And so that is our approach. And we 
will continue that as being a long-term effort. We have, I 
believe, $15 million program in fiscal year 2003, and 25 
recommended for fiscal year 2004 to make sure that we do 
continue that effort. It is very important.
    Mr. Etheridge. Great. Thank you, sir. Last week when you 
testified before the House Science Committee, you talked about 
the need for increased spending on cybersecurity and I think 
this committee feels strongly about that. Yesterday, Secretary 
Ridge indicated that more than 80 percent of the Nation's 
critical information infrastructure is in private hands. Now, 
that being true, let me just ask several questions and I'll try 
to keep them together. In addition to the Department of 
Homeland Security, how many Federal agencies are currently 
involved with assessing vulnerabilities and recommending 
solutions to the Nation's cybersecurity infrastructure?
    Dr. McQueary. The ones that I am most familiar with are the 
group that testified last week. DARPA has some work going on in 
that area, and NIST has work going on, as well as the National 
Science Foundation. And of course ourselves, with our emphasis 
being in the infrastructure, Information Analysis, and 
Infrastructure Protection Directorate with the strong 
scientific support from the Science and Technology Directorate.
    Mr. Etheridge. I guess my question to follow that then, the 
agency, you said you are working together. Are they cooperating 
in a way that will further this research and development that 
we so badly need to do?
    Dr. McQueary. I believe so, sir. In fact, one of the things 
that I have found in doing this job is that the cooperation 
seems to abound when we talk about Homeland Security. There is 
a spirit of we need to be working together in order to do this 
major job that we all have to work in.
    Mr. Etheridge. And that invariably leads to the next 
question on overlap. I know it is early in the game. But I do 
hope that as you move along, that you will make every effort 
possible, that they won't have overlap, because obviously that 
is not the best use of resources when we have limited 
resources.
    Dr. McQueary. I completely agree with you, and I believe 
one of the major responsibilities I have is to make sure that 
we do not have overlap, not only in that area, but in other 
areas too. And that is why we are interested in finding out 
what is going on outside of Department of Homeland Security.
    Mr. Etheridge. Good. Now having come from the private 
sector, you will appreciate the next question I am going to 
ask, because it is one that many times people in the private 
sector and the public sector find a bit sensitive. And I think, 
given our charge and our challenge it should be asked and we 
need to deal with it. What role should the Federal Government 
play in ensuring that the private companies protect these 
critical information infrastructures that are so critical not 
only to them, but to the security of the American people?
    Dr. McQueary. Well, this is my view that the government can 
provide standards recommendation guidance, but I firmly 
believe, having come out of the private sector, that it is the 
individual company's responsibility in order to have a secure 
system for handling information. Quite frankly, I believe that 
those companies that rise to the occasion and do it well can 
find themselves at a competitive advantage over those who do 
not.
    Mr. Etheridge. And that will lead to one additional 
question, because in the 2001 Hart-Rudman report, the road map 
to national security imperatives for change, one of the 
critical issues that was pointed out in that was the failure to 
manage properly science technology and education for the common 
good over the next quarter of a century. It could be a very 
destructive issue for this country and our ability to compete 
and protect the homeland.
    That being said, the Department of Homeland Security will 
have to balance the responses of the current threat with long-
term planning. That is always the case, but it is going to be a 
critical piece. Currently, one-third of the U.S. science and 
engineering doctoral degrees and 40 percent of the Ph.D.'s in 
computer science are going to foreign students, many of whom 
are leaving this country. I hope there is some planning down 
the road and that this Department will get involved as well as 
others to help us deal with this issue. I see this as a real 
long-term challenge.
    Dr. McQueary. I agree with you, and that was one of the 
motivating factors in our deciding that we wanted to provide 
scholarships and fellowships from Homeland Security to get 
people focused on problems that are relevant to the mission 
that we have.
    Mr. Etheridge. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Thornberry. Thank the gentleman. The Chair yields to 
the gentleman from Georgia, Mr. Linder.
    Mr. Linder. Thank you, Mr. Chairman. I just have a couple 
of questions. How much are you using the CDC and how are you 
using them?
    Dr. McQueary. How much are we using the CDC?
    Mr. Linder. And how are you using them?
    Dr. McQueary. One of the key areas in our relationship with 
CDC is in the development of software programs that can give 
early indications of whether biological events might have taken 
place. And they have done some very good work on that, and we 
expect to continue to work with them to improve that. I think 
that's an area that we will certainly want to engage ourselves 
in extensively because I think it's really important, 
particularly in the biological area, to be able to have good 
information, be able to decide what do, and react quickly--more 
so perhaps than in any other of the other threats we have.
    Mr. Linder. Do you see them in anything other than 
biological?
    Dr. McQueary. That has been the primary--when I say 
``biological,'' I include in that illnesses, sicknesses and so 
forth. Maybe I didn't use the proper terminology, but that's 
what I mean.
    Mr. Linder. One of the reasons they have been so successful 
is they have understood their mission was an informational one. 
They put the scientists together and got the correct scientific 
information and made it available to other government local and 
State governments and they have had a huge success and I hope 
you will think about the value of sharing information. My 
personal view is that Homeland Security ought to be more 
informational than programmatic. Although there would be some 
of both there. But you are going to have to share information 
with first responders across the country, and get the best 
information and share it. The CDC has had a huge success in 
doing just that. It is a good model. Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you. I thank the gentleman. The Chair 
recognizes the gentlelady, Ms. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman and welcome Dr. 
McQueary.
    Dr. McQueary. Thank you.
    Mrs. Christensen. I will start out with two questions. In 
your testimony, you said the Science and Technology Directorate 
will implement it's activities through focus portfolios that 
address biological chemical, radiological et cetera and support 
research and development needs of operational units. The 
Department receives the innovative input from private industry 
and academia, as well as national and Federal laboratories. 
Mine is not a--my question is not related to cybersecurity 
either. We have had two hearings on Project Bioscience. And I 
wonder if you could tell me how your office relates to that, 
how you interact on the Project Bioscience, which has come 
before us and asked for the mandatory permanent funding and 
certain, support for certain programs that they want to 
implement that seem to be included in what I just read.
    Dr. McQueary. I would say at this point, our interaction 
with people of bioscience has been somewhat limited, just 
because we have only been in existence for a little over 2 
months. But certainly we would expect to be engaged in the 
scientific discussions about what items should be considered 
under the bioscience guidance that has been proposed or that is 
bioscience. I guess we are still waiting for the final bill to 
be passed. But we would be a participant in that. I really 
could not go into any detail, because I simply don't know today 
how to answer your question in more specific detail than that.
    Mrs. Christensen. Well, in your role as the Under Secretary 
for Science and Technology, when projects like these are being 
developed, shouldn't they be developed in conjunction with your 
office?
    Dr. McQueary. Well, in this particular case, for bioscience 
the leadership role, as specified in the development in the 
bill that created Homeland Security, left the scientific work, 
if you will, largely with Health and Human Services. In fact, 
the budget for the work is included there. So we are in more of 
a support role to help make sure that from Homeland Security 
perspective that what goes on there is what is needed.
    Mrs. Christensen. OK. I wanted to ask a question about the 
university centers. Homeland Security Act requires the creation 
of one or more university-based centers for Homeland Security. 
How many centers do you expect to establish? How will you 
decide where to establish them? And I am particularly 
interested in the minority serving institutions and what 
outreach will be made to ensure that they participate and that 
their research infrastructure is at a level to allow them to 
participate.
    Dr. McQueary. The approach we--first of all we have not 
decided how many centers of excellence that we should have at 
this point. I am sure that we will have more than one, though. 
We have engaged already in discussions with the American 
Association of Universities, National Science Foundation, and 
the American Association for the Advancement of Science. Most 
of these, all of these groups represent affiliations, 
university membership in some form, and so we are asking for 
inputs as to whom those groups feel would be the most qualified 
universities to be considered to be the centers of excellence.
    On the issue of minority colleges, you may, if you read my 
bio, you know that I was on the board of trustees for a 
historically black college, North Carolina A&T University, so I 
am intimately familiar with the value that such an institution 
can bring to the roles that we have to do here. And certainly, 
we will make sure, I can assure you that I will make sure that 
we will give due consideration to all schools as we look at 
where these centers of excellence should be.
    Mrs. Christensen. And Dr. McQueary, since this is a new--
the Department is new, the times of research that we will be 
looking to do is relatively new, or building on some old 
research for a new purpose, would we anticipate that there 
would be funding to assist universities that may not have the 
capacity now to be able to have the capacity to be a centers of 
excellence, such as the HBCUs?
    Dr. McQueary. I have not had a discussion with anyone about 
that subject. But it is certainly one worthy of us considering, 
and, if I could, if you pose a question, maybe I could offer 
you an answer after I have had a chance to think it through 
carefully, because it is an important question.
    Mrs. Christensen. Thank you. Thank you, Mr. Chairman.
    Mr. Thornberry. I thank the gentlelady. The Chair yields to 
the gentleman from Pennsylvania, Mr. Weldon.
    Mr. Weldon. I thank the chairman. Dr. McQueary, thank you 
for being here. I am going to run through some issues. You may 
not be able to answer them today. But I would like you to get 
back to us. A few years ago, 5 years ago we had an initiative 
underway called the MEDEA Project. Are you familiar with that?
    Dr. McQueary. No, sir, I am not.
    Mr. Weldon. The MEDEA Project was designed by the 
Intelligence Community and our Defense Agency to allow a 
selected number of scientists around the country to get access 
to classified technology to assist us in both Homeland Security 
and in threats that were emerging. One of the initiatives that 
came out of that was called FIRESAT, where we took $14 million 
that I got plussed up as the chairman of the Defense R&D 
Committee to use our overhead satellites to detect forest and 
wildlands fires. That system was developed. It was a multi-
agency function. The software was completed. There was a 
disagreement over who would fund it and who would operate it, 
and today the software sits in boxes in Crystal City, Virginia.
    So while America burns and while forest fires eat up 
hundreds of billions of dollars a year, for this country and 
impose a significant homeland security threat for lack of $5 
million to put the program back into place, that program is 
sitting in boxes. And I put Secretary Ridge on notice 
yesterday, he is a good friend of mine. We are going to hold 
the agency accountable this year.
    Last year, Joe Albaugh convinced me to put language in the 
defense bill to move the program from NOAA to FEMA. I did that. 
And FEMA has jurisdiction. FEMA now says they can't fund it 
until 2005 or 2006. That's unacceptable, so I would urge you to 
use your office. This is not your fault. It is a problem you 
have inherited but it is a science and technology activity that 
could directly benefit the Homeland Security this year. Before 
the forest fire season occurs again, please use your good 
influence to assist us in that. And also, look at the 
possibility of doing similar type of things with the use of 
technology, primarily coming from DOD resources in the future.
    As you probably know, I think communication is our biggest 
challenge domestically. We still do not have a domestic 
integrated communication system. There have been some cutting 
technology, like Raytheon has developed to give you a localized 
unit that you can pre-program in up to 14 separate frequencies 
at the site to give us that integration of high and low band 
digital and so forth. We need to expedite short-term solutions 
for our first responders, but have the long-term objective of 
creating a national integrated communication system, and with 
your background from Lucent and from Bell Labs, you know the 
problem here very well, the middle ware problem.
    But it needs to be our top priority. Along with that, we 
need you to help convince Secretary Ridge that he has got to 
stand up and mandate that we set aside frequency spectrum 
allocation for public safety. That's currently a big issue. 
APCO has made it one of there top priority agenda items. Jane 
Harman and I have introduced a bill to do that and we would 
really appreciate and use the support of the Agency to set 
aside that frequency.
    Tech transfer. We are doing a terrible job in the military 
of transferring technology for the first responder. It is a 
disaster. And I say it as the vice chairman of our Defense 
Committee and former chairman of Defense R&D. I have been on 
most of our disasters in the country. And the lack of 
transferring existing technology is absolutely disgraceful. I 
will give you a case in point. A pet peeve of mine is that we 
develop GPS capability for use of our troops in the battlefield 
to know where they are. We have also developed sensor 
technology, and transmission technology for an undergarment 
that a soldier can wear that can not only tell you where the 
soldier is, but their vital signs. Their pulse, their breathing 
rate. That same technology needs to be made available 
immediately to the one million volunteers and paid firefighters 
and paramedics and police officers nationwide.
    If we had had that technology up in Boston we wouldn't have 
lost six firefighters who got lost in the warehouse when their 
air supply ran out and no one knew where they were. So we have 
got to do a better job. And I think you can help from your 
position at pushing the Pentagon to get more of that technology 
out the door quicker. We spend $40 billion a year on technology 
for the military. That technology, when developed, should 
immediately be applied where applicable to the first responder. 
In the case of cybersecurity, two issues. Both involving 
education. I think the focus has got to be away from training 
young people how to use computers, to what I call information 
dominance, information security.
    Purdue developed the first graduate degree program followed 
by the Navy post graduate school. I think we have got to do a 
more aggressive job in convincing universities to develop 
graduate level and post doctoral programs in information 
dominance.
    In fact, to go beyond that. In the military and defense 
budget, we are looking at creating a cyber core. We would 
actually create a position like we do when we were short 
medical officers to run young students through undergrad and 
graduate programs, commissioning them as second lieutenants, 
just like we did with our doctors when we were short doctors so 
that we create a whole new generation of young officers that 
serve the military for up to 5 years, give us that core 
technology competence that we need and then allow them to go 
work for the private sector and maintaining the information 
security and dominance so vital for our private corporations 
and other entities.
    So those are a few of my thoughts. And the final one, I am 
out of time, but I will put it on the record, is EMP. We don't 
hear much about. Most people don't even know what 
electromagnetic pulse is. You know what it is? It is perhaps 
the largest and most severe threat to our use of information 
technology, and along with the threat of directed energy, we 
need to have a whole focus on that. And so I would ask you to 
get back to us on what are you doing with the threat of EMP.
    We have an EMP commission right now that's working for DOD, 
but also the whole threat posed by directed energy weapons. 
Thank you.
    Dr. McQueary. Yes, sir.
    Mr. Thornberry. The Chair recognizes the gentleman from New 
Jersey, Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. I appreciate the 
witness's testimony. I apologize for not being personally 
present, but I did have a chance to read it. Doctor, I want to 
ask you a question about how we best assure the cyber defenses 
of critical infrastructure in the nongovernmental sector in the 
utility companies, banks, health care institutions and so 
forth. First of all, would you agree with the assertion that 
cyber defenses generally speaking in the private sector are not 
as high as they technologically could be.
    Dr. McQueary. I would agree with that statement yes, 
without--that's obviously a very general answer.
    Mr. Andrews. It is. And let me add parenthetically I do not 
mean that as a critical statement of the private sector. The 
private sector's responsibility is to protect its proprietary 
and commercial interests. If it extends beyond that point, it 
is frankly doing a disservice to the owners or shareholders of 
the venture. I don't mean to be critical. It seems to me that--
would you also agree with the statement that some of the 
private sector critical infrastructure institutions in 
cyberspace are very critical indeed, that they are--they deal 
with our power grid, with our health care system and so forth. 
Would you agree with that.
    Dr. McQueary. I do agree with that.
    Mr. Andrews. In thinking about this problem, it strikes me 
that there are four ways that we could approach it. The first 
is to kind of let the market run its course and let the private 
industry do what it will do, but no more. The second would be 
to mandate that private industry harden their defenses on a 
continuous basis to the highest level, which I think would be 
an unfair imposition of a public responsibility on private 
sector institutions. The third option would be to in effect 
nationalize these institutions to, to have the government take 
over the power grid, the government take over the 911 system in 
every way. I think this would be antithetical to our way of 
doing things and it is a proposal I would never embrace.
    And the fourth way would be to find some appropriate way to 
subsidize the hardening of cyber defenses to the extent that 
the market will not harden those defenses, but no more than 
that, so that we are providing an appropriate level of public 
subsidy or incentive to raise that cyber barrier to its highest 
level but not to do so in such a way that we are having the 
taxpayers pay for something that the private concerns 
themselves might pay for. My question to you is, have I left 
out any alternatives? And if so, what are they? And the second, 
as a general strategy among those four choices, what would you 
suggest that we follow to try to harden those critical 
infrastructure cyber defenses.
    Dr. McQueary. Well, you asked two questions. Let me try 
both. I--just sitting here, as you are talking, I couldn't 
think of another, but I also would like to request the time to 
go back and talk to the people who are more intelligent than I 
am on this subject.
    Mr. Andrews. Well, you are certainly more intelligent than 
me. So I would welcome that opportunity.
    Dr. McQueary. And trying to choose one as I am sitting 
here, I don't think it is appropriate as a scientist to make 
such a critical choice as we sit here talking about this in 
this form. But I would be happy to consider it and offer you my 
opinion based upon a considered thought process.
    Mr. Andrews. I would certainly welcome that and I would 
welcome the chance to be briefed on that and share it with the 
rest of the committee as well. I raise this issue because it is 
my observation as an amateur in this area that the places in 
cybersecurity where we are most vulnerable are the places 
typically not controlled by the Department of Defense or by the 
Federal Government. Thank goodness, because we are a society 
that's not nationalistic in that way. But, it is--the problem 
here is that we are dealing with cyber defense in the private 
sector as a commercial venture. But it is a national security 
problem. And if someone wanted to attack us by shutting down 
the power grid, they would be attacking the systems of the 
utility companies and other private entities.
    If someone wanted to create chaos by diverting 911 calls 
away from dispatchers, they would be attacking the systems of 
telecommunications companies and local governments where we are 
most vulnerable, we are least able to control by Federal law. 
So we have to find some way that does not exercise control and 
therefore substitutes, you know, this institution for the ones 
that do a much better job than we would.
    But we still have to find a way to do it. I mean, my 
experience in this has been that in the military side, we have 
made great strides in the last few years since operation 
eligible receiver and some of the other exercises of the late 
1990's, where DOD systems are hardened and they are being 
hardened on a continuous basis. But the critical infrastructure 
has nothing to do with that. And I think one of our real 
challenges and one the Department's challenges is to figure out 
a way to do that, to push those walls out further without 
imposing an unfair burden on private industry, but by getting 
the job done. I would welcome your thoughts and the 
Department's input. Thank you.
    Dr. McQueary. Thank you.
    Mr. Thornberry. I thank the gentleman for his thoughtful 
questions and contribution and I would just chime in briefly, 
Dr. McQueary, that I think this is obviously a key subject of 
interest to this subject committee, and we want to work with 
you as well as the IP folks at the Department on the best 
approach. The gentleman from New Jersey has obviously put lots 
of thought and has lots to offer in this area. The subcommittee 
is very pleased that the Vice Chair of the full committee is 
with us, and the Chair would yield to the gentlelady from 
Washington for questions that she might want to ask.
    Ms. Dunn. I thank you very much, Mr. Chairman. Welcome, Dr. 
McQueary. It is great to have you here and to get an update on 
how busy you have been since you took over this operation.
    Dr. McQueary. Thank you.
    Ms. Dunn. I represent a district in Washington State, a 
district that is very close to a major deepwater port, the 
third largest port in the United States. And also has about 120 
miles of maritime border with Canada and then an extensive 
northern land border. There are many, many initiatives, some we 
have talked about today, and in other meetings for port 
security, the Container Security Initiative, for which we have 
negotiated, the last time I heard, with 17 of the major mega 
ports, of the 20 in the world that our people be there on the 
ground when containers are loaded before they come toward our 
United States ports.
    The Customs Trade Partnership Against Terrorism, the Coast 
Guard's 96-hour notice of arrival, and then new technology that 
would scan containers, radiation portals being one that I can 
think of, what is the status of the implementation and the 
coordination of some of these container and vessel tracking 
initiatives that are so vital to ports like the one I am very 
close to in Washington.
    Dr. McQueary. And that obviously is a very, very important 
area that is being worked, as I am sure you know. Currently the 
Border and Transportation Security organization, the 
directorate as well as the Coast Guard, have the prime 
responsibility to deal with the issues that you have just 
talked about and do have the lead on that. I have to tell you 
today we have not been engaged in any great detail at all from 
the Science and Technology Directorate standpoint, simply 
because that work was ongoing at the time when we actually 
became into existence. But it is an area that I would expect 
that we will work very closely from the scientific standpoint 
to make sure that those organizations do have the latest and 
best scientific capability to decide what would best work, and, 
in fact, we would work very--if a new program were starting, we 
would work very closely with them to help establish what the 
requirements are and provide scientific guidance.
    But this one has been underway for a while. And so we are 
in the mode of trying to catch up, quite frankly.
    Ms. Dunn. Good. It sounds like you have the same challenge 
that we have with multiple jurisdictions and how we divide down 
that responsibility. There is certainly no shortage of ideas 
for technological innovations in the new Department. DHS has 
been inundated we know with funding requests from private 
companies that have Homeland Security-related technology. I 
think those of us who serve in the Congress know, and can 
imagine the burden you are under, because we are getting calls 
from people in our districts who have all sorts of ideas, and 
in fact, in my own district, we have had to develop a way to 
provide input for those firms so that we can take advantage of 
these ideas.
    The chairman of our committee has talked about a technology 
fair that would bring together people who might have great 
ideas from the government sector, but also from the private 
sector. And I am wondering if you know, given the numbers of 
requests that we are under, how the Department of Homeland 
Security will, first of all, give access to small business, the 
voices of small business people, and then once you have 
developed a system for listening to their ideas, as I said, 
that fair might be one way of doing it. How will you prioritize 
these requests?
    Dr. McQueary. Well, certainly we will be looking for things 
that fit in with the, what the national priorities for Homeland 
Security would be. And that would be a sort of a guiding 
principle for us. We are also going to use the technology--
TSWG. I have used the abbreviation so long--Technical Support 
Working Group as being--as helping us to prioritize and make 
the selections, based upon criteria that we would provide, of 
those that are most promising, and, in addition to that, we 
will be using that same group to review some 500 e-mails that 
we have received into our Homeland Security site. And I would 
say to you that most of those e-mails have come from what 
appear to be small businesses.
    So there is an intense interest by small business in being 
able to make a contribution. So we intend to evaluate each and 
every one of those inputs. And it has been more a matter of 
getting the necessary people resources to be able to look at 
the things to provide considered and respectful responses to 
those people who have input.
    Ms. Dunn. So should we tell our constituents to e-mail you 
with their ideas?
    Dr. McQueary. Not me. If you would send it to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d2e3e3438333e387329383e35333231323a241d39352e733a322b73">[email&#160;protected]</a> It will definitely get considered. 
The other issue is we have a broad agency announcement that 
just came out last week from the Technical Support Working 
Group that lists many different areas of technological interest 
that we have from the Science and Technology Directorate 
standpoint. And that's another very good place for people to 
examine to see whether their products and capabilities fit in 
with what we are saying that we are interested in now.
    Ms. Dunn. Good. Well, as long as we have access to those 
source, phone numbers or e-mail addresses, then I think that 
would be great and it would give us another avenue for them to 
feel like they are being heard by the government.
    Dr. McQueary. And they need to be heard. I fully agree with 
you.
    Ms. Dunn. They do. And certainly, we are looking on the 
government side looking for the best answers. Along that line, 
in my home State of Washington, as in many places around the 
country, I know that local law enforcement officers are 
desperately seeking technologies to help them do their job of 
protecting the Nation from future terrorist attacks. Where do 
you feel the Department of Homeland Security currently is in 
the development of a nationwide communications network that 
would allow local law enforcement officials the ability to 
coordinate with State and Federal offices?
    Dr. McQueary. We have just assumed--we, the Science and 
Technology Directorate, on behalf of the Department, have just 
assumed responsibility for a project called SAFECOM. If you 
happen to be familiar with that, that was a part of the e-
government initiative that was underway being imagined by the 
office--OMB and we have just recently had that assigned to us, 
I shouldn't say assigned to us. We said that we would be happy 
to take on the responsibility for managing that and a part of 
that initiative is to begin to work what should be the system 
architecture for providing a large-scale communications system 
within the country, one that can cope with surges such as we 
saw on 9/11 and being able to deal with emergency situations 
that that might represent.
    So that we can be in a position to guide people that are 
buying locally, will have guidance standards to be able to use, 
so that, as people begin to buy new equipment, we can begin to 
move towards an interoperable communication system, because 
there are some 44,000 different locations in the country that 
have their own separate communication systems. And to suddenly 
launch upon a path that says we fix that very quickly would be 
a probably too expensive to even contemplate.
    Ms. Dunn. Thank you very much. And thank you, Mr. Chairman.
    Mr. Thornberry. Thank the gentlelady. And I would just 
mention that one of my intentions is to try to put together 
information for all members so that they can direct 
constituents to the right phone number and e-mail sites and so 
forth with the ideas that they have, because I think the 
gentlelady raises a very good point, as Ms. Lofgren did, that 
we all have a number of constituents and groups and companies 
that are interested in offering their services.
    The Chair recognizes the gentleman from Kentucky, Mr. 
Lucas.
    Mr. Lucas. Thank you, Mr. Chairman. Doctor. Some of the 
questions I am going to piggyback on, but we talked about, you 
know, the country revolves around cell phones, it seems like. 
And is there any work being done on any kind of an override 
capacity, where emergency personnel and the local officials 
could get through with cell phones as opposed to--anything like 
that at all?
    Dr. McQueary. There is a government system that is called 
Government Electronic--GETS, I have forgotten what the acronym 
stands for--that that capacity exists now. So it is known how 
to do such a thing. If there is any specific work going on to 
make it be readily available to people that are at the local 
level, I can't answer the question, but I will find out.
    Mr. Lucas. We don't know that it is workable? I mean, it 
hasn't ever been tried?
    Dr. McQueary. I have been led to believe that it has been 
tried enough to believe that it works.
    Mr. Lucas. OK. I didn't know if something happened next 
week, if they could put it into effect.
    Dr. McQueary. I think it is the number of people that can 
actually access it is not sufficient if you had a national 
emergency.
    Mr. Lucas. Along with Ms. Dunn, we have so many people 
contacting us, vendors with ideas and technology. And you 
mentioned that they can contact by e-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8af9e9e3efe4e9efa4feefe9e2e4e5e6e5edf3cacec2d9a4ede5fca4">[email&#160;protected]</a> Is there any other communication 
that they can go through, or any phone number?
    Dr. McQueary. Well, we do have a Web site too, that has 
some information, although that is more informational than 
anything else. And then the broad agency announcement I touched 
upon earlier that is being managed for us by the Technical 
Support Working Group. That would be another path they can use. 
That is Web-site based. You can enter the whole proposal in at 
the Web site and track what is being done with it as it is 
being evaluated and considered, too.
    So those would be the two. And here is that Web site. It is 
www.tswg.gov.
    Mr. Lucas. Thank you very much. Thank you, Mr. Chairman.
    Mr. Thornberry. Thank the gentleman.
    Dr. McQueary. I would give you my own telephone number, but 
my telephone is ringing off the wall already.
    Mr. Thornberry. Please don't do that. We need you to do the 
job.
    The Chair would yield to the distinguished chairman of the 
Science Committee, Mr. Boehlert.
    Mr. Boehlert. Thank you very much, Mr. Chairman. And 
welcome, Dr. McQueary. I was sort of surprised to learn you 
have been on the job a couple of weeks now and you don't have 
all of the answers to all of the questions. Is that supposed to 
comfort me?
    No, I am just kidding you, obviously. I really appreciate 
that.
    But let me take advantage of this opportunity, putting on 
another hat that I wear as Science Committee chair. We have 
some outstanding requests for you, and I just would like to 
remind you. One we wrote to the President back in January, 
before you were on the horizon, about the impact of the 
transfer of life science programs to DHS, and posed several 
questions. Then we have provided that letter to your people. 
And we would like to get some answers to those questions to see 
how you intend to proceed. That is one.
    Number two, a passion of mine: Cargo Mate. We are still 
awaiting some sort of additional contact on that, because Mr. 
Chairman and members of the committee, this is a way to track 
cargo in ports, and you can pinpoint where it is at any given 
time, which is I think a very valuable resource in providing 
port protection.
    So I would remind you of those two. If you can get back in 
a timely manner.
    Mr. Boehlert. Now, let me ask specifically. You have 
testified before and said a number of times that your job is 
going to be one of management and that you are going to tap the 
scientific and engineering expertise that exists in our 
universities and in the private sector and other government 
agencies to do the critical homeland defense research and 
development, such as work on cybersecurity.
    How do you go about using these groups? Do you have 
specific ideas?
    Dr. McQueary. Well, specifically, we will be issuing a 
number of contracts for work. We will be issuing RFPs, we will 
issue broad agency announcements for people to respond to.
    Mr. Boehlert. Do you have a feeling for a timetable yet?
    Dr. McQueary. Well, we have the one BAA out right now. The 
money for fiscal year 2003 is largely committed at this point. 
There is very little opportunity for anyone to bid on new 
programs other than through the BAA that we have. Certainly 
there is going to be a very large opportunity, if our budget is 
approved as presented for fiscal year 2004, in which we have 
$803 million proposed at this time to--
    Mr. Boehlert. Do you have any idea how much, like on a 
percentage basis, a guesstimate--I wouldn't expect a precise 
figure--on how much of your external funds will go to 
activities research, activities at universities and the 
university community?
    Dr. McQueary. Well, in the very beginning it is my 
considered professional judgment that we need to be focusing 
our energies on things where we can bring answers to bear 
quickly. That is not to say that we should neglect the longer-
term research issues, because there are some areas that do need 
that.
    But in terms of economic balance, I would expect that most 
of our energies are going to be on things that can be 
accomplished quickly, and then we can evolve into what I will 
call a more steady-state operation in which we have a balance 
between ongoing activities as well as those looking to the 
future.
    But right now, we have a number of things that I am 
confident we can do, based upon the limited amount of exposure 
I have had to what is going on in America, that we can bring to 
bear some real answers quickly.
    Mr. Boehlert. I would agree with that analysis on 
priorities, the short term immediately.
    Do you envision providing any funds to other agencies like 
NSF or NIST or NIH, or do you think they have sufficient 
resources to do what they need to do?
    Dr. McQueary. I believe that--and I could be convinced 
otherwise--but I believe those organizations have sufficient 
funds in their areas. We do have agreements as to how we would 
work with them in most if not all cases.
    Mr. Boehlert. I am comforted by the fact that you do have a 
good working relationship with these other agencies. I assume 
you are strengthening that as each passing day goes by.
    Dr. McQueary. Absolutely.
    Mr. Boehlert. I think we do expect miracles from you guys. 
You have got a very demanding job in a very difficult time 
period with some real challenges on the horizon, and we expect 
instant results. Just go forward, knowing that you have a lot 
of support from Capitol Hill, from people who appreciate people 
like you with outstanding records of service and bringing a lot 
to the table as you have come to take on this most challenging 
and demanding position.
    Let me ask you one other thing. Talking about 
communications systems and ``interoperability'' is the big 
deal. That is the big word. Talk a little bit about that, will 
you? We know, for example, in 9/11 with the Twin Towers down, 
it was a hell of a difficult problem that we were not able to 
overcome in having interoperable communications systems, so 
that one can talk to the other and get the message through.
    Dr. McQueary. Well, the fundamental problem as I understand 
it there--and I was not close to it, so I don't want to go very 
far and prove that I don't know what I am talking about--but 
when you design a communications system, you have to design 
what kind of peak load capacity you expect that system is going 
to have to accommodate. And, in general, you make 
accommodations for that. When I worked for AT&T, Mother's Day 
used to be the most active calling day of the year for 
communications. So we always had to make sure that you could 
get through rather quickly if you are trying to call your 
mother.
    I doubt that anyone would have conceived of trying to 
design a wireless communications system for New York that could 
have accommodated what had to have transpired when that awful 
tragedy occurred. And so I think the answer for such a system 
would be one that was touched upon earlier: Is there some kind 
of priority so that those who really do need to get through to 
make calls can indeed make them? I do believe that there are 
ways of accomplishing that.
    Mr. Boehlert. Thank you very much. Mr. Chairman, thank you 
for the time.
    Just let me pass with one observation. Those of us who have 
come to know Dr. McQueary know that he is a good guy with 
outstanding credentials, and he brings something very important 
to public service. But how refreshing it is to have a witness 
of your distinction who on occasion will say, ``Gee, I don't 
have the answer to that one, I am trying to figure it out 
myself.'' We are all trying to figure out a lot of things.
    Mr. Thornberry. The Chair appreciates the chairman's 
comments. It is reassuring to me, too.
    The Chair recognize the gentleman from Florida, Mr. Meek.
    Mr. Meek. Thank you very much, Mr. Chairman. Thank you for 
being here today, Mr. Secretary.
    I had a question along the lines of communications. We can 
talk about cyberspace and get even into a bigger conversation 
as it relates to servicing your customers. I was reading over 
your opening statements, and I am sorry that I missed it. I am 
on the Armed Services Committee and the bill is on the floor 
now.
    The folks back in Florida where I am from, one of the 
biggest concerns they have, outside of many others, is the 
issue of communications. And we know now, many of us in this 
committee room, we have Blackberrys and cell phones and 
whatever, even is touching their Palm these days. But the 
average American, they just have simply the home phone. And if 
something was to happen, especially when first responders are 
trying to respond to a scene or contain a bad situation, if it 
is in a downtown area, big or small town, many of the people 
will not know of what is going on and what they should do at 
that particular time.
    Does the Department have the technology to notify 
individuals--let's say, for instance, USA America City, medium-
sized city, has a downtown area; if we were to have a terrorist 
attack at a building, you wanted to keep everyone in the 
building or out of the building, how would the Department 
contact those individuals or how would--do we have functions 
locally?
    Dr. McQueary. That activity would be managed by FEMA. And I 
have to tell you that I don't know the details of all of their 
communications capability right now. But certainly what you are 
describing is something that, if we have not adequately 
addressed, it does need to be addressed.
    I have seen, in fact, proposals that have come in during 
this time of people sending in to our e-mail address that I 
alluded to earlier, in which people believe that they have 
possible solutions for that. We have not had a chance to 
evaluate those to determine whether they have efficacy or not.
    Mr. Meek. That is a very serious issue because, being a 
past first responder myself, I know that in the early stages of 
any incident it is important, need it be trauma care or need it 
be direction to the general public.
    One of the things that I think is important, and myself and 
other members on the Homeland Security Committee, we are going 
to draw up a bill tomorrow. But you may already have this 
authorization--I don't know--to be able to allow the 
Department, on the discretion of the Secretary, to contract 
with a telecommunications company to be able to call people or 
call an office building when you need to be able to share 
pertinent information with them, need it be in a city, in a 
block grid, need it be across America so that people will know. 
I have heard all kind of different ways that we can do this, 
through weather radios and, I mean, you name it. I am pretty 
sure that you have a bunch of ideas either stuck in your e-mail 
or on your desk right now, waiting for folks to review.
    But, I think it is important that we get to that as soon as 
possible. Do you have that ability now to do that? I know some 
cities have moved forward saying, go on to our Web site, we 
will e-mail you or Blackberry you if there is an emergency in 
our county or what have you. But the average American doesn't 
have that technology. And how would they be notified?
    I mean, if something was to happen now, of course, our 
Blackberrys will go off. But we have no way of knowing unless 
someone tells us.
    Dr. McQueary. Well, certainly many Americans only have a 
phone and/or television, or some may not have either one. So it 
depends on the range of how you contemplate notification, and 
if one goal is to the full extent you must be able to notify 
every person independently whether they have a communication 
device or not, that probably becomes a very challenging, if not 
unworkable, kind of system to deal with.
    Mr. Meek. That capability is available. Over 86 percent of 
Americans do have at least one hard line in their home or work 
where they can be contacted. And I think communications is key, 
especially some of the exercises the Department has done 
recently.
    That kind of bioterrorism, what have you, is important. I 
am not saying that you are saying--that you are not saying that 
it is--but communications. And so while you all are looking at 
research and development, maybe talk with some of the people in 
one of the industries. I know you mentioned your background 
there in the telecom industry.
    Those that I have been in contact with said that at the 
drop of a hat--and people can be contacted, need it be a public 
line or a private line that is in their home, probably go as 
far as a cell phone if that could happen.
    I think communications is key in this new era that we are 
moving into. We can talk about being on line or having the 
technology, or investing 100 or $300 in some sort of hand-
carried computer. But Mr. and Mrs. Smith, they are waiting on 
the phone to ring. If the phone doesn't ring--forget about them 
being at home, I am talking about if they are at work, they can 
be there--on 9/11, you read some of the stories; it took people 
a long time for a lot of folks before they knew what was going 
on.
    So communications is important. I just want you to be able 
to service your customers well. So I want you to take that as 
an idea. Hopefully you all can be in support of the legislation 
when it comes out.
    Thank you, Mr. Chairman.
    Mr. Thornberry. The Chair thanks the gentleman. And one of 
the things that we may consider in this subcommittee is some 
sort of a briefing for members on this first responder 
communication issue, because obviously there is a lot of 
interest. We have heard everything from dedicated spectrum to 
priority calling, to a whole variety of technologies.
    At least for my purposes, I need someone to kind of give me 
the range of options and help put this whole thing in context. 
We heard a lot about this when Secretary Ridge testified in 
front of the whole committee yesterday. And I don't know 
exactly who the best folks are, but I think that would be a 
helpful thing for me to understand, the range of the 
technologies. We may pursue that.
    The Chair recognizes the gentleman from Michigan, Mr. Camp.
    Mr. Camp. Thank you, Mr. Chairman. Thank you, Doctor. As 
chairman of the Border and Infrastructure Subcommittee, it is 
clear that we don't have enough people or facilities to really 
make the kinds of security arrangements that we need to make, 
and technology is going to be a critical part of that.
    And I wonder, to what extent you have begun working with 
Customs and Border Patrol and Immigration--as you know, those 
systems don't talk to one another, the computer systems--and to 
what extent, now that Immigration is really in two separate 
agencies, to what extent you have begun trying to get the 
agencies to be able to communicate together. And if it hasn't 
begun, do you have any sort of time line in terms of when you 
are going to begin to start doing that?
    Dr. McQueary. Well, the key thing that we have done to date 
is that we are the lead systems engineer role in science and 
technology, for the U.S. VISIT system. So we are very closely 
partnered with the Border and Transportation Security 
Directorate. And that touches, I believe, upon most of the 
elements that you talked about. That is the most significant 
thing that we have going on at this point. We have begun some 
investigations looking at unmanned aerial vehicles, too, as 
having possible application there.
    But in working the issue of trying to foster further 
communications among those agents, I, quite frankly--I would 
suggest that Secretary Hutchinson probably has that high on his 
own list to make that happen. I would be more than happy to 
assist him in any way, but I wouldn't be presumptuous enough to 
try to go and take on that role unless he called upon me to do 
so.
    Mr. Camp. We hope to be hearing from him pretty soon as 
well. I know you touched on the university-based centers that 
are mentioned in the Homeland Security Act. And I just wonder, 
did you answer how many centers you expect to establish?
    Dr. McQueary. We have not determined at this point. In 
fact, I don't think it will be as many as ten; it will be more 
than one. But we have not reached any kind of a firm 
conclusion. We have begun looking at what the criteria need to 
be and also, as I mentioned earlier, working with National 
Science Foundation, American Association of Universities, and 
American Association for the Advancement of Science to help us 
sift through recommendations as which universities would be the 
logically ones.
    And by the way, it doesn't necessarily have to be just a 
university. I can envision where more than one university might 
get together to have a partnership of two or three or more, 
that would be stronger than just any one, and have that 
designated as a Center of Excellence. So we are not pinned down 
to the idea of a university Center of Excellence only.
    Mr. Camp. Thank you. I want to add my voice to the chorus 
you have heard about the inquiries we are getting from 
companies, individuals, who really have ideas to improve our 
security. And I appreciate knowing about the Web sites.
    But can you tell me a little bit more about what happens 
once an individual or a small business might sign up on one on 
of these Web sites, the process from there on? Are they 
contacted and things of that nature?
    Dr. McQueary. The first formal thing that we put in place 
was the e-mail address, because it was clear that we had a 
pent-up emotional demand from people that wanted to be able to 
tell us about things that they were doing. So we gave out the 
e-mail address in an interview that I had with a newspaper a 
couple of months ago, maybe 3 months ago at this point.
    And after that was done, we just were flooded with inputs 
through this, because lots of people read this particular 
newspaper. And what we do with those, I actually read every one 
of them myself. And when I say I read them, those that are many 
pages long, I only read the executive summary to get a sense of 
what is there.
    Some of them are so intriguing that I will immediately send 
them to one of my associates and say, Please take a look at 
this, because it looks like something we can use.
    Others will simply say--I had one that said, Please tell me 
what you are interested in and we will let you know whether we 
have anything. It didn't take too long to deal with that 
particular one.
    And then I had one from a high school student that I 
responded to him myself, because I thought if a high school 
student would write to me that he deserved to have an answer 
from me.
    Mr. Camp. So are you expecting, then, a sort of formal 
review procedure that--with a certification attached to it?
    Dr. McQueary. We will use the Technical Support Working 
Group as the formal review and certification, and listen to 
their recommendations as to what we should pursue and fund as a 
result of that review.
    Mr. Camp. All right. Thank you. Thank you very much. I 
appreciated your testimony. And thank you, Mr. Chairman.
    Mr. Thornberry. The Chair appreciates the gentleman. The 
subcommittee is very pleased to have the Ranking Member of the 
full committee, the gentleman from Texas, Mr. Turner. The Chair 
would yield to him for any questions he may have.
    Mr. Turner. Thank you, Mr. Chairman. Thank you, Dr. 
McQueary for being with us today. I am sure it has been a 
whirlwind to have taken over this responsibility just a few 
weeks ago.
    I notice that you have about 50 people on board, and I 
assume that will grow. I don't know if it can grow in the 
current budget or whether it will take the next budget cycle 
for that to happen.
    Dr. McQueary. We have approval for 79 FTEs in our current 
fiscal year 2003 budget. We expect to take that to 180, 
assuming our 2004 budget is approved as presented.
    Mr. Turner. I know Ms. Christensen asked a question about 
Project Bioshield. And I gather you haven't had a chance to 
take a look at the legislation that was before our committee 
recently on that subject, and I don't know if there is somebody 
within your operation that has. There are some issues there 
that our committee needs your help on because the bill was 
referred to us because of the role that the Department of 
Homeland Security has in trying to develop biodefenses.
    It seems to me that we are in the state now where we need 
to be sure that as we carry out our role with respect to the 
Bioshield legislation. I believe we have crafted that 
legislation in a way that is consistent with the objectives and 
the statutory directives of your Department has, including in 
the Information Analysis Directorate where they gather 
intelligence about the biothreats.
    In your statement that you have given the committee today, 
you have set out two specific roles that you will have. One is 
the deployment of the biological warning and incident 
characterization system, which I gather is an effort to try to 
detect the presence of biological agents.
    Dr. McQueary. That is correct.
    Mr. Turner. Then you also mention the National Biodefense 
Analysis and Countermeasures Center.
    Dr. McQueary. Yes.
    Mr. Turner. You state in your opening statement that that 
Center will leverage the expertise of America's cutting medical 
and biotechnical infrastructure to focus on the biological 
agent threat, including performing risk assessments. You say it 
is an essential new approach to integrating national resources 
for homeland security supporting public health and law 
enforcement. You go on to say that the analytical capabilities 
will be functional in 2004 and coordinated with the National 
Institutes of Health and the Food and Drug Administration. Is 
that correct?
    Dr. McQueary. That is correct.
    Mr. Turner. That section, that biological warning system 
and the National Biodefense Analysis Countermeasures Center, 
represents, really, the largest section of your 2004 budget 
request, $265 million.
    Dr. McQueary. 365.
    Mr. Turner. Excuse me, 365. Now, what I think we are 
struggling with on this committee is trying to be sure that we 
understand the role of this Center, the Biodefense Analysis and 
Countermeasures Center, and how this fits in with the other 
agencies that are already in existence, like the Centers for 
Disease Control, National Institutes of Health, and try to make 
some logical assessment of whether we have divided up this 
responsibility properly and what it is that we are going to 
accomplish.
    I have several questions that come to my mind. Maybe you 
can respond to all of them at once. I am trying to figure out, 
first, what role the Biodefense Analysis Countermeasure Center 
has with respect to Project Bioshield, which is the legislation 
before us.
    Second, will the Center, be responsible for developing 
vaccines or other medical countermeasures to biological 
threats? That is, will your Center be in charge of assessing 
likely biological threats, or is that role carried out by the 
Information Analysis Directorate?
    Third, once the threats have been assessed and determined, 
will it be the Department of Homeland Security's role to 
trigger the procurement of the vaccines we hope to develop 
through Project Bioshield?
    Last does the work of the Center duplicate or compliment 
the work that is being done at other centers, like NIH, Centers 
for Disease Control, and the Army's Medical Research Institute 
for Infectious Diseases?
    I know that I have given you a lot of questions, but we 
need to explore these issues in depth so that when we pass that 
legislation out of this committee, we have taken care of the 
homeland security piece of Project Bioshield.
    Dr. McQueary. Let me give you a partial answer, and then 
suggest perhaps that some of my staff can get together with 
yours to understand in detail the issues that you have so that 
we can provide a reasoned and thoughtful response to that.
    But first of all, my intent, to the maximum extent that we 
can, is to make sure that we do not have duplicative efforts 
elsewhere. My intent is to try to be sure that we take 
advantage of what the government has paid for, what industry 
has already done, and not engage in duplicative work, because 
of the point that was made earlier that is wasteful of 
resources, and we never have enough resources to do all of the 
things that we want to do. That is point number one.
    The role that we expect to play in each of these areas that 
engage--whether it is NIH or any part of HHS or USDA, our role 
is to--the things that we would be funding is what I will call 
to fill gaps that are not currently being investigated in other 
areas. So part of our responsibility is to make sure that we 
have a close enough relationship to the work that is going on 
relative to homeland security in these agencies so that we can 
determine where we might make contributions.
    And, specifically, and the things that you are talking 
about, is the areas that we would expect to be fully engaged 
in: the threat analysis in concert with the IAIP, as you 
correctly observed. We would expect to be engaged in 
establishing what the prioritization of threats would be from 
the scientific standpoint. And we would certainly be involved 
in the details of acquisition strategy and setting the 
requirements for whatever it would be that we would ultimately 
buy to assist homeland security.
    So I think if you think of those three things, it is not 
really something that NIH or other parts of HHS or USDA would 
normally be doing as they support homeland security.
    Mr. Turner. Well, I think if that is your intent, I think 
we probably need to be sure that is included in the Project 
Bioshield legislation, because I think there is competition for 
those roles.
    I respect very much what you said and we certainly don't 
want to duplicate activities within the government. But I am 
not sure that it is clear what role the Department will play. 
But I approve of what you said and I agree that it is your 
responsibility to assess the biological threat. I think it is 
your responsibility to set the priorities of which threats we 
should deal with first, and in what order. And I think the 
issue of decisionmaking about procurement may very well be your 
responsibility as well. I wish you would work with us on this, 
because we are on a tight time frame.
    And you know, I even think it would be appropriate for the 
Department to take an even stronger role, and I suggested this 
in the hearing, because Project Bioshield, as currently 
drafted, envisions that we will find a private sector answer to 
developing vaccines in every instance.
    And we have had some people share with this committee their 
views that we need to find such an answer as a first step, but 
we also need to be willing to have some entity within the 
Federal Government, not necessarily within the Department of 
Homeland Security--but it could be--where the research is 
taking place to try to find and discover the vaccines that we 
need to deal with these dangerous biological agents.
    And if that is a view that you share, we need to hear that: 
Otherwise, we have placed all of our eggs in the basket of 
counting on the private sector and the drug companies to step 
forward to solve these problems for us. There are some people 
who have suggested that such an approach may not work. If it 
doesn't work, we have lost valuable time in addressing these 
threats.
    Dr. McQueary. Sure.
    Mr. Turner. And any ideas you have on that, I certainly 
want us to have the benefit of them as we try to move forward 
on this bill.
    Dr. McQueary. I will be happy to engage in a discussion 
with our folks about that and get to you in short order, 
because it is an important question.
    Mr. Turner. Thank you, Doctor.
    Mr. Thornberry. Thank the gentleman. The subcommittee is 
very pleased to have the Chairman of the full committee, the 
gentleman from California. He is recognized.
    Mr. Cox. Thank you, Mr. Chairman. Welcome, Dr. McQueary.
    This is, of course, the Subcommittee on Cybersecurity, as 
well as Science, Research and Development. And we have 
structured the subcommittee in this fashion because it seemed 
so clear that there has to be a relationship between ongoing 
R&D and the deployment of cybersecurity countermeasures in 
real-time if we are going to succeed in that area of our 
mission.
    Unlike almost all other aspects of national security, cyber 
doesn't sit still, particularly as compared to the old paradigm 
of guns, guards, and so on. We have to commit ourselves to 
making a constant investment in cyber almost every day you 
wonder if the measures that you had in place yesterday are 
going to be good today. The speed of change and the number of 
participants in making that change happen really has no analog 
or precedent in the history of warfare.
    As a result, I am very interested in what Secretary Ridge 
told us yesterday; specifically, that he is going to create 
inside the Information Analysis and Infrastructure Protection 
Directorate, a division for cybersecurity. And I am 
particularly interested in asking you, since you are here 
today, how you are going to interact with that division.
    Dr. McQueary. Our responsibility will be to support them 
with the very best science and technology that they need in 
order to accomplish that. And we do have people that are 
experienced in cybersecurity on my staff. We have one person at 
least that is detailed to us from the IAIP organization, and so 
we will be closely coupled with the IAIP group; but they will 
have the lead, and we will support them in any way that we can 
based upon the scientific capability that we have.
    Mr. Cox. Do you have cyber priority within your ambit?
    Dr. McQueary. We have, within our budget this year and 
proposed budget for next year, moneys that were intended to be 
in a support role. I would hasten to say that our budget was 
put together when the Critical Infrastructure Board existed, 
and therefore we may end up having to relook at that, whether 
we do have enough allocated. But we would certainly come back 
to you before doing anything, obviously.
    Mr. Cox. The reason I ask that question is that in your 
written testimony there isn't any mention of it. In the budget 
allocations that you have laid out to us, which you submitted 
to us in writing, we have the largest amount for bio. And then 
we have amounts for chem, high explosives, radiological, 
nuclear. And the smallest amount, only $5 million is for IT. I 
take it that must be the vessel in which you are thinking of 
cyber, the subset of the smallest amount that has been 
requested. It seems essentially trivial. And that may be 
appropriate, because it may be that is someone else's business 
and not yours.
    Dr. McQueary. Well, we will provide the support that is 
needed for IAIP. Keep in mind the 2003 budget was put together 
last year before the Department ever existed, and essentially 
the same thing--well, the same thing with the 2004 budget, too. 
And at the time when the 2004 budget was created, the 
President's Center for Infrastructure Protection existed at 
that time, and it was believed, we believed, our people putting 
together the budget believed, that the major leadership role 
was going to be there. And so quite frankly we didn't know in 
detail what the responsibility was going to be for science and 
technology other than there was a view that we would probably 
be called upon for some scientific support.
    With that responsibility now focused in the IAIP 
Directorate, we will provide whatever support is needed in that 
very important area. Because if we need to revisit the budget 
in order to accomplish that, that is what we will do.
    Mr. Cox. When we wrote the Homeland Security Act 
legislation, as it was moving through Congress one of the 
things that was in flux was the name of the IAIP Directorate, 
and in fact for a time the first word in that directorate was 
cybersecurity. That was true on the House floor, in fact.
    We always intended, in any case, that that be a huge piece 
of that directorate. And so I am not disturbed that that is 
where it is going on at all. That is where Congress intended it 
to go on. But what I want to be sure of is that to the extent 
that developmental R&D investment, ongoing imagining about what 
comes next as a part of that mission, that if you are not doing 
it, they are equipped to do essentially what you are doing in 
these other areas such as bio, chem, radiological and so on.
    When it comes to cyber, are they going to be able to do 
essentially your mission inside their directorate when it comes 
to cyber?
    Dr. McQueary. We are obviously two separate directorates 
and will supply the number of people needed in order to support 
the mission they have for cybersecurity.
    Mr. Cox. Except that you have to make decisions. You are 
planning. You are asking Congress for money, presumably you are 
going to get it. When that happens, you are going to get the 
biggest slug of money for bio. With my limited imagination, I 
can't see how a whole lot of that is going to be useful for 
cybersecurity, although everything is ultimately connected.
    And the same with chemical and the same with high 
explosives and so on. Those are different silos. And by the 
time we get down to IP, you are asking for $5 million, and that 
includes infrastructure protection per se, not just the subset 
that is IP via IT attacks. And so there really isn't going to 
be much in the way of significant resources within your area 
for this because we haven't asked for it.
    Dr. McQueary. And I will say once more, if we find 
collectively--and I include the Congress in that evaluation--
that the amount that we have in there is inadequate, then we 
will find a way to recommend that we reprogram the budget in 
order the put more money into that area. But right now the 
largest--
    Mr. Cox. That wouldn't be necessary, Dr. McQueary, if it 
were adequately provided for in IAIP. And so it may be that it 
is not fair to ask you about what is going on there. But I need 
to know from somebody at some point whether or not that is 
being provided for within that directorate.
    Dr. McQueary. Right. And I think we owe you that answer. 
And I can't answer for them, because I don't know what the 
budget number is for them.
    Mr. Cox. All right.
    The second, and I think in the interests of time, Mr. 
Chairman, the last area that I will open up is the question of 
how you are prioritizing threat analysis within S&T, because, 
of course, that is one of the responsibilities that you have 
undertaken.
    Particularly, you have that interest with bio. I think Mr. 
Turner touched on that a little bit. How are you getting threat 
analysis to be prioritized within your area?
    Dr. McQueary. Well, first of all, we have--what we have 
taken is the--what are called the threats that can obviously do 
the greatest damage to the country as being very high on our 
prioritization. And the biological threat as well as the 
nuclear threat are the two that can do the most damage with a 
single incident, and, therefore, that is why those have such 
high priority in terms of the proposed investment strategy. 
That is not to say that the other areas in chemical and 
radiological as well as high explosives should be ignored, 
because they should not be, because, quite frankly, the most 
likely thing that we may be faced with is someone deciding that 
they are going to set off one of those three kinds of devices.
    But in terms of damage that one can do to the country, 
setting off a large--a nuclear weapon of almost any size in a 
largely populated area would do more enormous damage than any 
one of the other three, if you had them, all three, coming at 
the same time.
    Mr. Cox. What is the source for that threat analysis?
    Dr. McQueary. Just simply looking at--if you had-- Sandia 
and Lawrence Livermore have both done analysis that would 
support the idea that if you set off a multikiloton nuclear 
weapon in New York City, it doesn't take much imagination to 
know what kind of kill radius one would have and how many 
people can be damaged in that area.
    Mr. Cox. Maybe you mean it exactly that way, the answer you 
just gave, but I am not sure. What I mean is, are we relying on 
Sandia for the threat analysis, or where is the threat analysis 
coming from?
    Dr. McQueary. Well, the detailed nuclear effects work would 
certainly come--I would call it DOE, because that is 
traditionally where that analysis has been done. And the 
country relies upon the expertise that is in those areas to 
provide that.
    Mr. Cox. I ask this question because the statute requires 
analytical capability within--inside the Department, and it is 
not there yet. It is a work in progress. We have other sources 
of information for the threat analysis. And then, second, you 
are responsible, according to the law and your testimony here, 
for prioritizing the R&D work on countermeasures. And so you 
have got to do a second level of prioritization, once we go 
through the threat analysis. If this is the chemical threat, 
then these countermeasures are more worth pursuing than the 
next level, the next level and so on. I am reasonably confident 
that you can do the latter, and that you are doing the latter, 
although I would be interested in hearing an explanation of 
how, and I am not at all sure about the former. And I suspect 
we must be getting it over the transom in the short run, 
because we can't do it in-house.
    Dr. McQueary. Well, I think I answered a question that you 
did not ask. I apologize for that.
    Mr. Cox. I apologize for not asking the question clearly 
enough.
    Dr. McQueary. We do participate in prioritizing what the 
threat would be. And looking at--we view the nuclear weapon 
incident as low priority, but the--as low likelihood of 
happening, but the potential damage is enormous.
    Similarly, maybe higher likelihood of incidence, but with 
biologics enormous damage could be done to the country through 
that, and, therefore, you take the combination of likelihood of 
happening and weigh that with the damage that can be done, and 
the combination of those two things assist us in deciding where 
the priority should be and what the expenditures should be 
accordingly.
    Mr. Cox. There may be less difficulty in imagining the 
ultimately devastating effects of a nuclear detonation. But 
with respect to the likelihood, which is a question of, among 
other things, capabilities of various people, groups, 
individuals, where are we getting that information in the short 
run right now?
    Dr. McQueary. Well, in the short term, that is really a 
discussion that probably should be handled in a classified 
setting.
    Mr. Cox. I don't mean that. I mean, which part of the 
government?
    Dr. McQueary. Well, directly, the experts in this are at 
Sandia and Lawrence Livermore. I mean, the experts in knowing 
what the consequential damage would be for a nuclear weapon 
detonation would come from those organizations.
    Mr. Cox. With respect to the likelihood question, the rest 
of the analysis, the likelihood of that as opposed to another 
kind of attack and the capabilities of real enemies as opposed 
to what just in theory might happen, does that also come from 
Sandia?
    Dr. McQueary. No. The likelihood has to come out and will 
come out of the IAIP, the Information Analysis and 
Infrastructure Protection Directorate.
    Mr. Cox. Is that happening right now? Are you getting that 
kind of information from IAIP?
    Dr. McQueary. Just a moment.
    Okay. The--the answer is we--I participate weekly, twice a 
week, in threat analysis briefings, and we have people in our 
organization, as I mentioned earlier, that came out of the 
infrastructure analysis and protection group. That group worked 
very, very closely in the formation of--when the homeland 
security organization was being put together, the IAIP and the 
science and technology groups were co-located in the same 
location. In fact, you have a gentleman behind you there that 
was an integral part of helping work the IAIP piece of this. So 
there has been, and continues to be, a very close collaboration 
between the two organizations.
    I have not personally sat down and reviewed detailed 
material that has been presented, and so I am not knowledgeable 
enough to be able to speak to that.
    Mr. Cox. Are you getting information out of T-TIC?
    Dr. McQueary. T-TIC is a very important part of what the 
threat would be, yes.
    Mr. Cox. All right. I thank you, Mr. Chairman. And I 
particularly appreciate your willingness to keep considering 
the cyber question. Possibly we can follow up in writing or 
over the telephone even just to learn how the R&D piece of this 
is getting handled when it comes to cyber, because I can see 
from your presentation that it is not a big money piece of your 
operation. But your willingness to do it, if Congress wants to 
push it that way, is much appreciated.
    Thank you, Mr. Chairman.
    Mr. Thornberry. Appreciate the chairman's comments.
    Dr. McQueary, I wanted to follow up with a number of topics 
that have been raised today, if you don't mind. One of them is 
that yesterday in his testimony before the full committee, 
Secretary Ridge said that one of the first priorities of your 
directorate is radiological detection. And in your comments 
with the chairman, you alluded to part of the reason that is 
true: the tremendous devastation that can come.
    But as I looked through your outline of how much money is 
going into each of the seven areas, it doesn't look like it is 
as high as the Secretary seemed to indicate that it was 
yesterday. Now, is that--am I right about that? Is it because 
you have only a limited number of places to put money at this 
stage? Or how is that--where--how is that prioritization 
working, particularly on radiological detection?
    Dr. McQueary. Well, to answer the question, if I may, in a 
general sense, the--when you look at what kind of budget you 
need to attack one of these things, one of the key issues is 
how complex is the problem that needs to be examined, and that 
weighs into the challenges, too. And certainly the work that we 
need to do in the biological area is one of the more complex, 
because of the short time scale that one has there. So that 
weighs into helping us determine what the distribution of 
funding can be.
    We had what we call portfolio managers responsible for each 
one of these areas. We asked them to put together detailed 
plans as to what they believed the investment program should 
be. That was reviewed by the program plans and budgeting 
organizations within Science and Technology, and then 
ultimately I have the responsibility for what was submitted to 
that.
    But I am comfortable, as we speak today, with where--what 
the priorities are as laid out. But since this is a very 
complex, fast-moving kind of threats that we are dealing with, 
I think it is very important that we recognize that should we 
conclude that the distribution of funding is inappropriate, 
than we have a responsibility to come back to you and others to 
recommend that we make a change in that, because I am not so 
wedded to any budget that I believe this is the only one that 
is there. I think it has to be continually evaluated. But we do 
believe that is the right one, given the circumstances of where 
we are today.
    Mr. Thornberry. I appreciate that. As you know, among 
others on the full committee, the chairman of the Homeland 
Security Appropriations Subcommittee is a member, and I think 
all members of this committee and his committee are willing 
to--are interested in changes that you may want to make, or 
different prioritizations, different opportunities, because it 
has been difficult to try to get this up and running and make 
your allocations. And you haven't been there long. All of those 
factors we understand. I just think it is important that you 
feel free to come to the appropriate folks and let us know.
    Let me ask you about another one that the Secretary talked 
about yesterday. He received a lot of questions about the 
technology to screen cargo in airplanes and whether that 
existing technology existed, whether further research and 
development needed to be done. He also talked about that being 
a high priority of your directorate. What is happening 
generally in that area?
    Dr. McQueary. From what we are doing right now is to 
understand what capabilities--when I say capability, it may be 
in the prototype stage--trying to understand what kinds of 
things already exist and what kinds of things are being 
contemplated.
    Primarily, at least what I have seen so far, is that work 
is being done in the national labs, and I have seen some very--
within the last 2 weeks, I have seen some very interesting 
technologies that suggest to me that we can make some strides 
forward in that area. But I am not here today to say that we 
should launch a program to do one of these things, but I have 
seen some things that do clearly warrant quick and early 
examination and determination as to what direction we should go 
with them.
    Mr. Thornberry. It occurs to me that in this area, as in 
the first responder communication area, you have got a lot of 
folks in the country that are very anxious to get something 
done. Your challenge is how patient you are to get it better 
versus getting something out there. You have had an exchange 
earlier with somebody about it. That is a difficult balance to 
get. I don't envy your job at all.
    Let me ask, going back to where Ms. Lofgren began the 
questioning, about how you look at various ideas and products 
and services that people have. And you have given us some 
information that we will certainly get around to our colleagues 
throughout the House. But you clearly have a very important 
role for the Technical Support Working Group.
    There are those that have a little bit of concern about 
that. Number one, it is under the Department of State, 
technically, to oversee it. second, you have got folks from a 
variety of agencies that sit on this group, and the fear is 
that you may be end up with the least common denominator, and 
you are certainly not going to have anybody willing to stick 
their neck out on anything that is really innovative. They are 
going to end up with a more conventional approach to problems, 
and we are going to not explore, as we should, all of the 
alternatives, particularly if it comes--you know, if it is 
something outside of the mainstream from some small company.
    Does that worry you at all that this interagency group has 
such a central role in assessing the ideas that come to you?
    Dr. McQueary. Well, you always had to worry whether you 
have gotten the very best idea that comes forth. But I do 
believe that with the multilevel of review process that we 
have--and I have worked on the industrial side of things 
working with the Technical Support Working Group, and have 
submitted proposals to them in the past, and had proposals 
evaluated and reviewed, and I didn't always agree with the 
results that came out of that.
    And there may be some in which we don't agree from a 
homeland security standpoint either, but that is why they are 
doing a job in support of us rather than taking over the 
responsibility for that. So we will--through the HSARPA 
organization is where we will manage the projects that will be 
selected by the Technical Support Working Group.
    So I am satisfied that we have a number of possibilities 
for review. And my experience would tell me if people, 
companies, feel that they haven't been fairly treated, they do 
not generally hesitate to make it known to more senior people 
in the organizations that they are dealing with on how they 
feel about that.
    It is not a perfect process; it never will be a perfect 
process. My suspicion will be that we will have far more--in 
fact, I know this is going to happen without even seeing the 
results, but we are going to end up with far more inputs with 
people that probably have more good ideas than we have money to 
fund. And so it will be a matter of setting priorities, rather 
than why don't we fund, you know, 2- or 300, and only spend 
maybe 10- or 15K with each one, which isn't enough to get a 
good idea launched.
    Mr. Thornberry. Well, and I think we appreciate the--this 
was an existing organization, and you had to get moving 
quickly. So you want to take advantage of it, and I appreciate 
that. I just think it is important for both--for all of us to 
be mindful of the concern that they are not inclined perhaps to 
be as innovative as we would like, although I am not sure that 
that is a fair criticism.
    One of the things that you were asked about earlier today, 
or you discussed, is your priorities overall within your 
directorate. And you mentioned that in the immediate term your 
priorities are the applied side. What can we do to find things, 
get technology out there quickly to make us safer, but 
understanding that the longer-term sort of research is also 
important? Have you set goals as a percentage of your budget, 
for example, on how much is basic research, how much--or 
whatever categories you want to use, longer-term research 
versus how much is more immediate and applied?
    You know, one of the concerns that I have had over the 
years in the Department of Defense is that we have not 
adequately put the longer-term R&D money into the programs, and 
when that happens, it is impossible to catch up. You can't make 
that deficiency up in the near term. Obviously you are just 
getting started. You have got immediate priorities. Whether it 
is this year or over the next 5 years, do you have goals as a 
percentage of your research budget that would go for this 
longer-term, more basic kind of research?
    Dr. McQueary. We have not established any specific goals at 
this point. I think it is a little premature to have put out 
numbers that we would have confidence in at this stage. But I 
certainly have no difficulty at all that the objective needs to 
be to have goals in such areas and try to move towards those, 
because I certainly share your view, that longer-term research 
is going to be very important to this.
    As I think about this system we have to deal with, it is a 
very complex system, homeland security with all of its inputs 
and outputs. We have a state, if I may describe it this way, 
that exists today. As the Science and Technology Directorate, 
we have to be able to characterize what state we want to move 
it to; in other words, what its capabilities are going to be. 
And our huge challenge, in fact the major challenge, that this 
country has is how do we evolve from where we are today to 
where we want to be.
    To do that we will have to have a combination of 
evolutionary changes and a combination of revolutionary 
changes. It would be my judgment that when we get to the final 
state, which itself will be one that evolves, that we then will 
move into what will likely be an evolutionary operation.
    So we have got to go through evolutionary and revolutionary 
so we can eventually to get to evolve the system at a rate 
consistent with whatever the future threats turn out to be.
    Mr. Thornberry. Well, I guess the challenge is knowing 
which stage you are in, because each of those stages could last 
a while.
    Let me ask briefly about two other areas. Then I want to 
yield to my colleagues, because I know that they may have other 
questions.
    Obviously one of the things that is very much in the news 
today is this incident, single incident, of BSE which was found 
in Canada.
    My understanding is that in June, the Plum Island facility 
will be transferred to the Department of Homeland Security, and 
I think that will be in your directorate; is that correct?
    Dr. McQueary. That is correct.
    Mr. Thornberry. Have you looked at all about making sure 
that the Plum Island facility is able to do whatever needs to 
be done with livestock diseases that could pose a risk to the 
health, as well as livestock diseases which could be terrorist-
induced and could threaten the country?
    Dr. McQueary. I have people that are at Plum Island today, 
this week. They are reviewing, you know, exactly where we are 
in preparation for this transition.
    We do not have a research program that is identified for 
Plum Island as of today. And as I am sure you know, our 
responsibility becomes one of being the landlord in facilities, 
and USDA will continues it operation as it was planned there, 
and then we have the option of adding to their programs should 
we conclude that there are things that need to be done.
    At this point we have not developed any programs that we 
would conclude that we need to conduct there. One thing I will 
say, though: some newspapers have reported that we were 
contemplating moving that facility to a biolevel 4. That is 
simply erroneous information and not based upon any factual 
reporting or discussion either. It is at biolevel 3; that is 
where we intend to continue to operate should we do anything.
    Mr. Thornberry. I am sure that you will do all you can as 
the landlord to make sure that the other work that they do 
there continues?
    Dr. McQueary. Yes, sir. And the USDA had undertaken a 
facility study because they have had some problems there. We 
will continue that to make sure that facility is operated with 
the integrity that it must be for the important work that it 
does.
    Mr. Thornberry. Great. Let me just give you an opportunity 
to make suggestions to us because, as I mentioned in my opening 
statement, it was over the course, really, of nearly 2 years 
that Congress wrote the Homeland Security Act of 2002, and we 
did not get it perfect. And I wonder if you have specific 
suggestions off the top of your head today, where maybe some 
adjustments need to be made in the act, some problems you have 
already run into. Obviously, an open invitation for you to 
continue to provide input for us, but is there something that 
you have run into already that needs some adjustment or 
tweaking in the law?
    Dr. McQueary. There is nothing that I have run into already 
that I think needs adjusting. In fact, I think I have read the 
law as you might guess. Knowing I was going to move into this 
job, I wanted to make sure I had a reasonable understanding of 
what it was I was getting into, so I have read it several 
times. I think it is, from a Science and Technology 
standpoint--I wouldn't comment upon the others because I 
haven't studied it--I think it is a well-crafted law and that 
it gives us the flexibility that we need in order to run an 
effective organization. So I don't view that the way it was put 
together is an impediment.
    The only area that we might come back to you on that I know 
about today, is this the initiation of the Homeland Security 
Institute. I think that's a good idea, and I am not sure 
whether we will want to say that having a sunset clause on that 
is something that should be done, but I would put that in the 
category of a minor item and not a major item. But that is the 
only thing that has surfaced. And it is too premature today to 
even say that that should be changed because we are not far 
enough into it.
    Mr. Thornberry. When will that get up and running do you 
think?
    Dr. McQueary. We have--for the Homeland Security Institute, 
we are preparing a request for a proposal right now, and we 
expect to name an FFRDC, federally Funded Research and 
Development Center, to have that lead role before the end of 
this fiscal, or certainly by November.
    Mr. Thornberry. And the concern has been raised with me to, 
that if you have a sunset, it may make it hard to recruit top-
rate people into that organization. At least a sunset that is 
three years away. It may be hard to get people to leave their 
current job and come to the Homeland Security Institute if they 
know the institute is only going to be around three years or at 
least has to be renewed, and I do think that that's something 
that we want to continue to discuss with you.
    Dr. McQueary. I think that's an important point, by the 
way, that you raise. Someone's given you very good advice on 
that.
    Mr. Thornberry. I have good people, and I try to listen. 
The Chair yields to the gentlelady from California.
    Ms. Lofgren. Thank you again.
    By the way, I very much agree with the point you just made 
on the sunset. I think that we need to examine that. I just 
have a couple of final questions.
    Section 302 of the Act really puts you in charge of doing 
R&D and evaluation and the like, and I assume that your 
Priority Number 4 on Page 3 really is the implementation of 
that. And as I have listened--and I think this has been a very 
helpful hearing. I have been thinking about, how do you 
separate out the things that we--are obvious from--and harmful, 
like an atomic bomb, a chemical attack, a biological attack, 
from what's sort of in the background but if unattended, can 
cause very serious problems as well.
    And that gets me to the question I was about to ask, and 
now, I will ask it a little bit broader. When the initial set 
of questions started, and that has to do with biometrics and 
how--who is going to do the analysis of--what is the best 
biometric? And I assume that the standards would be 
reliability, ease of deployment, cost, scalability and probably 
some other things I haven't thought of, so that we can deploy 
that in a way that makes sense. And the reason why I am 
mentioning it is it is similar to the interoperability issue 
for local law enforcement. People are making decisions right 
now without good scientific data. And by the time we get around 
to having you--I realize you have got a million things to do 
all at once, but by the time we get to this, we may have a 
bigger problem because decisions have been made.
    For example, and I am not saying it is the wrong decision 
because I don't know, the use of fingerprints in the FBI 
heavily influences the use of fingerprints as a biometric 
potentially for the Immigration Service. Except 10 percent of 
the population can't get their fingerprints taken on the 
machines, and there is a reliability issue. Is there, you know, 
something that's quicker, that's cheaper, that's more reliable? 
I don't know. I mean, various people give me information about 
that, but in the area of immigration, right now we have 
nothing. You know, the State Department just announced that 
they are going to ask for face-to-face interviews with 
pictures. I guess that's kind of a biometric. But, you know, if 
we are worried about attacks, we also need to worry about who 
is going to be implementing those attacks, and we are mindful 
that the 19 hijackers did come into the United States to do 
that damage.
    So I am eager for your office to pay attention to the 
deficits, the technology deficits, in other parts of the 
Department of Homeland Security, and specifically the area of 
immigration, and I serve on the Immigration Subcommittee and 
Judiciary and have for quite some time. And prior to that, I 
used to teach immigration law and practice immigration law. And 
it is a mess. It has been a mess for decades. It is still a 
mess. I worked with the last, you know, confirmed real 
commissioner, who tried in vain to get a CIO, which he couldn't 
really get because it is civil service and any--they are 
nowhere.
    And I think if we--one of the unique opportunities you have 
is to step in and set some standards, do some standard setting. 
We were told by Secretary Ridge yesterday that there are 
multiple watch lists that have not been integrated, and if they 
have not been integrated, they are also not fully shared with 
those who are making decisions about who should come in and who 
should not come in.
    We know that there are over a 113 different databases in 
the Immigration Service, and they can't communicate with each 
other. They are still creating paper files and microfiche. 
Obviously, you can't do a data search if it is on microfiche. 
And so, I am hopeful that you will not wait to be asked by 
diverse elements of the Department, but to take it upon 
yourself, not to implement because that is not your job, but to 
provide the standard setting that will allow others to 
implement in a way that actually works to defend our country, 
because I think it is very serious that we make the right 
decisions.
    You know, recently, I learned of a situation where we 
invited Russian scientists to come to the United States to be 
briefed on how to secure plutonium in Russia, a very important 
thing for our country. And the scientists were unable to 
actually come in to get the training that we asked them to take 
because the visa didn't get processed in time. So, I mean, it 
is ludicrous, but unfortunately it is routine. So the question 
is, I mean it is a long and rambling question, but this is a 
very serious problem. I know that it is not being attended to 
now. How would you proceed and how could we support you in 
proceeding to set standards and to assist in the technology 
deficits of this element of the Department?
    Dr. McQueary. Well, first, I believe that the U.S. Visa 
System will be a--is a very positive step moving in the 
direction where you are. And I believe Under Secretary 
Hutchinson--I saw in some recent testimony it said that he 
believed that a combination of pictures and fingerprints was 
probably the most likely combination of biometrics to be used. 
I share that view, considering where we are today. Iris scan is 
another one that is very important. However, if we look at what 
we are trying to accomplish, we are trying to determine whether 
there are people who would do us harm. And we have a much 
larger fingerprint database, obviously than we do of iris 
scans. And so--but that would not say that we should neglect 
that. I think that we should be constantly looking at other 
opportunities.
    I just read an interesting article yesterday, where DARPA 
had funded some work on looking at the way people walk as being 
a possible way of determining who they are. And apparently a 
college in, I believe it is in Georgia, maybe University of 
Georgia, had been able to run some tests on a hundred different 
people--and a hundred is not five billion, but it is a hundred 
different people in which they were getting about an 80 to 95 
percent success rate in being able to identify people.
    So I think we have to continually be looking for new ways 
of improving the quality of determination of who it is that's 
coming across our border, because we must know the answer to 
that, and we must know who leaves. That is essential to be done 
in this Homeland Security protection that we have.
    Ms. Lofgren. If I could follow up. I mean, part of the 
issue--you're right. We have some data on fingerprints and 
maybe that's in the end, what we will end up with. But the 
question we have is not just what we have a record on, because 
most of the people we have in fingerprints are not looking for 
visas, they are Americans or they are permanently here, but 
what is scalable that will connect an individual with an 
identity, even if it is a false identity, but that will nail 
that person as a single unit, and we are not doing that today. 
And the reliability issue, I think is very important. And I 
would love to see some analysis and I don't have, I mean I have 
got some guesses, but I don't have a conclusion on what that 
ought to be, and I would hope that we wouldn't just assume, I 
mean photographs are easily doctored. And I think that we 
should look to something that is reliable. And I would look to 
the scientific community, and you, to try and give us some 
guidance on that.
    And second, and I know we are running out of time, and you 
have been very indulgent with your time. Is there an 
opportunity to provide some hardware and software expertise to 
the immigration function? For example, I just learned, frankly 
by reading the newspapers, that we are going to try and use the 
SEVIS system for the new visa program. Well, the SEVIS system 
is crashing every day already. It doesn't work, and you know, 
if it did work I would be fine, but it doesn't work. And so I--
obviously, we need some additional expertise in this area to be 
successful. Do you have the capacity to do that?
    Dr. McQueary. I don't have the capacity today, but that's 
not to say that we could not muster the resources, because we 
are not going to be an organization that has all of its 
indigenous capacity within our organization. We expect to call 
upon skilled people in private industry, universities and the 
like. So we certainly have the capacity to be able to lead such 
an effort, and, in fact, I mentioned earlier, we have the 
Systems Engineering Lead working on the US Visa System to help 
determine what the characteristics of that system should be. So 
that when the system goes out for a bid, they will be in a 
stronger position to be able to know what to ask for, and we 
are participating in that today.
    Ms. Lofgren. Could I ask you, later, to send to the 
committee kind of where--the steps you have taken so far, on 
that specific area?
    Dr. McQueary. Sure.
    Ms. Lofgren. And then, any additional thoughts you might 
have that could be done, and how we might be supportive in that 
area?
    Dr. McQueary. Be happy to.
    Ms. Lofgren. I would thank the Chairman for his time, and I 
don't know if Mr. Turner has additional questions.
    Mr. Thornberry. I thank the gentlelady. Gentleman from 
Texas.
    Mr. Turner. Thank you, Mr. Chairman.
    Dr. McQueary, I know the hour is getting late here, and 
I'll try to be brief.
    Under Section 861 of the Homeland Security Act, a section 
called the SAFETY Act, there is a provision that allows 
contractors with the Department to be granted liability 
protection so that they will have the incentive to sell certain 
items to the government which they might not otherwise sell 
because of the business risk entailed in providing terrorism-
related equipment, services, and products. It's the 
Department's responsibility to implement the regulations to 
carry that provision out. I have heard from many private 
contractors, in the defense contracting field that want to do 
business with the Department, saying that these regulations 
have not been issued. They are somewhat concerned about that 
process.
    Could you tell me what the status of that undertaking is to 
get the SAFETY Act regulations issued so that we can know that 
when we need to procure something it will be available?
    Dr. McQueary. I cannot tell you precisely where it is. I 
can give you a general description, but I can certainly find 
out in detail and report back to you.
    Our intent was to have a private industry have an 
opportunity to comment upon the regulations to see whether they 
make sense. Now, the likelihood of getting unanimity of view is 
not high, but certainly having the input would be very valuable 
to us. We have internal discussions, in fact, there is--one of 
our documents that establishes delegation of authority is under 
review right now, and if it goes through as it has been put 
together, the authority for deciding who will be given the 
approval for whatever the act turns out to be, that will likely 
be assigned to me. And it appears--unless the Secretary decides 
he wants to do it a different way.
    So my input would be, the industry needs to feel free that 
it should openly provide to us, on what their views are on 
that. I had someone call me just within the last week on that 
subject. Turns out it was someone that I knew, wanting to know, 
saying we are very worried--a major company--we are very 
worried about this. I said, why don't you send us a letter and 
tell us what you think about it because we would like to have 
input? So we don't have--and so that would be beneficial to us.
    Mr. Turner. I might mention to you, as you begin to try to 
deal with this, that the delegation of whose responsibility 
this is really hasn't even been made yet. Is it premature to 
ask who is creating the regulations?
    Dr. McQueary. Right.
    Mr. Turner. This was an issue of some controversy when the 
bill was passed. I will tell you, up front, that I was on the 
other side of the prevailing side because I advocated a 
position that the private sector and the defense contractors 
advocated, which was that the Department should be granted the 
authority given to the Department of Defense under current law, 
which allows them to grant indemnity on a negotiated basis, 
product by product, to the provider. Most of your contractors 
will tell you that this has worked well in the Department of 
Defense. But what happened is that point of view that I 
advocated was defeated when I offered the amendment by one vote 
on the floor of the House, in favor of the language that is in 
the bill. You are now required to plow new ground, and to 
basically certify that a product is safe. Once you have done 
so, then the provider is home-free with regard to any 
liability. I thought that was probably an ill-chosen path to 
try to send the Department down, but if you come to the point 
where you find that too burdensome, I would urge you to take a 
look at what the Department of Defense has done for the last 25 
years and see if that might not work more smoothly to 
accomplish this goal. If so, we might find the extra vote we 
needed on the floor of the House to get it back to the way DOD 
has handled it.
    Dr. McQueary. Yes, sir.
    Mr. Thornberry. Dr. McQueary, I do appreciate your patience 
as well. I want to get your impressions in a couple of areas, 
and then there will be, I am sure, other questions we want to 
submit in writing.
    Obviously, the Homeland Security Department was bringing 
together 22 different agencies into one entity. My 
understanding is that there were about 15 different programs 
that were either created or transferred into your jurisdiction. 
Generally, how has that management challenge gone during--do 
you feel? Are we getting them together to work as one unit? It 
is a very difficult thing, and, obviously, you have had only a 
limited time to work on it, but what's your general impression 
about how well that's gone?
    Dr. McQueary. My view is, it has been relatively seamless 
in making the transition. The programs--we are continuing the 
programs that were being done in DOD. They were good programs, 
and what we have done is take the programs based upon their 
character and assign them to our portfolio manager. So we have 
a lead person reporting into the program plans and budget 
organization. And that portfolio manager assumed responsibility 
to continue the work that was going on. And so it seems to have 
gone quite well from my perspective. In fact, I have had--no 
difficulties have been brought to my attention about that 
transition.
    Mr. Thornberry. Good. One other area. It came up today 
during a long series of questions from Mr. Weldon.
    This concern or interest in being able to transfer 
technology that may be in the Homeland Security Department, may 
be in the Department of Defense, may be somewhere else into 
first responders or somebody else who needs it. Is that 
something that your directorate will be considering? 
Identifying technologies that may be somewhere in the 
government and seeing how and whether it may be appropriate to 
transfer those to first responders, among others?
    Dr. McQueary. Yes, sir. In fact, I have met with Assistant 
Secretary Paul McHale twice already. He and I have agreed upon 
a working relationship, from the Department of Defense 
standpoint, working, having the Homeland Defense Organization. 
And basically, that organization will be one in which he and I 
will formally get together on a quarterly basis, and then we 
will encourage open dialogue between Science and Technology and 
the Department of Homeland Security and the resources he has in 
the Department of Defense. So that's a start.
    I have also met with Admiral Jay Cohen and the Office of 
Naval Research to establish, I mean a couple of things. He has 
provided his people and also been very open about anything they 
have got that we can bring to bear. And so I put this in the 
category, when I mentioned earlier, we must understand what's 
available before we launch into large development programs to 
do something that could be duplicative. And I think it is 
fundamental to our responsibility that we do that and do it not 
only well, but quickly.
    Mr. Thornberry. Yes. I think that's very encouraging. And 
then you can, once you have identified if it is appropriate to 
get it into the hands of firemen or police or whatever, then 
you are able to do that. So I do think that's encouraging.
    I appreciate very much your time today, as well as the 
efforts that you make. I hope you get a sense that you have a 
number of members on this subcommittee, but also the full 
committee who are very hungry to be active partners with you 
and the Department to help this Department of Homeland Security 
succeed in making us safer. And we look forward to continuing 
to work with you toward that goal.
    Without objection, the record will remain open for 10 days 
for additional questions, and we will work with your folks on 
written responses to those questions.
    If there is no further business before the subcommittee, we 
stand adjourned.
    [Whereupon, at 4:22 p.m., the subcommittee was adjourned.]

                   Materials submitted for the Record

 Reponses to Questions for the Record from Under Secretary Charles E. 
 McQueary for the Subcommittee on Cybersecurity, Science, and Research 
 and Development for a hearing held on May 21, 2003 titled ``Homeland 
      Security Science and Technology: Preparing for the Future''

1. Priority-Setting
a. How were priorities established for each of the seven R&D portfolios 
described in Department budget documents? What were the major factors 
that were considered, and how did you arrive at specific funding levels 
for each portfolio?
    Answer S&T 1.a. The priorities within each of the portfolios are 
the initial responsibility of the portfolio manager, with review and 
concurrence of those priorities by the Assistant Secretary, Plans, 
Programs and Budgets, with the ultimate responsibility for these 
priorities being mine.
    Factors that were considered include national assessments of 
terrorist threats, the national strategy for homeland security, and the 
state of our ability to detect and deter those threats. Specific 
funding levels for each portfolio were identified in accordance with 
our current assessment of the efforts needed to meet our mission and 
objectives. We will continue to assess both the state of our science 
and technology and its ability to meet the objectives, and the effort 
needed to develop and/or demonstrate that technology.

b. Do you anticipate any changes in the near-term in those priorities 
or in the methods used to set them?
    Answer S&T 1.b. We do not anticipate any changes in the near-term 
for the current priorities of our portfolios nor the methods used to 
set those priorities. However, we are continuously evaluating the 
factors used to set our priorities and we will adjust our priorities as 
necessary to be consistent with those factors.

c. In setting priorities, how does the Directorate use vulnerability, 
threat, and risk assessments? What methodologies are used in making 
such assessments and translating them into priorities? What are the 
potential pitfalls with the approach(es) used and how do you avoid 
them?
    Answer S&T 1.c. We use existing information on threats and 
vulnerabilities to identify high consequence potential threats. Our 
work focuses on detecting, deterring, and if necessary, mitigating the 
impact of a successful attack for these high consequence threats 
because of the potential they have to cause major loss of life, result 
in severe economic damage, significantly disrupt our critical 
infrastructure, or damage national symbols. Our Threat and 
Vulnerability, Testing and Analysis (TVTA) Portfolio will be the 
principal provider of these net assessments, working closely with the 
Department of Homeland Security's (DHS's) Information Analysis and 
Infrastructure Protection (IAIP) Directorate. These net assessments are 
then used to help set our priorities. Potential pitfalls to any 
assessment of threats, vulnerabilities and our current ability to 
thwart these threats are recognized and include uncertainties in the 
state of knowledge of the threats and vulnerabilities and a constantly 
evolving technology base which aids our efforts to counter these 
threats but may also provide new capabilities to our enemies. Constant 
and ongoing assessments with independent evaluations offer the best 
defense against surprise.

d. To develop new countermeasures, the Directorate will need to 
identify and employ the right mix of activities throughout the R&D 
pipeline, ranging from long-term, basic research all the way through 
deployment. For each stage, how will you decide what is the right level 
of investment in each of these activities, including projects with 
large potential benefits but high risk of failure?
Answer S&T 1.d. DHS does not break down its Research, Development, Test 
and Evaluation (RDT&E) efforts into 6.1-6.4 categories like the 
Department of Defense (DoD). It is safe to say, however, that our 
initial focus will not be in basic research (6.1), but rather 6.2-6.3 
(to use DoD categories). Below is a table that indicates the percentage 
of fiscal year 2003, fiscal year 2004 and fiscal year 2005 funds that 
go to basic research, applied research, and development.

                      Science and Technology Directorate R&D Investments (in millions of $)
----------------------------------------------------------------------------------------------------------------
                                             Fiscal Year              Fiscal Year              Fiscal Year
             Fiscal Year                    2003(actual)            2004(estimated)           2005(proposed)
----------------------------------------------------------------------------------------------------------------
Basic................................  47                      117                       80
Applied..............................  59                      56                        229
Developmental........................  398                     608                       643
Total................................  504                     781                       952
percent basic........................  9.3 percent             15.0 percent              8.4 percent
----------------------------------------------------------------------------------------------------------------

    Some of the cyber forensics efforts will be basic in nature, as 
will our efforts in the social sciences (such as behavioral or 
autonomic indicators of hostile intent, or efforts to develop an 
understanding of people's reactions to threat warnings.)
    In addition, longer-term research efforts are a specific 
responsibility of the Homeland Security Advanced Research Projects 
Agency (HSARPA) within the Science and Technology (S&T) Directorate, by 
their investing in higher risk, higher payoff technology development. 
Our Emerging Threats Portfolio is designed to foster long-term 
innovative and creative exploratory RDT&E programs to anticipate and 
counter new and emerging threats. Both programs will be structured to 
encourage individuals or teams of researchers to pursue high-risk/high-
payoff mission-related projects. In addition, the national laboratories 
will be expected to leverage and apply the expertise gained from basic 
science programs supported by the DOE/Office of Science, National 
Science Foundation, and other government agencies towards the homeland 
security mission.
    To determine the correct mix of basic and applied research, our 
portfolio managers coordinate with operational end-users and use their 
expert judgment to define needs and requirements for their research 
areas.

e. How do you make sure that needed technologies make it all the way 
through this pipeline--for example, how do you avoid the so-called 
``death valley'' problem, where promising research results are not 
picked up by industry because of market uncertainties, and at the same 
time avoid interfering in the marketplace?
Answer S&T 1.e. Capturing the entire range of research and transition 
activities in one organization helps to ensure the coordination 
necessary for successful transition to end-users. Constant dialogue 
with the operational end users, use of proactive solicitation of ideas 
and products from the private sector through the interagency Technical 
Support Working Group (TSWG) and Broad Agency Announcements (BAAs) also 
help us focus our efforts and keep us informed of the current state of 
technology. The Technology Clearing House will also provide a mechanism 
for private industry to become aware of available technologies. We will 
use the Systems Engineering and Development organization within our S&T 
Directorate to manage this transition process. We also will use 
independent and objective reviews of our programs to ensure we are 
meeting the overall mission requirements. Moreover, we have a process 
through the National Science and Technology Council's Infrastructure 
Subcommittee to work with the privately owned parts of the critical 
infrastructure sectors to identify their prioritized requirements. With 
this process, we are likely to avoid the ``death valley'' problem as it 
is industry itself that has identified the need. Through Department of 
the Treasury lead, the financial sector provided their prioritized R&D 
agenda in late 2003.

f. Guidelines for merit review of R&D programs--Consistent with the 
Homeland Security Act's requirement for the Secretary to develop and 
oversee guidelines for merit review of R&D projects and disseminate 
research conducted by the Department:
        <bullet> Which office within the S&T Directorate is responsible 
        for developing these guidelines?
        <bullet> When will they be completed? If they have been 
        completed, please provide a copy to the Committee.
Answer S&T 1.f. The development and implementation of guidelines for 
merit review of research and development (R&D) projects has been 
assigned to the respective components of the S&T Directorate having 
responsibility for the selection and execution of our R&D projects. 
This approach was taken because of the differing nature of the R&D 
projects; some are more fundamental, some are applied and some are 
technology development. The Office of Research and Development, HSARPA 
and the Rapid Prototyping Portfolio are developing and implementing 
merit review guidelines appropriate to their respective 
responsibilities.
    The Rapid Prototyping Portfolio is using the Technical Support 
Working Group (TSWG) to help assess the proposals received through that 
mechanism.
    Each of our HSARPA solicitations goes through a rigorous merit 
review process, using external as well as internal reviewers. HSARPA 
prefers technical review to peer review. The white papers, proposals 
and other submissions we ask for require multi-dimensional technology 
reviews that involve expertise from related fields in science, 
technology, and engineering. HSARPA Program Managers assemble groups of 
qualified colleagues to act as reviewers. In the unusual event that 
they do not have access to a particular expertise, our procedures also 
allow the engagement of any individual expert from outside the 
government for this specific purpose. All reviewers are required to 
sign detailed non-disclosure agreements. In evaluating the proprietary 
information that private entities entrust to us, we prefer to use the 
government Program Manager as the lead reviewer on the assembled team, 
the government Deputy Director as the Source Selection Authority, and 
the appointed Director exercising total visibility and oversight. 
HSARPA routinely offers submitters the option of having their proposals 
reviewed by government-only teams, further ensuring that their valuable 
proprietary data is not exposed.
    The Office of Research and Development (ORD) uses a combination 
internal-external review process for DOE National Laboratory proposals. 
Portfolio Managers help to recruit PhD scientists to act as reviewers 
from both federal agencies and the academic community. These panels 
conduct a technical review of the proposals. The proposals that are 
most highly-reviewed are then put through an S&T internal relevance 
review. Appended to this document (appendix A) are guidelines from ORD 
on their peer review process.

2. Current Organization of the Directorate

a. For each major organizational unit within the Directorate, please 
provide its name, the name of the individuals responsible for each 
unit, and a current telephone number for each such individual.
Answer S&T 2.a. A current organizational chart is appended to this 
document (Appendix B). The relevant phone numbers are listed in the 
Office Directory that is contained in Appendix C.

b. Please provide the most current contact information for the S&T 
Directorate, as well as the appropriate contact information for vendors 
to use if they wish to bring a product or proposal to the attention of 
the Department.
Answer S&T 2.b. The most current contact information is contained in 
Appendix C. We are in the process of creating procedures by which all 
vendors who wish to bring a product or proposal to the attention of the 
Department can do so fairly. Currently, HSARPA is evaluating proposals 
and ideas from vendors who complete the Federal Acquisition Regulations 
listed at http://www.arnet.gov/far/loadmainre.html, Section 15.605 
(Unsolicited Proposals). As our procedures change, we will keep 
Congress informed.

c. Homeland Security Advanced Research Projects Agency (HSARPA)
        <bullet> Has HSARPA been established? If not, when does the 
        Department expect to establish it?
        <bullet> What initial research topics will it focus on?
        <bullet> How will HSARPA be structured and what criteria are 
        you using to determine that?
        <bullet> Please describe the process by which HSARPA 
        establishes research priorities, and the means by which 
        intelligence information is, or will be, communicated to HSARPA 
        to inform its research priorities.
Answer S&T 2.c. HSARPA was established in March of 2003 when the 
Department was stood up.
    HSARPA's initial research interests will focus on the area of novel 
and improved chemical and biological sensors. Future solicitations will 
support research and development in the technical areas of Radiological 
and Nuclear Countermeasures, Explosives Detection, Critical 
Infrastructure Protection, Standards, Maritime Surveillance and 
Security, Borders and Transportation Security, Threat Vulnerability and 
Threat Assessment, and Emergency Preparedness and Response.
    HSARPA is a mission-oriented R&D funding organization within the 
S&T Directorate. To determine the structure, S&T leadership looked at 
other government funding organizations, examining their strengths and 
weaknesses and the similarity or difference in their missions compared 
to HSARPA. For mission-oriented research, having a technical program 
manager (PM) empowered to accomplish specific objectives is a key 
element for success. HSARPA is thus organizing around PMs as the 
operational level, grouped into technical offices with an experienced 
senior technical manager as the Office Director. The Office Directors 
then report to the HSARPA Director and Deputy Director. In designing 
its internal processes, HSARPA is focusing on streamlining the 
paperwork and layers of oversight, while maintaining sufficient 
management and fiscal control. In start-up mode, program managers have 
not been grouped into Offices. This is to develop a cross-program and 
cross-technical area collaborative culture that might be stymied by a 
rigid office structure in the beginning. Within six months, technical 
offices will be established.
    HSARPA has three missions established in law: to promote 
revolutionary changes in technologies related to homeland security; to 
advance development, testing and evaluation and deployment of those 
technologies; and to accelerate prototyping and development of 
technologies that redress homeland security vulnerabilities.
    To establish research priorities for revolutionary technologies, 
available technical opportunities are assessed in light of the outcomes 
that can be expected from the investment dollars available. Priorities 
are established to achieve the best expected research results from the 
total research investment.
    For the remainder of the HSARPA research program, priorities are 
established by the Portfolio Managers (located in the Plans, Programs 
and Budget section of S&T) and followed carefully. Portfolio Managers 
assess DHS customer needs, use available intelligence reports and 
products, analyze threats and vulnerabilities, identify potential 
opportunities, and prioritize their operational needs. HSARPA Program 
Managers collaborate closely with them to design and to execute 
programs to satisfy these operational needs.
    In establishing HSARPA, serious attention is being paid to hiring 
and obtaining qualified technical personnel with required security 
clearances, specification of facilities for proper handling of 
classified information, and providing electronic links and 
communications arrangements with intelligence counterparts in other 
agencies. Being able to handle and secure classified intelligence 
obtained from those sources is crucial to being able to work at the 
forefront of technologies related to Homeland Security.

d. Technical Support Working Group (TSWG)
<bullet> What is the relationship between the S&T Directorate and the 
State Department-led TSWG?
<bullet> What activities has the TSWG been involved in to date on 
behalf of the Department?
<bullet> You have indicated that the Directorate will develop the 
technology clearinghouse in collaboration with the TSWG. Please 
describe how that collaboration will work.
<bullet> Which clearinghouse activities will be handled by TSWG and 
which by the Directorate?
<bullet> Does the Department intend to create its own TSWG, or will it 
continue to have to rely on an entity not formally a part of the 
Department?
<bullet> Some observers have expressed concern that TSWG's approach 
results in recommendations that are too conservative. Please address 
that concern. In particular, how will you ensure that break-through 
technologies are adopted when appropriate?
Answer S&T 2.d. The Technical Support Working Group (TSWG) is an 
interagency national forum that identifies, prioritizes, and 
coordinates interagency and international research and development 
(R&D) requirements for combating terrorism. The Department of State 
exercises oversight.
    On June 4, 2003, DHS issued a $33M procurement request to TSWG to 
``solicit commercial-off-the-shelf technologies for use by federal, 
state, and local entities, providing the technical clearing house 
function. . ., and to upgrade its infrastructure to perform this 
function.
    The TSWG rapidly develops technologies and equipment to meet the 
high-priority needs of the combating terrorism community.
    On May 14, 2003 TSWG and DHS issued a joint Broad Agency 
Announcement seeking technology for fifty top priority requirements. 
TSWG received 3,344 responses to this call. From these responses, TSWG 
requested 223 proposers to submit White Papers. Based on the evaluation 
of these White Papers, TSWG requested and received 47 full proposals. 
TSWG has completed these evaluations and is now in the contracts 
negotiation process. TSWG has also supported DHS S&T by providing 
technical evaluation of unsolicited proposals. DHS has provided an 
additional $30M in fiscal year 2004 to fund the most meritorious of 
these submissions.
    DHS has not made final decisions on how to implement the 
clearinghouse functions. Until firm decisions can be made, and staff 
gathered to support them, the clearinghouse function required in 
Section 313 is being satisfied in two ways; funding of Public Safety 
and Security Institute for Technology (PSITEC) ($10M in fiscal year 
2004) to perform the clearinghouse function and the DHS working 
relationship with the Technology Support Working Group. PSITEC develops 
knowledge-based services that provide access to, and distribution of, 
information and services relevant to public safety technologies. PSITEC 
will serve as the clearinghouse--a single point of entry--for the 
public safety and first responder community, providing access to 
relevant information on technologies and products, test and evaluation, 
as well as engaging in projects of interest and importance to them.
    HSARPA has a single focus and a single funding source for its 
research. Its staff is experienced; its research goals are stressing. 
The planned research will press the state of the art and about $13M of 
the fiscal year 2004 HSARPA budget is targeted specifically to nurture 
break-through research on the most difficult homeland security 
problems. Although true break-through technologies are rare, HSARPA's 
organization, plans, budgets and assigned functions ensure that if one 
emerges, it will be developed and moved quickly to field use.

e. Homeland Security Institute (HSI)
<bullet> Has the HSI been established?
<bullet> If so, how many people are employed there?
<bullet> Who is leading the Institute?
<bullet> What is its budget for the current fiscal year?
<bullet> What tasks and responsibilities has the Secretary assigned to 
the Institute?
<bullet> What products or results has the Institute reported?
<bullet> If it has not been established, when does the Department 
expect to establish it?
 Answer S&T 2.e. The Homeland Security Institute will be established in 
fiscal year 2004. In early December 2003 the Science and Technology 
Directorate released a Request for Proposals to establish the Institute 
as as a federally funded research and development center (FFRDC) to 
provide analytic support for the Department. Proposals were due January 
28, 2004, with award projected on May 1, 2004. The budget is expected 
to be $128M over 5 years ($8.5M in fiscal year 2004, approximately $30M 
per year fiscal year 2005-fiscal year 2008). The Homeland Security 
Institute will provide a wide range research, studies, analyses, 
analytic and computational models, simulations, and other technical and 
analytical support useful for policy and program planning, and 
management by the Department. Core competency areas include: systems 
evaluations, technology assessments, operational assessments, resource 
and support analyses, analyses supporting the SAFETY Act, and field 
operations analyses.

f. Establishment/Contract with a Federally Funded Research & 
Development Center (FFRDC)
        <bullet> What steps has the S&T Directorate taken, to date, to 
        contract with or establish an FFRDC?
        <bullet> If no selections have been made, please describe the 
        process and selection criteria that the Department will use to 
        make any selections.
Answer S&T 2.f. addition to information provided in response 2.e. 
selection criteria identified in the Request for Proposals included 
Management and Technical Approach, Past Performance and Past 
Experience, Subcontracting, and Cost and Financial Capability.

g. University-Based Centers for Homeland Security
        <bullet> How many university-based centers does the S&T 
        Directorate expect to establish?
        <bullet> What criteria will the Directorate use in establishing 
        such Centers?
        <bullet> What types of research work does the Directorate 
        intend to assign to such Centers?
Answer S&T 2.g. On November 25, 2003, the Department announced 
selection of the University of Southern California as the first 
Homeland Security Center, for Risk and Economic Analysis of Terrorism 
Events. The Center will develop modeling capabilities that cut across 
general threats against critical infrastructure targets, such as 
electrical power, transportation and telecommunications. The Center 
will also develop tools for emergency response planning. Center staff 
recently met with S&T officials and portfolio managers to begin 
detailed dialogue on a work plan to guide the Center's research. The 
Center has assembled a team of experts across the country, to include 
partnerships with the University of California at Berkeley; the 
University of Wisconsin-Madison's Center for Human Performance and 
Analysis; Structured Decision Corporation; and New York University's 
Institute for Civil Infrastructure Systems.
    Our objective is to create additional Centers, each focusing on a 
different area important to homeland security, including social 
sciences, psychology, and life sciences as well as engineering and 
physical sciences. These Centers will be mission-focused and targeted 
to research areas that leverage the multidisciplinary capabilities of 
universities. We are pleased to have the support of the National 
Academies of Science, which has agreed to convene two workshops to 
solicit university community and scientific expertise input on a 
forward-leaning agenda for the Centers of Excellence program. The NAS 
held the first workshop on the research agenda last month (January 
2004) and will hold its second workshop on the education agenda in 
April 2004.
    Our intent is to manage solicitation processes and announce awards 
for two additional Centers of Excellence this year. On December 12, 
2003, DHS released a Broad Agency Announcement (BAA) in the area of 
agricultural biosecurity. Through this BAA, we will fund two Centers of 
Excellence, one dedicated to education and research of foreign animal 
and high-consequence zoonotic diseases; and a second Center dedicated 
to post-harvest food security.

h. Headquarters Laboratory Section 309 of the Homeland Security Act 
gives the Secretary authority to contract with or enter into joint 
sponsorship agreements with a DOE laboratory.
<bullet> Has the Secretary established a headquarters laboratory, in 
accordance with section 308 of the Homeland Security Act?
<bullet> If so, where is it, who is running it, how many people are 
working there, what is the funding for the current fiscal year, and 
what functions does it perform?
<bullet> If it has not been established, will the Department do so? If 
so, when?
Answer S&T 2.h. No, the Department of Homeland Security has not 
established a headquarters laboratory. The S&T Directorate is accessing 
the capability base of the national laboratories in accordance with DHS 
mission requirements for the intramural and extramural programs. The 
DOE national laboratories, sites, and technology centers have a 
tremendous breadth of technical expertise and capability in areas 
related to homeland security. The DHS/S&T is committed to maximizing 
the opportunities for all of the DOE assets to play a role in 
supporting the missions of the Department.

i. Federal Clearinghouse

<bullet> Has the Secretary established a federal clearinghouse for 
dissemination of homeland security technology information? If not, when 
will it be established?
<bullet> Where is it?
<bullet> Who is running it?
<bullet> What is its telephone number?
<bullet> What is its budget for this fiscal year?
Answer S&T 2.i. DHS has responsibility for the clearinghouse function. 
However, it has not been ``established'' as a separate entity within 
the S&T Directorate to date. Currently, the clearinghouse functions 
required in Section 313 of the establishing legislation are being 
satisfied in two primary ways.
    First, on June 4, 2003, DHS established a working relationship with 
the Technology Support Working Group by providing funding ($33M in 
fiscal year 2003 and $30M in fiscal year 2004) to ``solicit commercial-
off-the-shelf technologies for use by federal, state, and local 
entities, providing the technical clearing house function. . ., and to 
upgrade its infrastructure to perform this extra work.
    Second, in fiscal year 2004, DHS will fund the Public Safety and 
Security Institute for Technology (PSITEC) ($10M in fiscal year 2004) 
to perform the clearinghouse function.
    PSITEC develops knowledge-based services that provide access to, 
and distribution of, information and services relevant to public safety 
technologies. PSITEC will serve as the clearinghouse--a single point of 
entry--for the public safety and first responder community, providing 
access to relevant information on technologies and products, test and 
evaluation, as well as engaging in projects of interest and importance 
to them.
    For the longer term, DHS is considering a range of possible 
solutions for carrying out the ``centralized Federal clearinghouse'' 
function. Some appear more cost effective than establishment of a 
separate, stand-alone clearinghouse. Until decisions can be made based 
on experience, these two methods together with other activities such as 
information provided on the public website, issuing Federal Funding 
Opportunities for technologies and research (with explicit information 
on research topics and submission procedures), and writing standards to 
evaluate technologies, constitute the clearinghouse function.
    The clearinghouse function as described above resides in the S&T 
Directorate of DHS. Pending the establishment of a single centralized 
Federal clearinghouse, the Points of Contact information listed on the 
public webpage (as described above) should be used.
    The clearing house function has no separable budget. DHS has 
provided a total of $63M to TSWG, a small portion of which covers 
clearinghouse functions. In fiscal year 2004, $10M will be used to 
support PSITECH and its functions.

3. Standards

a. Your statement to the Subcommittee describes development and 
implementation of standards as a key area of emphasis for the 
Directorate, and you have recently signed a Memorandum of Understanding 
(MOU) with the National Institute of Standards and Technology to 
facilitate that.
        <bullet> Please provide the Subcommittee with a copy of the 
        signed MOU.
        <bullet> What are the responsibilities of the Science and 
        Technology Directorate for homeland security standards, and 
        what responsibilities lie elsewhere within the Department and 
        other federal agencies?
    Answer S&T 3.a. The MOU with the National Institute of Standards 
and Technology is included as Appendix D.
    Standards are an integral component of the mission of the S&T 
Directorate because they provide the objective measures of homeland 
security systems effectiveness. Standards are a fundamental component 
of the cradle to grave research, development, test, evaluation and 
transition to service product cycle. Thus, standards for homeland 
security applications must be constructed in parallel with the 
defensive systems to establish minimum criteria for effectiveness that 
encompass: basic functionality, adequacy for the task, 
interoperability, efficiency, and sustainability. Standards development 
requires a detailed knowledge of the technical attributes and 
capabilities of the system and a comprehensive understanding of the 
user requirements and operating conditions. A tight coupling must be 
maintained between the operational users, standards, and all the 
technologies that comprise the system at each step in the research, 
development, test and evaluation process.
    During the transition phase of the Department, the need for 
standards to address design, procurement, deployment, and use of the 
radiological and biological detectors was determined to be a key need. 
In collaboration with the National Institute of Standards and 
Technology (NIST), the American National Standards Institute (ANSI) and 
the Institute of Electrical and Electronic Engineers (IEEE), the DHS 
S&T transition team began development of standards for four high-
priority classes of radiation detection equipment. The four classes are 
personal dosimeters (``pagers''), alarming hand-held detectors, hand-
held isotope identifiers, and radiation portals. These standards have 
been released in draft form and will soon go to ballot, in accordance 
with ANSI process requirements for national consensus standards. A 
contract to develop a standard test method for hand-held bulk anthrax 
immunoassay kits has been negotiated with the private sector group AOAC 
International. A Task Force set up under this contract has developed a 
plan of work to validate these test kits at Dugway Proving Grounds, 
Utah.
    Work is also progressing in the areas of training standards and 
personnel certification. Additional standards needs for both detection 
and response are being identified as part of a systematic evaluation of 
capabilities versus needs for standards to support the homeland 
security mission related equipment, operators, models and analyses, 
data and information, and integrated systems.
    In addition, the S&T Directorate has been working with the Oklahoma 
City Memorial Institute for Preventing Terrorism (MIPT) to deploy a 
web-based tool that will communicate directly with user communities. 
The user community has had a broad representation in the development of 
the tool. ``Project Responder,'' with direct input from DHS, is 
evolving into a tool that can catalog technologies, provide links to 
manufacturer data, and indicate which standards apply and also the 
degree of compliance with DHS standards. It will also show links to 
appropriate training and with potential grant programs.
    In all of these standards projects, the S&T Directorate coordinates 
with the customers in the operational directorates and with experts in 
other federal agencies including DOE, DOD, HHS, EPA, FDA, USDA and 
others.

b. Are your efforts focused only on technical standards for equipment, 
or do they include other things such as preparedness and cyber security 
standards?
Answer S&T 3.b. S&T Standards are not limited to technical standards. 
They will also include standards for Information Technology (IT) 
products and services that are needed by the operational directorates. 
These include cyber security standards, as well as standards for 
biometric identification technologies, ``smart cards'', and 
radiofrequency ID cards (RFID) for baggage identification. The 
standards process also involves developing tools for accreditation of 
laboratories for Test and Evaluation (T&E) for technical products and 
services as well as IT products and services.

c. How are you engaging the private sector, including standards-setting 
organizations, in these efforts?
Answer S&T 3.c. A number of Standards Development Organizations (SDOs) 
have stepped forward to offer their help to the S&T Directorate in 
development of consensus standards for Homeland Security. The American 
National Standards Institute (ANSI) has volunteered to coordinate the 
activities of about 280 SDOs that are members of ANSI as well as other 
SDOs to be identified in development of standards under the auspices of 
the Homeland Security Standards Panel. Other SDOs are establishing 
their own Homeland Security committees and engaging DHS directly in 
their planning processes. Four of the many important private sector 
groups are: the National Fire Protection Association (NFPA), American 
Society for Testing and Materials (ASTM), the Institute for Electrical 
and Electronics Engineers (IEEE), and The Infrastructure Security 
Partnership (TISP). Each of these groups draws heavily from private 
sector volunteers in establishing committees and standards writing 
groups.

d. The American National Standards Institute (ANSI) recently announced 
a charter for its Homeland Security Standards Panel. It cited ten 
priority standards needs identified by DHS. Is that list an accurate 
description of the Directorate's priorities in this area?
Answer S&T 3.d. The ANSI Homeland Security Standards Panel (HSSP) has 
held a number of meetings of an Interim Steering Committee with DHS S&T 
staff and one full meeting of the HSSP on June 9 and 10, 2003. The ten 
areas identified on the HSSP web site (posted in May 2003) are those 
where it was judged that the HSSP could provide useful coordination in 
the early stages of establishing writing groups. Progress is being made 
in these 10 areas. However, there are other areas, including standards 
needed for public health, which were not on the initial list because 
ANSI had yet to identify the SDOs who could contribute in the near 
term. In such cases, DHS is working directly with other SDOs.

<bullet> How will the Directorate be working with ANSI in the 
development of these and other standards?
Answer S&T 3.d. Bullet 1. Under the charter of the HSSP, ANSI does not 
develop standards. Rather they identify a member SDO (IEEE, for 
example) to develop a consensus standard for a given technical 
application. The SDO then coordinates directly with S&T Directorate in 
preparing a scope of work for the new standard. The writing group for 
the standard typically includes representatives from DHS, other federal 
state and local agencies as well as private sector users and 
manufacturers. The HSSP recognizes the need to involve representatives 
of emergency responders on these writing groups as appropriate. As a 
recent example of this process, the IEEE is preparing a suite of four 
standards for radiation detectors for emergency responders under an N42 
subcommittee. Writing group members came from the private sector, from 
state and local agencies as wells as the DOE national labs, the 
National Institute of Standards and Technology (NIST) and several other 
federal agencies. The standards will be published as ANSI standards in 
the United States. A similar activity is underway to develop standard 
methods for detection of anthrax spores working with the Association of 
Analytical Chemists (AOAC International).

<bullet> Are there any areas where an approach other than voluntary 
consensus will be needed? If so, what are they and how will you 
proceed?
Answer S&T 3.d. Bullet 2. Under the National Technology Transfer Act, 
DHS will use consensus standards to the full extent possible. 
Exceptions to the use of voluntary consensus standards will arise in 
development of Test and Evaluation (T&E) protocols for detectors used 
for CBRNE agents (chemical, biological, radiological, nuclear and 
explosives). The writing groups preparing these protocols will require 
access to sensitive information that cannot be shared with the usual 
volunteer committee. The S&T Directorate is supporting working groups 
now at the federal and national labs and appropriate levels of 
clearance are required to participate in these efforts. Standards for 
other protective measures may also contain sensitive information and 
participation on the writing groups will be limited as required by 
security considerations.

<bullet> Will any of these standards require the participation of 
international organizations, such as the International Standards 
Organization (ISO), the International Electrotechnical Commission 
(IEC), and the International Telecommunications Union Standardization 
Department (ITU)? If so, how will you work with them?
Answer S&T 3.d. Bullet 3. The answer is yes: all of these international 
standards organizations will be engaged. And, two others should be 
mentioned: the International Atomic Energy Agency (IAEA), and the 
International Committee on Information Technology Standards (INCITS). 
One of the near term goals of the ANSI HSSP is to plan a workshop on 
international standards for homeland security that will allow the 
national committees to coordinate with the appropriate international 
counterpart. Much of this coordination is already underway with ISO, 
IEC, IAEA and INCITS. The US private sector has a very strong 
multinational component, and manufacturers want to have common 
standards for their products for their US and overseas markets. With 
appropriate coordination we expect that many American National 
Standards will be adopted internationally by one of the umbrella 
organizations.

4. Funding for the S&T Directorate--The Directorate of Science and 
Technology requests $804 million for research and development (R&D) 
efforts for next fiscal year, representing a 43 percent increase over 
current year levels. However, even after accounting for such an 
increase, the Directorate's funding level for its science and 
technology programs is only two percent of the overall request for the 
Department of Homeland Security for fiscal year 2004. Other government 
agencies that engage in research programs, as well as private sector 
firms, try to budget upwards of ten percent or more of their total 
budget for their R&D work.

a. Is the Directorate's budget request for fiscal year 2004 adequate to 
address all of the S&T needs of the Department?
b. What, if any, key shortfalls exist (such as R&D work regarding cyber 
security)?
Answer S&T 4.a. The Science and Technology Directorate has reviewed its 
authorized fiscal year 2004 funding and its proposed fiscal year 2005 
funding and presently believes the current and proposed funding is 
adequate. However, we continue to assess our research and development 
plans. If we determine that the proposed amount of our funding is not 
sufficient to meet requirements, we would bring that information 
forward for consideration through the appropriate mechanisms. 
Additionally, in order to accurately determine what level of funding is 
needed for our research, development, testing and evaluation (RDT&E) 
activities, we will continue to work with other agencies with R&D 
responsibilities to identify requirements and gaps in funding. This 
coordinated approach will assist in making the right investments while 
preventing unnecessary and wasteful duplication.
Answer S&T 4.b. The Science and Technology Directorate is currently in 
the process of identifying and reviewing all relevant homeland security 
documentation to determine the requirements for research and 
development. If we identify needs that are not currently being 
addressed, we will bring that information forward through the 
appropriate mechanisms.

5. Time lines Please provide the subcommittee with time lines for 
specific steps the Directorate is taking to implement the following:
        a. The Homeland Security Advanced Research Projects Agency
        b. University-Based Centers for Homeland Security
        c. The Homeland Security Institute
        d. The Technology Clearinghouse and the Homeland Security 
        Science and Technology Advisory Committee
(The time lines should include expected dates of naming and hiring key 
personnel, program staffing, solicitations, decisions, awards, 
acquisitions and procurement, and other key milestones.)
Answer S&T 5.a. HSARPA was established in March of 2003 when the 
Department was stood up.
Answer S&T 5.b. In fiscal year 2004, S&T established the Department of 
Homeland Security's first University-based Center of Excellence, for 
Risk and Economic Analysis of Terrorism events. The Center, based at 
the University of Southern California, will aid in the protection of 
our nation's critical infrastructure and provide tools to improve 
operational planning for emergency response. A request for proposals 
has been issued for the next two Centers of Excellence, which will 
focus on Foreign Animal and Zoonotic Disease Defense and Post-Harvest 
Food Protection and Defense. These proposals were due on February 9, 
2004, and are currently under review.
Answer S&T 5.c. A formal solicitation was issued in December 2003 for 
the Homeland Security Institute, a legislative requirement for a 
federally funded research and development center to assist the 
Secretary and the Department in addressing important homeland security 
issues that require scientific, technical, and analytical expertise. 
Proposals were received in January 2004. Those proposals are currently 
being evaluated with an expected five-year award by early May 2004.
Answer S&T 5.d. Technology Clearinghouse: DHS has responsibility for 
the clearinghouse function. However, it has not been ``established'' as 
a separate entity within the S&T Directorate to date. Currently, the 
clearinghouse functions required in Section 313 of the establishing 
legislation are being satisfied in two primary ways.
    First, on June 4, 2003, DHS established a working relationship with 
the Technology Support Working Group by providing funding ($33M in 
fiscal year 2003 and $30M in fiscal year 2004) to ``solicit commercial-
off-the-shelf technologies for use by federal, state, and local 
entities, providing the technical clearing house function. . . '', and 
to upgrade its infrastructure to perform this extra work.
    Second, in fiscal year 2004, DHS will fund the Public Safety and 
Security Institute for Technology (PSITEC) ($10M in fiscal year 2004) 
to perform the clearinghouse function.
    PSITEC develops knowledge-based services that provide access to, 
and distribution of, information and services relevant to public safety 
technologies. PSITEC will serve as the clearinghouse--a single point of 
entry--for the public safety and first responder community, providing 
access to relevant information on technologies and products, test and 
evaluation, as well as engaging in projects of interest and importance 
to them.
    For the longer term, DHS is considering a range of possible 
solutions for carrying out the ``centralized Federal clearinghouse'' 
function. Some appear more cost effective than establishment of a 
separate, stand-alone clearinghouse. Until decisions can be made based 
on experience, these two methods together with other activities such as 
information provided on the public website, issuing Federal Funding 
Opportunities for technologies and research (with explicit information 
on research topics and submission procedures), and writing standards to 
evaluate technologies, constitute the clearinghouse function.
    The clearinghouse function as described above resides in the S&T 
Directorate of DHS.
    Pending the establishment of a single centralized Federal 
clearinghouse, the Points of Contact information listed on the public 
webpage (as described above) should be used.
    HS S&T Advisory Committee: S&T has now established the Homeland 
Security Science and Technology Advisory Committee, a legislative 
requirement for an advisory committee to be a source of independent, 
scientific and technical planning advice for the Under Secretary for 
Science and Technology. The committee will hold its initial meeting in 
February 2004.

6. Outsourcing IT work--Has the Department, and the S&T Directorate 
specifically, investigated any national security considerations to the 
outsourcing of IT work by American firms to foreign companies and the 
potential impact to the security of U.S. critical infrastructure that 
is owned and operated by the American firms? If so, what are the 
concerns of the Department?
Answer S&T 6. The S&T Directorate has not specifically investigated any 
national security concerns related to the outsourcing of IT work by 
American firms to foreign companies and the potential impacts to the 
security of U.S. critical infrastructure that is owned and operated by 
the American firms.

7. First Responder

a. What are the major science and technology issues that the Department 
of Homeland Security has identified to support communications needs for 
first responders, evacuation centers, emergency command centers, and 
other critical rescue operations at the scene of a disaster and at 
nearby hospitals, and other components of the emergency response 
network? What actions is the Science and Technology Directorate taking 
to address these needs?
Answer S&T 7.a. To enhance public safety communications and 
interoperability, the Department of Homeland Security's (DHS) Science 
and Technology Directorate (S&T), through the efforts of the SAFECOM 
Program, is addressing the key public safety communication needs for 
technology solutions, technology assistance and outreach, standards, 
federal coordination, and policy direction.

b. Describe the goals and objectives of Project SAFECOM and the nature 
and extent of the Department's involvement in it. What type of system 
architecture does the Department envision will be needed for a first 
responder communications system?
Answer S&T 7.b. Several government programs have done a good deal of 
work on this issue; unfortunately, much of it has been disconnected, 
fragmented, and, at times, at odds with larger goals. In an effort to 
coordinate the various Federal initiatives, SAFECOM was established by 
the Office of Management and Budget (OMB) and approved by the 
President's Management Council (PMC) as a high priority electronic 
government (E-gov) initiative. The mission of SAFECOM is to enable 
public safety nationwide (across local, tribal, State and Federal 
organizations) to improve public safety response through more effective 
and efficient interoperable communications. By definition, 
communications interoperability refers to the ability of public safety 
agencies to talk across disciplines and jurisdictions via radio 
communications systems--to exchange voice, data and/or video with one 
another on demand, in real time, when needed. To this end, SAFECOM 
recognizes that before interoperability can occur, reliable, mission-
critical, agency-specific communications are first necessary for public 
safety agencies. SAFECOM subsequently is addressing the intricately 
related issues of public safety communications and communications 
interoperability.
    By leveraging the knowledge and expertise of the public safety 
community and through examining other programs and studies addressing 
this same issue, SAFECOM has saved time and money in identifying key 
issues, needs, and existing efforts. The efforts of the Federal 
Emergency Management Agency (FEMA) to identify these leaders of the 
public safety community, engage them in a strategic dialogue, and 
establish the governance structure for SAFECOM have enabled the program 
to efficiently grasp the depth of issues associated with public safety 
communications. However, it became clear that in order to address many 
of the problems, a technical capacity would be necessary to deal with 
issues such as spectrum, standards, and the development and 
incorporation of emerging communications technologies. As DHS stood up, 
S&T became an obvious home for SAFECOM. At S&T, SAFECOM is building off 
of the work of FEMA and developing both short- and long-term strategies 
to address immediate public safety communication needs while creating a 
migration strategy toward more spectrally efficient systems.
    SAFECOM's long-term vision of the public safety communications 
architecture is a national ``system of systems'' that adapts to an 
incident, as illustrated below.

[GRAPHIC] [TIFF OMITTED] T7119.001


c. Wireless Communications

        <bullet> What science and technology requirements have you 
        identified with respect to network architecture and security, 
        equipment and software, frequencies used for wireless 
        communications, system redundancy and back-up, participation of 
        the appropriate federal agencies, authentication of 
        participants (credentialing), the use of developing 
        technologies such as artificial intelligence and database 
        mining, and standards?
Answer S&T 7.c. Bullet 1. SAFECOM is currently supporting the 
development of a comprehensive statement of requirements for public 
safety communications. This SoR will provide SAFECOM with an assessment 
of functional needs that public safety has in order to communicate, 
both via voice and data. Additionally, through its coordination with 
projects such as Disaster Management and the Capital Wireless 
Integrated Network (CapWIN), SAFECOM is addressing issues related to: 
how best to structure wireless networks so they interface well with 
existing wired architectures; identification of what equipment is 
needed, where more capacity (including redundancy) is needed; how to 
link all participating Federal, State, and local agencies; and the 
identification of ways in which to authenticate network users and apply 
encryption. Because the wireless world includes increasing use of 
technologies such as voice over IP and remote database management and 
data mining, SAFECOM will continue to address standards to ensure 
integration of public safety wired and wireless solutions. No 
potentially useful technology is being overlooked or will be excluded 
from consideration, either as a commercial off the shelf (COTS) 
solution, or for R&D.
        <bullet> Are there any efforts underway to develop an override 
        capacity for the cell phones of key emergency personnel and 
        local officials to ensure that they can communicate with one 
        another in the event of an emergency? Is the S&T Directorate 
        involved in the Wireless Priority Program? If so, how?
Answer S&T 7.c. Bullet 2. The National Communications System (NCS), 
which is part of DHS, was instructed in January 1995 to work with 
industry and Government to implement a wireless priority service for 
national security and emergency preparedness workers. To this end, the 
Priority Services (PS) group of NCS conducts technical analyses and 
research and development focused on identifying wireless and Internet 
priority service solutions to overcome blockage in cellular systems 
when availability is most critical. SAFECOM has met with NCS 
representatives to discuss areas of coordination, and more importantly, 
to begin examining the relationship between priority cellular services 
and public safety owned land mobile radio systems (LMRS). Understanding 
the intricacies of relating cellular services to LMRS is important 
since LMRS provides first responders and broader public safety 
community with their mission-critical communications. As wide spread as 
cellular services are, the infrastructure is yet not adequate to 
support crucial public safety communication needs. The National Task 
Force on Interoperability report released in February 2003 offers an 
explanation as to why public safety cannot currently rely on commercial 
services for emergency communications.
    Although public safety personnel regularly use cellular phones, 
personal digital assistants (PDAs), and other commercial wireless 
devices and services, these devices are currently not well suited for 
public safety mission-critical communications during critical 
incidents. Public safety officials cannot depend on commercial systems 
that can be overloaded and unavailable. Experience has shown such 
systems are often the most unreliable during critical incidents when 
public demand overwhelms the system. Public safety officials have 
unique and demanding communications requirements. Optimal public safety 
radio communication systems require
        <bullet> Dedicated channels and priority access that is 
        available at all times to handle unexpected emergencies.
        <bullet> Reliable one-to-many broadcast capability, a feature 
        not generally available in cellular systems.
        <bullet> Highly reliable and redundant networks that are 
        engineered and maintained to withstand natural disasters and 
        other emergencies.
        <bullet> The best possible coverage within a given geographic 
        area, with a minimum of dead zones.
        <bullet> And, unique equipment designed for quick response in 
        emergency situations--dialing, waiting for call connection, and 
        busy signals are unacceptable during critical events when 
        seconds can mean the difference between life and death.\1\
---------------------------------------------------------------------------
    \1\ ``Why Can''t We Talk? Working Together to Bridge the 
Communications Gap To Save Lives: A Guide for Public Officials,'' The 
National Task Force on Interoperability, February 2003, page 11.
---------------------------------------------------------------------------
    SAFECOM looks forward to continued coordination and work with NCS 
with respect to providing input on the communication issues and needs 
of public safety.
d. How will the S&T Directorate's work regarding the testing and 
evaluation of first responder equipment relate to similar work to be 
carried out by the Office of Domestic Preparedness? Does the Department 
plan on continuing this division of labor between the two Department of 
Homeland Security organizations?
Answer S&T 7.d. The primary focus of the ODP program has been on 
Personal Protective Equipment (PPE) for emergency responders. The S&T 
Directorate is responsible for the science and technology and testing 
and evaluation (T&E) of all equipment, products, services and systems 
needed for a national program in homeland security. The T&E activity 
needs to be performed as one component of equipment development. This 
includes identification of the need, development of performance 
specifications, testing and evaluation by accredited testing 
laboratories, and certification. The DHS system to certify equipment 
for emergency responders should take full advantage of this 
infrastructure for measurements, standards and certification being 
developed by the S&T Directorate. The S&T Directorate has in fiscal 
year 2003 launched major efforts to develop detector standards for 
emergency responders for radiological/nuclear and biological agents. 
The S&T Directorate is coordinating on development of S&T standards 
with NIOSH, NIST/Office of Law Enforcement Standards (OLES) and SBCCOM 
(Army) personnel who are the performers for the ODP sponsored work. The 
technical direction for this work in fiscal year 2004 should reside in 
the S&T Directorate to ensure that consistent and complete standards 
are developed for homeland security applications for emergency 
responders.

e. What types of standards will be developed for state and local first 
responders? What types and categories of equipment will standards be 
developed for? When will such standards be developed? How will the 
Department communicate its decisions to state and local governments?
Answer S&T 7.e. There are several ways to categorize standards for 
emergency responders. The needs that have been identified to date can 
be put into categories such as CBRNE threat agents used in three phases 
of a terrorist attack: detect/prevent, response/recovery, and 
mitigation/decontamination. State and local first responders are most 
interested in the instruments and detectors used in the early stages. 
Other cross cutting projects that require standards include: 
communications hardware and software, certification (of products, 
service and personnel), personal protective equipment (PPE), and 
training. Working groups are being established to look at standards 
requirements in each of these areas. The radiation detector standards, 
developed on a fast track, will be available in 2003. The standards for 
immunoassay kits for anthrax detection will be available in 2004. The 
DHS Office for State and Local will be apprised on the state of 
development of standards and will serve as a conduit to the state and 
local emergency planners. In addition, almost all the standards writing 
groups will have participants for national groups that coordinate at 
the state and local level.

f. What steps are being taken by the S&T Directorate to upgrade 
biohazard detection technology so that first responders and health care 
workers can know the threat they face? Please outline any specific 
actions that have been initiated by the Department and when they will 
be completed.
Answer S&T 7.f. The S&T Directorate has partnered with the Office of 
the Secretary of Defense (DOD) to fund AOAC International to develop 
reference methods for detection of anthrax using immunoassay kits. 
These kits are widely used by emergency responders for qualitative 
testing of suspicious powders and at present there is no guidance to 
purchasing agents for first responders and health care workers on the 
performance specifications for these detectors. The contract with AOAC 
called for establishment of a Task Force to identify a reference 
method, a reference laboratory and a protocol for testing commercial 
products to an agreed standard. This Task Force is co-chaired by 
scientists from the Office of Science and Technology Policy (OSTP) and 
the DHS S&T Directorate, and includes representatives from DOD, CDC, 
USDA, FDA as well as private sector manufacturers and representatives 
from state and local user groups. After two meetings this summer the 
Task Force has recommended a draft protocol and authorized tests by the 
reference laboratory at the Army's Dugway Proving Grounds in Utah. Upon 
completion of initial testing by the reference laboratory, a round of 
multilab measurements will take place in Winter 2003-2004 and 
validation of the commercial kits is expected in May 2004. First 
responders and health care workers will then have the assurance that 
these immunoassay kits can be used as one component of their detection 
and prevention strategy.

8. Intelligence Input for S&T--What types of intelligence is the S&T 
Directorate regularly receiving on threats to the homeland, which can 
inform priorities for research and development work? What relationships 
has the S&T Directorate established with the Information Analysis and 
Infrastructure Protection Directorate and other elements of the 
Intelligence Community?
Answer S&T 8. The S&T Directorate is receiving current threat and 
vulnerability information through the Information Analysis and 
Infrastructure Protection Directorate. Members of our staff engage in 
intelligence community activities related to science and technology, 
and a number of our staff participate in interagency working groups 
that are addressing the various threats. Staff from our Threat and 
Vulnerability, Testing and Assessment portfolio and the Critical 
Infrastructure Protection portfolio regularly interact with staff from 
the IAIP Directorate. In addition, we have established an Office of 
Comparative Studies to provide threat and vulnerability assessments 
with the aid of IAIP.

9. Biodefense

a. In your statement before the Subcommittee, you indicate that $365 
million is requested for fiscal year 04 for biological countermeasures, 
specifically for the National Biodefense Analysis and Countermeasures 
Center (NBACC) and for a Biological Warning and Incident 
Characterization System (BWIC). Please provide the Subcommittee with a 
breakdown of fiscal year 03 funding and the fiscal year 04 request for 
those two programs and other activities in this area of emphasis, 
including funding you expect to administer through HSARPA.
Answer S&T 9.a.
Our fiscal year 2004 Appropriation was $286.5M of which $88M is 
directed to NBACC construction. Fiscal year 2004 execution plans in the 
above areas allocated as follows:
        NBACC--
        R&D program--$60M
        Construction--$88M
        Biological Warning and Incident Characterization Integration- 
        $4.1M* *includes use of authorized carryover from fiscal year 
        2003
Fiscal year 2005 President's Budget is allocated as follows:
        NBACC--
        R&D program--$65M
        Construction--$35M
        Biological Warning and Incident Characterization Integration - 
        $9M

b. How do the bioterrorism R&D activities in the Directorate differ 
from the Department of Health and Human Services and the Department of 
Defense efforts? What specific mechanisms is the Directorate using to 
coordinate bioterrorism R&D with these other agencies (including the 
collaboration required by Sec. 304 of the Homeland Security Act) and 
with the Environmental Protection Agency?
Answer S&T 9.b. The Directorate's bioterrorism R&D activities focus on 
the development of domestic biological countermeasures for deterrence, 
detection, and mitigation of potential biological attacks on the 
nations population, infrastructure and agriculture. Priorities are 
focused on countermeasures against catastrophic events including large 
scale anthrax or small pox attacks, and a foot and mouth disease in 
cattle. The Department of Defense bioterrorism R&D efforts focus on 
force protection and readiness with a concept of operations that 
support detection thresholds and decontamination not directly 
applicable to civilian requirements. Military doctrine views chemical/
biological threat more as an area denial weapon that mobility can 
counter. This does not apply to the domestic situation and potential 
scenarios where mobility is not a major factor for large populations. 
The Department of Health and Human Services is focused more on health 
and medical applications such as clinical diagnostics, therapeutics, 
and vaccines. For example, fundamental research includes the study of 
pathogencity mechanisms and host response associated with a specific 
agent. The Environmental Protection Agency has programs in water 
security and decontamination. The Directorate's Biological & Chemical 
Countermeasures Portfolio works closely with the DOD Joint Program 
Office for Chemical and Biological Defense, the Defense Threat 
Reduction Agency, Joint Requirements Office and the Office of the 
Assistant to the Secretary of Defense for Nuclear, Chemical, and 
Biological Defense Programs to leverage activities and minimize 
overlapping efforts. For example, a program is underway to develop a 
national template for a joint military and civilian consequence 
management response following urban detection of an aerosolized 
biothreat agent. The Directorate also has liaisons that work with DHHS 
CDC and NIH to identify areas of common interest to maximize resource 
allocation. The Directorate identifies NIH research deliverables that 
will apply to assay development, bioforensics, and detection 
technologies. The Directorate also works closely with the EPA to 
understand how the water security and restoration efforts contribute to 
the overall national biodefense system.

c. Please describe how the National Bio-Weapons Defense Analysis Center 
is being established.
        (1.) Is this entity the same as the National Biodefense 
        Analysis and Countermeasures Center described in the 
        Department's fiscal year 2004 budget request?
        (2.) What will be the role of other agencies in administering 
        this Center?
        (3.) Who will set its priorities?
        (4.) Please provide a detailed description of BWIC, including:
        <bullet> How you decided that this system should be a priority 
        compared to investment in other needs such as cybersecurity or 
        radiological countermeasures?
        <bullet> How you decided what its components should be?
        <bullet> What issues and hurdles you need to overcome to 
        develop and deploy this system and make it ``seamless,'' and 
        how you intend to overcome them?
        <bullet> How you will develop and deploy the system, including 
        how you will involve other government agencies, industry, and 
        academic research centers?
Answer S&T 9.c. The fully integrated, biological warning and incident 
characterization (BWIC) system enables timely warning and response in 
the event of a biological attack. The system combines information from 
Biosurveillance and environmental monitoring systems with key modeling 
tools and databases to asses the extent of the attack, extent of area 
contaminated and exposed and affected population. BWIC will provide 
decision makers with a better understanding of the scale of the event 
and allow rapid formulation and implementation of appropriate 
responses, including phasing of critical resources. Through discussions 
with the Homeland Security Council, Office of the Vice President, and 
Office of Science and Technology Policy, it was established that the 
BWIC system will be instrumental in the success of an overall national 
biodefense posture and thus, a high priority for the Directorate's R&D 
efforts. Because there are many agency participants, some of which have 
programs underway that will need to provide data for BWIC, coordination 
is essential for success. Through the development of an interagency 
steering committee, which will include an avenue for local user input, 
each respective agency will develop the path forward and timeline 
together to ensure the resulting BWIC system will meet the consensus 
requirements. The system will be systematically linked with existing 
biomonitoring networks (BioWatch, USPS) and CDC's biosurveillance 
system. BWIC will be compatible with CEC, local, regional, and national 
emergency operation centers, and the Homeland Security Operation Center 
and incorporate plume model/hazard and epidemiological prediction codes 
for use as a public health response tool. Federal, State, and local 
government agencies and, through appropriate extramural R&D competitive 
mechanisms, industry and academia will be involved in many of the 
critical steps for successful BWIC development and deployment.

10. Cybersecurity R&D

a. How is the Directorate managing R&D with respect to cybersecurity?
Answer S&T 10.a. The Science and Technology Directorate's Cybersecurity 
Portfolio Manager sets long-term strategies and the planning and 
budgeting to accomplish those strategies. Work is conducted through 
either the Homeland Security Advanced Research Projects Agency or the 
Office of Research and Development. This entire process is guided by 
the needs and requirements of our customers.

b. Does the S&T Directorate intend to support a single official to 
oversee its cyber security programs? If so, where, organizationally, 
will it be located, and what principal duties will be assigned to it? 
How will it relate to cyber security work within the Information 
Analysis and Infrastructure Protection Directorate? In light of the 
fact that the Critical Infrastructure Board no longer exists, is the 
S&T Directorate adequately resourced consistent with its new cyber 
security responsibilities?
Answer S&T 10.b. The Science and Technology Directorate designates a 
single manager to be responsible for the cyber security work conducted 
by the S&T Directorate. This individual is a member of the management 
team of the Threat and Vulnerability, Testing and Assessment Portfolio. 
The work the S&T Directorate conducts in cyber security is closely 
coordinated with the Information Analysis and Infrastructure Protection 
Directorate so that the work is complimentary, not duplicative. The S&T 
Directorate is adequately resourced to conduct the cyber security work 
for which it is responsible.

c. Your statement lists cybersecurity as one activity in the Threat and 
Vulnerability, Testing and Assessment portfolio, for which the total 
fiscal year 04 budget request is $90 million. What specific kinds of 
R&D activities are being undertaken in cybersecurity, and what are the 
current and requested levels of funding for them? How were those 
priorities identified?
Answer S&T 10.c. The Cyber Security Funding Portfolio is funded at a 
level of $18M in fiscal year 2004, and has a request of $18M for fiscal 
year 2005. The Portfolio is currently divided into six programs. Five 
of these programs have budgets ranging from $1M to almost $5M. These 
programs focus on (1) next-generation cyber security technologies, (2) 
cyber security infrastructure technology (the application of more 
generic technologies, such as modeling, simulation, visualization, to 
support and facilitate the development, deployment or management of 
cyber security technologies), (3) small (high impact, low cost) 
development projects, (4) technical research studies, and (5) 
cooperative communities, which involves pilot projects, fostering 
public-private partnerships, community building and workshops. The 
sixth program is the Small Business Innovation Research (SBIR) 
component of the S&T budget, for which $450k (2.5% of the portfolio's 
funding) has been set aside.
In addition to the programs described above, a contract has been 
awarded for technical support for the Cyber Security Research and 
Development Center. This ``virtual'' Center is the umbrella under which 
DHS-funded cyber security R&D activities will be performed. The 
technical support contract for the center is focused on supporting S&T 
in executing its cyber security R&D programs, and on supporting the 
Department's emphasis on public-private partnerships through 
interactions with university and industry research groups, cyber 
security product and service vendors, and the venture capital 
community.
    Some of the priorities that are currently being addressed in the 
Cyber Security R&D Portfolio include (but are not limited to):
<bullet> Infrastructural issues associated with securing protocols that 
underlie the Internet--work focused on Secure Domain Name System 
(DNSSEC) and Secure Border Gateway Protocol (Secure BGP);
<bullet> Development of large scale data sets to facilitate cyber 
security testing and to enable the development of the kinds of 
evaluations that can lead to metrics for cyber security;
<bullet> Co-funding with the National Science Foundation of two large 
multi-university collaborative efforts: a large scale testbed and a 
cyber security testing framework;
<bullet> Critical infrastructure-specific cyber security needs, 
including coordination of R&D on supervisory control and data 
acquisition (SCADA) systems with DHS's Critical Infrastructure 
Protection Portfolio, as well as collaboration with the Department of 
Treasury to focus on Banking and Finance Sector needs;
<bullet> Research focused on DHS internal customer needs, such as 
Internet Priority Services.
These priorities were derived from a wide variety of sources. These 
include:
<bullet> Written policy documents (such as the National Strategy to 
Secure Cyberspace);
<bullet> Cyber Security R&D requirements provided by customers internal 
to the DHS Information Analysis and Infrastructure Protection 
Directorate (the National Cyber Security Division and the National 
Communications System);
<bullet> Various cyber security research needs documents developed by 
the government, critical infrastructure sectors, and others;
<bullet> Discussions and coordination with members of the government 
research community in various interagency fora, regarding ongoing 
research, research needs, vulnerabilities, and threats;
<bullet> Discussions with the private sector, including both cyber 
security technology developer and end user perspectives.
. . . All considered in the overall context of the Department of 
Homeland Security Science and Technology Directorate mission.

d. You have announced the establishment this year of a Cybersecurity 
R&D Center.
        <bullet> Where will that center be established and what funding 
        will it receive?)
Answer S&T 10.d. On December 13, 2003, a Request for Proposals and 
Statement of Work for technical and administrative support for the 
virtual Cyber R&D Center was published to seven capable performers 
listed on the GSA schedule. The deadline for response was December 15, 
2003, and two responsive proposals were received. Evaluation of those 
proposals was completed by January 9, 2004; a technical and 
administrative support contract was awarded in February 2, 2004.
<bullet> How will it interact with IAIP (in particular the new 
cybersecurity office)?
Answer S&T 10.d The National Cyber Security Division within IAIP will 
provide a staff member to work with the S&T portfolio and program 
manager at a deputy director level.

11. Working with the Private Sector

a. Review of Vendor Solicitations: What process is the Department is 
using to identify useful homeland security products and technologies 
and reject those that are not useful or not likely to work? Once a 
product or technology has been identified as useful, what is the next 
step in the development or procurement process? How is all of this 
information being communicated to state and local governments?
Answer S&T 11.a. Two formal processes used to identify useful products 
and technologies for DHS are the formal federal funding opportunities 
publicly announced through the FEDBIZOPPS, and the unsolicited RDT&E 
proposal process.
    Formal funding announcements, such as Requests For Proposals, Broad 
Agency Announcements, Research Announcements, etc., are used to procure 
goods, products, and services by DHS as well as to solicit ideas and 
technologies for further development. The announcements are posted on 
the DHS website (http://www.dhs.gov,) and the FEDBIZOPPS website 
(http://www.fedbizopps.gov). DHS also published a forecast of its 
expected fiscal year 2004 contracting opportunities over $100K on its 
website (See ``Working with DHS''). While this forecast was prepared 
for small businesses, the information may be used by anyone. Usually, 
any business, academic group, or institution may respond to these 
announcements. Unless specifically justified and approved for sole 
source, or set aside for small business, the procurements are 
competitive. All responses for S&T ideas and concepts are screened by 
experts using a set of published criteria and those with merit are 
selected for funding.
    The unsolicited RDT&E proposal process is run by the S&T 
Directorate and handles all unsolicited ideas, comments and suggestions 
received from the public to develop a new technology. Each unsolicited 
suggestion is read and assigned to one of fourteen categories for 
further action. These actions range from referral to another more 
appropriate agency, or if merited, full technical evaluation of the 
idea by government experts in the field. No idea or suggestion is 
rejected without deliberate consideration. If the unsolicited 
suggestion is found to be technically and programmatically sound, it 
then competes for funding priority with established programs. 
Unsolicited proposals must be scientifically valid, contain enough data 
to evaluate properly, and become higher priority than existing, funded 
programs.
    If either of these methods develop a clear technology winner, DHS 
S&T has the capacity to carry it through prototype development to 
commercial production.
    DHS works with state and local professional responder organizations 
in standards setting activities to: identify their needs, establish 
minimum equipment performance levels, and standardize equipment suites. 
Two DHS partners in this effort are the Interagency Board for Equipment 
Standardization and Interoperability and the Emergency Response 
Technology Program Advisory Board. Standards setting activities 
determine the criteria and test protocols that describe and evaluate 
required minimum levels of performance (such as for equipment, models, 
data, systems, and personnel) or acceptability (such as for 
environmental contaminants). The activities apply measurement science 
to develop and implement consistent, verifiable standards and test 
methods that measure effectiveness in terms of: basic functionality, 
appropriateness and adequacy for the task, interoperability, 
efficiency, and sustainability. Technologies and equipment that are 
certified by DHS have met the stipulated standards. Whether or not a 
product is certified, performance information will be available to 
state and local responders when making procurement decisions.
    In addition, DHS S&T is funding the Public Safety and Security 
Institute for Technology (PSITEC) ($10M in fiscal year 2004) to perform 
the technology clearinghouse function. PSITEC develops knowledge-based 
services that provide access to, and distribution of, information and 
services relevant to public safety technologies. PSITEC will serve as 
the clearinghouse--a single point of entry--for the public safety and 
first responder community, providing access to relevant information on 
technologies and products, test and evaluation, as well as engaging in 
projects of interest and importance to them.

b. R&D Proposals by the Private Sector: In addition to the one Broad 
Area Announcement (BAA) that has been released regarding radiation 
detector technologies, what others are planned for release in the near 
future? What types of R&D proposals will the Department concentrate on 
initially?
Answer S&T 11.b The first Broad Agency Announcement was issued on May 
14, 2003 by the Technology Support Working Group (TSWG) on behalf of 
DHS. It closed on June 13, 2003. This BAA solicited ideas, concepts and 
technologies for fifty research needs in the areas of Chemical, 
Biological, Radiological and Nuclear Countermeasures, Explosives 
Detection, Improvised Device Defeat, Infrastructure Protection, 
Investigative Support and Forensics, Personnel Protection, and Physical 
Security. TSWG received 3,344 responses to this call. From these 
responses, TSWG requested 223 proposers to submit White Papers. Based 
on the evaluation of these White Papers, TSWG requested and received 47 
full proposals. TSWG has completed these evaluations and is now in the 
contracts negotiation process. DHS has provided an initial $33M in 
fiscal year 2003 and an additional $30M in fiscal year 2004 to fund the 
most meritorious of these developments.
    On 22 September, 2003, HSARPA issued its first Research 
Announcement (RA) for Detection Systems for Biological and Chemical 
Countermeasures. Its purpose is to develop, field-test, and transition 
to commercial production the next generation of biological and chemical 
detectors. This RA addresses two areas in biological countermeasures 
and three areas in chemical countermeasures. In response to the initial 
request, 518 white papers were received. One hundred twenty six 
proposals were received from all sources. Forty of those proposals 
entered negotiations for award and all are expected to complete 
satisfactorily.
    The Homeland Security Advanced Research Projects Agency (HSARPA) 
issued its first Small Business Innovation Research (SBIR) Program 
Solicitation on November 13, 2003. The purpose of this solicitation is 
to invite small businesses to submit innovative research proposals that 
address eight high priority DHS requirements. There were 374 responses 
received in the eight categories and following evaluation, 66 will 
enter negotiations for Phase I contract award this month.
    On 2 February, 2004 HSARPA published its second Broad Agency 
Announcement, BAA04-02, Detection Systems for Radiological and Nuclear 
Countermeasures. The solicitation contains six separate Technical Topic 
Areas. For each Technical Topic Area, respondents may submit proposals 
for (a.) near-term improvements incapability with rapid prototype 
development, (b.) development of next generation systems with 
significant improvements in performance, or (c.) development of 
enabling technologies to support next generation systems.
    Additional BAAs will be issued by HSARPA in the areas of 
Radiological and Nuclear Architecture, Explosives Detection, Borders 
and Transportation Security, and Threat Vulnerability and Threat 
Assessment.

c. SAFETY Act: The SAFETY Act, in Section 861 of the Homeland Security 
Act, was established to provide contractors with the Department of 
Homeland Security with liability protection so they could risk placing 
homeland security and counter-terrorism products on the market that 
result in liability exposure in excess of the available insurance 
coverage. In order to gain the protections of the SAFETY Act, the 
Secretary must designate that a technology qualifies for protection 
pursuant to regulations to be issued by the Secretary.
<bullet> When does the Secretary intend to issue proposed and final 
regulations?
<bullet> Has the procurement of homeland security products been 
inhibited in any way by a lack of such regulations?
<bullet> Have any products been placed on the Approved Product List for 
Homeland Security (per section 863(d)(2) of the Homeland Security Act)?
Answer S&T 11.c. The Interim Final Rule (6 CFR Part 25) to support the 
Safety Act completed a second public comment period on Dec. 15, 2003. 
Eighteen entities made comments, with numerous comments being submitted 
by each entity. Comments are presently under review at DHS. A number of 
modifications were made to the Interim Rule after assessment of the 
substantive comments provided by 49 entities. The Department will 
address the most recent set of comments and submit the Final Rule to 
OMB for review in March 2004.
    Applications for sellers of technologies potentially covered by the 
Act will be available on Sept. 1, 2003. In order to implement the Act 
in a rigorous, defensible, and impartial manner, extensive efforts have 
been underway to develop a process that will govern the evaluation of 
applications against the complex criteria mandated in the Act. There 
has also been a concerted effort to implement an electronically based 
application, evaluation, and tracking system that will support 
consistent and efficient processing of what are expected to be numerous 
applications. A series of 5 seminars are being held across the country 
in order to provide information regarding the application and 
evaluation process. The intent is to assist potential applicants in 
first determining whether or not it is in their best interest to use 
resources to pursue SAFETY Act designation and/or certification and 
also to help them understand how to move through the process.
    No products have yet been designated as Qualified Anti-Terrorism 
Technologies, nor have any yet been certified under the SAFETY Act.

12. Coordination

a. What progress has been made by the Department to date in 
coordinating the Department's science and technology agenda with other 
federal agencies to reduce duplication and identify unmet needs, 
consistent with the Homeland Security Act?
Answer S&T 12.a. S&T recognizes that many organizations are 
contributing to the science and technology base needed to enhance the 
nation's capabilities to thwart terrorist acts and to fully support the 
conventional missions of the operational components of the Department.
    We have begun our coordination process by evaluating and producing 
a report on the research, development, test, and evaluation work being 
conducted within the Department of Homeland Security that was not 
already under the direct cognizance of the Science and Technology 
Directorate. Where it is appropriate, the Science and Technology 
Directorate will absorb these R&D functions. In other cases, the 
Science and Technology Directorate will provide appropriate input, 
guidance, and oversight of these R&D programs.
    We are now initiating the effort needed to coordinate homeland 
security research and development across the entire United States 
Government, including the Departments of Agriculture, Commerce, 
Defense, Energy, Justice, Health and Human Services, State, and 
Veteran's Affairs; within the National Science Foundation, the 
Environmental Protection Agency and other Federal Agencies; and by 
members of the Intelligence Community.
    Several interagency working groups already exist that are 
addressing issues important to homeland security. The Science and 
Technology Directorate has been, and continues to be, an active 
participant in these working groups, and in most cases has taken a 
leadership role. These fora foster an active exchange of information 
and assist each participating agency in identifying related needs and 
requirements, conducting research and development of mutual benefit, 
and avoiding duplication of effort.
    We also continue to have discussions at multiple levels of 
management with Federal Departments and Agencies, as well as the Office 
of Management and Budget, the Office of Science and Technology Policy, 
and the Homeland Security Council to ensure that the strongest possible 
links are made and the best possible coordination occurs between our 
Department and those who are conducting sector-specific research. By 
the autumn of 2004, all Department of Homeland Security research and 
development programs will be consolidated and all United States 
Government research and development relevant to fulfilling the 
Department's mission will have been identified and coordinated as 
appropriate. It is important to note that this identification and 
relevant coordination does not imply the Department of Homeland 
Security should have the responsibility and authority for these 
programs within other Federal agencies; it does recognize that science 
and technology advances can have many applications, including homeland 
security.

b. How does the Directorate interact with the Homeland Security 
Council, the President's Office of Science and Technology Policy, the 
National Science and Technology Council, and TSWG?
Answer S&T 12.b. Our Directorate works hard to ensure that we interact 
productively with the Homeland Security Council (HSC), the Office of 
Science and Technology Policy (OSTP), the National Science and 
Technology Council (NSTC) and TSWG. We are working with the Office of 
Management and Budget, the Office of Science and Technology Policy, and 
the Homeland Security Council to ensure that the strongest possible 
links are made and the best possible coordination occurs between our 
Department and those who are conducting sector-specific research.Sec. 
    Our high explosives scientists are working with the Technical 
Support Working Group to evaluate commercial off-the-shelf systems with 
capabilities against suicide bombers, and the Director of the Homeland 
Security Advanced Research Projects Agency is a member of the TSWG 
Executive Committee. In addition, our staff are in frequent contact 
with the Office of Science and Technology Policy on a range of issues, 
and several are members and co-chairs of committees and subcommittees 
of the National Science and Technology Council.

c. For each of the portfolios or activities you describe in your 
statement, please indicate what kinds of interactions and collaboration 
you anticipate having with other Directorates within DHS, with other 
federal agencies, and with stakeholders/ providers in academia and the 
private sector, and how you will coordinate activities and avoid 
wasteful duplication?
Answer S&T 12.c The S&T Directorate has put a strong emphasis on 
interacting with other Federal departments and agencies and with the 
other components of the Department of Homeland Security. Knowledge of 
other science and technology programs and their results, appropriate 
collaboration between agencies, coordination of relevant programmatic 
activities, and information sharing are essential for us to best meet 
our mission requirements. Interactions are occurring between our 
cybersecurity personnel and those at the National Science Foundation 
and the National Institute of Standards and Technology, who dialog 
frequently and have already established collaborative and coordinated 
programs to ensure no duplication of effort. Our biological and 
chemical countermeasures staff have partnered with DOD's Defense Threat 
Reduction Agency (DTRA) to plan and execute the BioNet program and 
roadmap the biological countermeasures R&D programs in both agencies to 
understand capabilities and shortfalls. They work with the National 
Science Foundation on pathogen sequencing. The BioWatch program, 
although led by the Science and Technology Directorate, was 
accomplished through collaboration with personnel from the Department 
of Energy's National Laboratories, contractors, the Environmental 
Protection Agency, and the Center for Disease Control. We work with 
DOD's Office of Homeland Defense to ensure the effective transfer to 
the Department of relevant DOD technologies.
    Our high explosives scientists are working with the interagency 
Technical Support Working Group, managed by the Department of State, to 
evaluate commercial off-the-shelf systems with capabilities against 
suicide bombers. The Director of the Homeland Security Advanced 
Research Projects Agency is a member of the TSWG Executive Committee. 
Our staff are in frequent contact with the Office of Science and 
Technology Policy on a range of issues, and several are members and co-
chairs of committees and subcommittees of the National Science and 
Technology Council. Our Office of Research and Development works 
closely with the Department of Agriculture to ensure that the Plum 
Island Animal Disease Center facility is operating smoothly and fully 
meeting its mission. The Office of Research and Development also 
interfaces with the Department of Energy to keep the Office of Science, 
as well as the National Nuclear Security Administration, apprised of 
our long-term homeland security requirements.
    In addition, the S&T Directorate has established formal liaison 
with the Border and Transportation Directorate, the Emergency 
Preparedness and Response Directorate, the Information Assurance and 
Infrastructure Protection Directorate, the United States Coast Guard, 
and the United States Secret Service. Some of these functions are 
fulfilled by staff from the other internal Departmental organization 
being matrixed to the S&T Directorate and some by S&T staff being 
responsible to coordinate with the other Departmental organization; in 
both cases, the purpose is to ensure that the S&T requirements and 
needs of the other components of the Department of Homeland Security 
are identified and addressed.

d. The Homeland Security Act transfers a number of science and 
technology programs from other agencies and creates several new ones--
it appears that about 15 programs are created or transferred. Knitting 
these together into a single functioning entity is a challenge. How do 
you intend to accomplish that?
Answer S&T 12.d The Science and Technology Directorate has been very 
successful in bringing in transferred programs. Part of the reason we 
have been so successful in integrating pre-existing programs is the 
concurrent transfer of knowledgeable key personnel with the programs 
into our Directorate.

e. What mechanisms have been, or will be, established in the S&T 
Directorate to transfer homeland security technologies to federal, 
state, and local government, and to the private sector? If no mechanism 
currently exists, when does the Department intend to complete this 
task? Which specific office will lead it?
Answer S&T 12.e. In the Science and Technology Directorate, there are 
multiple mechanisms for the transfer of technologies through the 
private sector to state and local governments, first responders and 
field agents.
    The Office of Systems Engineering and Development (SED) develops 
systems' context for solutions, conducts rapid full-scale development, 
conducts acceptance testing, and transitions mature technology to 
production and deployment. In performing its missions, SED works 
directly with private industry to produce affordable technology 
products that are of real value when purchased by the larger security 
community.
    The Office of Planning, Programming and Budgeting has a Portfolio 
Manager dedicated to gathering State and Local requirements and 
providing information regarding the science and technology programs and 
developments underway. This portfolio works with State and local 
organizations, professional first responder associations, and other 
interested groups to gather and codify the science and technology 
requirements of the first responders.
    The Homeland Security Advanced Research Projects Agency (HSARPA) 
directly engages the private sector. Its preferred mechanism of 
technology transfer is by modification or adaptation of existing 
products, through commercial manufacturers, to meet the immediate needs 
of first responders.
    The Office of Research and Development will transition technologies 
resulting from sponsorship of research and development at the National 
and Federal laboratories either through SED or by allowing individual 
technology transfer offices at the laboratories to fulfill this 
function.

f. Has the S&T Directorate, or the Department overall, entered into an 
agreement with the Department of Energy (DoE) for the use of national 
laboratories? If so, please describe any such agreements that have been 
entered into and the specific purpose of such agreements. How does, or 
will, the S&T Directorate deconflict its work plan with that of DoE?
Answer S&T 12.f. In order to ensure the availability of DOE 
capabilities under existing site contracts, the Secretaries of Energy 
and Homeland Security entered into a Memorandum of Agreement (MOA), 
effective March 1, 2003. The objective of this MOA is to authorize a 
modified process for the acceptance, performance and administration of 
DHS work by DOE contractor and Federally operated laboratories, sites 
and other facilities. The MOA implements provisions of the Homeland 
Security Act specifying that national laboratories perform homeland 
security work on an equal basis with other missions at DOE sites.

13. Miscellaneous:

a. National Policy and Strategic Plan for CBRN (per sec. 302(2) of the 
Homeland Security Act)
<bullet> Has the national policy and strategic plan been developed? If 
so, please provide the Committee a copy.
<bullet> Have priorities, goals, objectives, and policies for 
developing CBRN countermeasures been established?
<bullet> Who is responsible for doing so?
<bullet> Do these individuals have access to the intelligence products 
necessary to make such judgments?
Answer S&T 13.a. National policy and strategic plan: Congress 
recognized the importance of the research and development being 
conducted by numerous Federal departments and agencies, and in the 
Homeland Security Act of 2002, directed the Under Secretary of Science 
and Technology to coordinate the Federal government's civilian efforts 
to identify and develop countermeasures to current and emerging threats 
and create a national plan. The S&T Directorate takes this 
responsibility very seriously. We have begun this coordination process 
by evaluating and producing a report on the research, development, 
testing, and evaluation work that was being conducted within the 
Department of Homeland Security but was not already under the direct 
cognizance of the Science and Technology Directorate. Where it is 
appropriate, the Science and Technology Directorate will absorb these 
R&D functions. In other cases, the Science and Technology Directorate 
will provide appropriate input, guidance, and oversight of these R&D 
programs.
    We are now initiating the effort needed to coordinate homeland 
security research and development across the entire United States 
Government. Research and development for homeland security is being 
conducted by the Departments of Agriculture, Commerce, Defense, Energy, 
Justice, Health and Human Services, State, and Veteran's Affairs; 
within the National Science Foundation, the Environmental Protection 
Agency and other Federal agencies; and by members of the Intelligence 
Community. Several interagency working groups already exist that are 
addressing issues important to homeland security. The Science and 
Technology Directorate has been, and continues to be, an active 
participant in these working groups, and in most cases has taken a 
leadership role. These fora foster an active exchange of information 
and assist each participating agency in identifying related needs and 
requirements, conducting research and development of mutual benefit, 
and avoiding duplication of effort.
    We also continue to have discussions at multiple levels of 
management with Federal Departments and Agencies, as well as with the 
Office of Management and Budget, the Office of Science and Technology 
Policy, and the Homeland Security Council. These discussions ensure 
that the strongest possible links are made and the best possible 
coordination occurs between our Department and those who are conducting 
sector-specific research. By the autumn of 2004, all Department of 
Homeland Security research and development programs will be 
consolidated and all United States Government research and development 
relevant to fulfilling the Department's mission will have been 
identified and coordinated as appropriate. It is important to note that 
this identification and relevant coordination does not imply the 
Department of Homeland Security should have the responsibility and 
authority for these programs within other Federal agencies; it does 
recognize that science and technology advances can have many 
applications, including homeland security.
    Prioritization and Responsibility for Prioritization: The Science 
and Technology Directorate has prioritized its research and development 
(R&D) efforts based on the directives, recommendations and suggestions 
from many sources, including:
        <bullet> Homeland Security Act of 2002;
        <bullet> The fiscal year 2004 Congressional Appropriations for 
        the Department of Homeland Security;
        <bullet> President Bush's National Strategy for Homeland 
        Security, the National Strategy for the Physical Protection of 
        Critical Infrastructure and Key Assets, the National Strategy 
        to Combat Weapons of Mass Destruction, the National Strategy to 
        Secure Cyberspace, and the National Security Strategy;
        <bullet> President Bush's nine Homeland Security Presidential 
        Directives;
        <bullet> Office of Management and Budget's 2003 Report on 
        Combating Terrorism;
        <bullet> Current threat assessments as understood by the 
        Intelligence Community;
        <bullet> Requirements identified by other Department 
        components;
        <bullet> Expert understanding of enemy capabilities that exist 
        today or that can be expected to appear in the future; and
        <bullet> The report from the National Academies of Sciences on 
        ``Making the Nation Safer: The Role of Science and Technology 
        in Countering Terrorism,'' and the reports from the Gilmore, 
        Bremer and Hart-Rudman Committees.
    Identifying and integrating the information contained in these 
sources has not been a small task, but the result, coupled with expert 
evaluation and judgment by our scientific staff, is the basis for 
determining the research and development (R&D) needed to meet our 
mission requirements.
    Within each portfolio, the portfolio manager (PPB) determines the 
final prioritization of research and development activities based on 
the external guidance as previously mentioned, end-user input, threat 
and vulnerability assessments, and subject matter expertise as provided 
in-house.
    Intelligence inputs: S&T is currently working with the DHS 
Information Analysis and Infrastructure Protection Directorate to 
ensure that portfolio managers within S&T have the accurate and up-to-
date intelligence they need to structure their portfolio's activities.

b. Nuclear Detection Technology--Is the Department aware of any 
technology that currently exists to detect a CBRN device within a 
container at our nation's ports? Is the Department actively working to 
develop a technology that can be used internationally and at our 
nation's ports to detect the presence of a CBRN device?
Answer S&T 13.b. The DHS is not aware of any existing technology that 
is capable of detecting all of the variety of possible chemical, 
biological, radiological and nuclear devices within a container. The 
detection of the wide variety of WMD is a challenging problem that is 
not solvable via a single technology which will also yield the required 
sensitivity and integrate into our operations. Sec. 
    The Department is actively working to develop technology that can 
be used at our nation's ports and internationally for the detection of 
CBRN. DHS has initiated active research and development programs 
targeting each of the various WMD threats; chemical, biological, and 
nuclear/radiological. The approach taken by S&T includes new detection 
technology but, more importantly, also includes development of system 
architectures, and the means to test different system integration 
concepts. Understanding system architectures, achievable detection 
sensitivities, and how those technologies can be integrated into 
existing operations is critical to understanding the effectiveness of 
technologies in the variety of possible architectures.
    In the nuclear/radiological detection technology area, we are 
investigating advanced passive radiation detection technologies as well 
as advanced radiography and means for the direct detection of special 
nuclear materials. Some of these technologies are intended for the 
detection of radiological and nuclear threats in cargo but will be 
developed in a manner that most benefits security and is most easily 
integrated into our existing operations. These technologies will be 
developed such that they can, in most cases, be commercialized.
    In the chemical detection technology area, toxic industrial 
chemical and warfare agent detectors are being developed that can be 
deployed to specific venues, such as ports, either permanently or as 
the threat requires. These technologies also can be used by the first 
responder for hazard identification or understanding the extent of 
contamination during restoration. Discussions are underway with the 
Bureau of Customs and Border Protection to better understand specific 
requirements for R&D strategic planning.
    In the biodetection technology area, detect-to-warn (facility) and 
detect-to-treat (wide area) are being developed that can be deployed to 
specific venues, such as ports, either permanently or as the threat 
requires. These technologies also can be used by the first responder 
for hazard identification or understanding the extent of contamination 
during restoration. Currently technology for stand off detection of the 
biothreat is not feasible so container contents will need to be 
screened either through more conventional swipe and analysis. 
Discussions are underway with the Bureau of Customs and Border 
Protection to better understand specific requirements for R&D strategic 
planning.

c. Air Cargo Detection--Is the Department aware of technology that 
exists to screen air cargo before it is shipped on passenger aircraft? 
How mature is it? Are you aware of any efforts by the Transportation 
Security Administration to install such technology at our nation's 
airports? If not, what role, if any, is the Directorate playing in 
getting the technology tested and evaluated?
Existing technologies and physical inspection can be effective in 
screening most air cargo commodities for improvised explosive devices 
(IEDs). Not all technologies are good for all commodities, and physical 
inspection cannot be satisfactory for some shipments. However, a 
combination appropriately applied we believe can provide an effective 
air cargo screening regime. The Transportation Security Laboratory 
(TSL) is testing existing equipment against a broad range of 
commodities.

d. Cargo Mate--Please describe the S&T Directorate's current 
involvement in the ``Cargo Mate'' initiative (as referenced by Mr. 
Boehlert in the recent subcommittee hearing). Does the Department 
believe that ``Cargo Mate'' is a worthwhile initiative?
Answer S&T 13.d. ``Cargo Mate'' is a project by a commercial firm to 
use wireless technology to help ensure safe shipping. The S&T 
Directorate has no current or prior involvement in the ``Cargo Mate'' 
Initiative identified in the question and has no basis to evaluate the 
initiative.

14. Question from Rep. Kendrick Meek, Subcommittee Member--Please 
comment on how the Department plans to use and fund social and 
behavioral science research that goes to the heart of the Homeland 
Security mission, such as: psychological and sociological research on 
how terrorists act and think, statistical data analysis as relates to 
law enforcement and the nation's transportation infrastructure, and 
international relations research on how U.S. foreign policy impacts the 
campaign against terrorism worldwide.
Answer S&T 14. S&T's social and behavioral sciences terrorism studies 
program goes to the heart of the U.S. Homeland Security mission by 
focusing on the current and future (dynamic and escalating) terrorism 
threat environment and employing a comprehensive and multidisciplinary 
social and behavioral sciences approach. Leading edge conceptual 
methodologies and tool kits will be employed to help the homeland 
security--and wider combating terrorism--communities better understand 
how to assess, model, forecast and preemptively respond to current and 
future terrorist threats, whether conventional low impact, conventional 
high impact, or CBRN--with the latter two types of warfare considered 
high impact catastrophic attacks.
    Two primary research and analysis projects will be conducted during 
fiscal year 2004 and fiscal year 2005, with the third project the 
creation of a comprehensive open-source-based Global Terrorist Incident 
Database (linked to other on-going databases), with a robust social 
sciences methodological computerized engine, to be used to generate a 
spectrum of indicators, including measuring and mapping combating 
terrorism effectiveness, that will be used to support the program's 
projects. Above all, the findings from all the projects will be widely 
disseminated throughout the Homeland Security (and combating terrorism) 
community via a Web Portal that will serve as a knowledge-base and 
interactive `virtual community.'
    The first project comprehensively addresses the primary components 
in how terrorists act and think by focusing on the terrorist life cycle 
(TLC) and terrorist attack cycle (TAC). It begins with the study of the 
underlying root causes of terrorism which give rise to terrorist 
insurgencies. To bring scientific rigor to such a study, a root cause 
analysis software tool kit, developed for the business world, will be 
adapted to hierarchically decompose and map all the significant root 
causes listed in the academic and practitioner literature on terrorism. 
Such a methodological approach has never before been applied to the 
study of terrorism, so this is one example of how our approach will 
advance the state of the terrorism analytic discipline. A second 
example of the uniqueness of our approach is the use of a link analysis 
tool kit to diagram the formal and informal organizational structures 
and linkages among terrorist groups, including various front 
organizations (political, commercial or charity), in groups such as al 
Qaida and its affiliates, which pose the greatest threat to the U.S. 
Homeland and overseas interests. Both of these sets of diagrams will be 
used to structure follow-on research, including the first research 
effort, followed by an experts' workshop, that will use such data to 
identify, vet and prioritize key nodes and linkages in the TLC and TAC 
that may be most vulnerable to counteraction and influence. This will 
include (but not limited to) such indicators as the nature of a group's 
leadership, its ideology and strategy, its modus operandi, including 
recruitment patterns, developing a support infrastructure, attaining 
the capability to launch a spectrum of attacks, and choosing targets 
and their locations. In a second research effort, followed by an 
experts' workshop, the project will then seek to identify, vet and 
prioritize those counterterrorist measures that could be used to 
influence those nodes and linkages in the TLC and TAC deemed most 
vulnerable or most crucial to counteract. The third research effort 
will attempt to formulate metrics for assessing counterterrorism 
effectiveness, which will be discussed, vetted and prioritized by the 
third experts' workshop. A comprehensive report on findings, including 
templates of the root causes and organizational formations diagrams, 
will then be disseminated to the homeland security's (and wider 
combating terrorism's) scientific and operational communities.
    The second project will utilize the multi-disciplines of the 
social, behavioral and cognitive/neurosciences, combined with subject 
matter and operational expertise of military, law enforcement, and 
intelligence professionals, to better understand and respond to suicide 
terrorism, at the individual, group, and societal levels. Academic, 
scientific and operational experts will form the study team for the 
project. Following initial research, a series of expert workshops will 
be held. The National Institute of Mental Health (NIMH) is interested 
in co-funding the project. A monograph will be produced and 
disseminated to the homeland security's (and wider combating 
terrorism's) scientific and operational communities.
    Adopting such a multi-disciplinary approach is expected to greatly 
advance the state of the discipline on this problem area. The challenge 
of counteracting suicide attacks as an asymmetric instrument of 
terrorism is one of increasing concern and severity, not only in the 
Middle East but elsewhere around the globe. While significant social 
and behavioral research on this phenomenon has been ongoing, it is 
still in a relatively early stage and has yet to fully involve some of 
the social science disciplines that could enhance understanding of the 
problem and potential programmatic approaches to its counteraction.
    The objective of the research program is to study the 
underpinnings, processes, life cycles and attack cycles of those who 
manage and engage in suicide terrorism within the framework of the 
groups, societies and religions that encourage and perpetuate such 
activities. The results of this program, including study efforts and 
workshops of area experts will be important in the formulation of 
effective and forward-learning behavioral and technological responses. 
The proposed program will be conducted over the course of two fiscal 
years (fiscal year 2004 and fiscal year 2005), with interim results 
being provided as they become available.
    In addition to these two primary research projects, and creation of 
the Web Portal, the social and behavioral program is contributing to 
the Homeland Security mission in several other important areas.
        <bullet> First, the program's manager serves as the co-chair of 
        an interagency working group, under the White House Office of 
        Science & Technology Policy, on how the social, behavioral and 
        economic sciences can be used to support counterterrorism, by 
        prioritizing research areas for government agencies.
        <bullet> Second, the program will be leveraging the expertise 
        acquired in its projects to contribute to the social and 
        behavioral communities on these issues, such as the national 
        laboratories, the National Science Foundation, the National 
        Academy of Science, and the scientific and academic 
        communities, as well as the homeland security's (and combating 
        terrorism's) operational communities.

    15. Question from Rep. Jane Harman, Member of the Full Committee--
The Department of Homeland Security will need to integrate data from 
disparate source systems in order to provide analysts and enforcement 
agencies with timely information for further action. Has the Science 
and Technology Directorate researched and evaluated commercially-
available data fusion and analytic technologies that are capable of 
providing predictive analysis (including of non-obvious relationships) 
and able to meet anticipated volumes of data and speed of response? If 
so, can you provide a summary of your findings and recommendations? If 
this research has not yet been done, is it part of your areas for 
effort in fiscal year 2004?
Answer S&T 15. Information analysis and data fusion are encompassed 
within the technologies being investigated through the Threat and 
Vulnerability, Testing and Assessment (TVTA) Portfolio in S&T. The 
portfolio is also investigating two closely related technology areas, 
namely, collaboration tools and advanced visualization techniques, as 
part of its effort to provide analysts with a near-real time capability 
to find, retrieve, integrate, and analyze information from multiple, 
distributed, disparate data sources. These technologies will form the 
basis for the so-called Threat-Vulnerability Integration System (or 
TVIS), for which TVTA initiated in fiscal year 2004 a research and 
development program as well as a prototyping effort. The efforts are 
being addressed through both intramural research with the National 
Laboratories and a comprehensive research effort with commercial 
vendors through a BAA. For fiscal year 2004, the approach is to seek 
advanced technologies that address the specific, immediate requirements 
of the Department's Information Analysis and Infrastructure Protection 
Directorate rather than initiate a test and evaluation program for 
commercial tools. Creating a testbed enabling ongoing, comprehensive 
evaluation of advanced analysis, visualization, and collaboration 
tools--from the commercial, private, and government sectors--is planned 
for fiscal year 2005.

                                APPENDIX

Appendix A--Peer Review Procedures (Office of Research and Development)

 REVIEW AND SELECTION OF PROPOSALS FROM THE U.S. DEPARTMENT OF ENERGY 
   NATIONAL LABORATORIES TO THE U.S. DEPARTMENT OF HOMELAND SECURITY 
      SCIENCE AND TECHNOLOGY DIRECTORATE RADIOLOGICAL AND NUCLEAR 
                       COUNTERMEASURES PORTFOLIO

                            Michael J. Burns

                    Office of National Laboratories

                   Office of Research and Development

                   Science and Technology Directorate

                  U.S. Department of Homeland Security

                            August 14, 2003

Abstract
    The process to be followed by the Office of National Laboratories 
(ONL) to make recommendations for the placement of work at DOE National 
Laboratories from the Rad/Nuc Countermeasures portfolio is detailed 
here. Submissions responsive to needs expressed by the Rad/Nuc 
portfolio manager are expected from two consortia of national 
laboratories by August 25, 2003. These submissions will be organized 
into sections containing detailed project proposals. Each proposal will 
be subjected to both a semi-quantitative numerically-scored review 
consisting of Technical Merit, User Relevance, and Execution Planning 
components, as well as an overall Management Assessment. The Technical 
Merit portion of the review will be conducted by external reviewers 
utilizing the ORISE PeerNet system and organized with separate review 
teams for each section of the submissions. Numerical scores for all 
three scored components will be assigned based upon criteria listed in 
this paper and an overall numerical score calculated with a weighting 
of 40% assigned to the first two components and 20% assigned to the 
third. The scored portion of the review will be combined with the 
outcome of an overall Management Assessment that consider inputs and 
issues not well-captured by the scored portion of the review. The 
scored rankings and the Management Assessment will form the basis for 
ONL's recommendations for work assignment to the labs. ONL will present 
these recommendations to the Director, Office of Research and 
Development (ORD) for funding decisions. The remaining fiscal year 03 
funds will be distributed and fiscal year 04 plans made (with fiscal 
year 04 funding awaiting congressional action to establish the DHS 
fiscal year 04 budget) based upon ORD's decisions. ORD decisions will 
be certified by the Director, Office of Plans, Programs, and Budgets 
(PPB). ONL anticipates the funding decisions to be made by September 
19, 2003.
I. Introduction
    The U.S. Department of Homeland Security's (DHS) Science and 
Technology Directorate (S&T) has solicited proposals from certain U.S. 
Department of Energy (DOE) National Laboratories to execute new 
programs within the Directorate's Radiological & Nuclear (Rad/Nuc) 
Countermeasures Portfolio. Although this portfolio has many on-going 
programs that are underway at some national laboratories, a significant 
amount of new work is scheduled to begin and is intended for execution 
at DOE's national labs. Assignment of this work will be made through 
the review of specific laboratory proposals made in response to S&T's 
Rad/Nuc portfolio needs. It is the purpose of this paper to outline the 
process that S&T's Office of National Laboratories (ONL) will use to 
review proposals and make recommendations to the Director, Office of 
Research and Development (ORD) for the ultimate placement of work at 
the labs.
    Section II of this paper presents a brief overview of the Rad/Nuc 
portfolio that is intended as useful background for those considering 
the review process. Section III of this paper presents the general 
structure expected of the laboratory submissions and also discusses the 
subsequent review process. This section outlines some specific 
requirements of the labs in formatting and delivering their 
submissions. It also presents an overview of the review process. 
Section IV summarizes the PeerNet system hosted by the Oak Ridge 
Institute for Science and Education (ORISE) that will be used by 
external reviewers to enter their comments regarding specific 
proposals. PeerNet is an established system for independent anonymous 
review of technical proposals and provides a convenient method to 
capture reviewer comments, organize them efficiently for DHS S&T 
review, and to maintain documentation of the review process. PeerNet 
has been used extensively by certain U.S. Government agencies for this 
purpose in the past. Section V presents the review criteria that will 
be used by the various reviewers who will examine the laboratory 
proposals. Criteria are listed here for both the numerically-scored 
components of the review and the Management Assessment. Finally, 
Section VI provides a discussion of the dates associated with this 
review and a check-list of actions required by the laboratories in 
support of the review.

II. Overview of the Radiological and Nuclear Countermeasures Portfolio
    The technology, materials, and expertise required to build 
radiological and nuclear weapons are spreading inexorably. The 
Department of Homeland Security's Science and Technology Directorate 
has developed the Radiological and Nuclear Countermeasures Portfolio to 
develop science and technology useful in addressing this pressing 
homeland security issue. The portfolio strategy is comprehensive: 
securing existing materials; providing technologies for detection of 
radiological materials at the nation's borders and in transit within 
the transportation infrastructure; and providing an effective 
intervention capability at the local, state, and federal level. The 
portfolio will also support the development of the best available 
technologies, training, and information to assist in crisis response, 
incident management and recovery, and attribution.
    The Rad/Nuc portfolio focuses on providing federal, state, and 
local end users (including Borders and Transportation Security 
agencies, Emergency Preparedness and Response agencies, the U.S. Coast 
Guard, and port authorities) the most appropriate and effective 
detection and interdiction technologies available to prohibit the 
importation or transportation and subsequent detonation of a 
radiological or nuclear device within the nation's borders. Key 
initiatives include the deployment, evaluation, and evolution of 
currently available technologies at ports of entry; the development and 
prototyping of systems for detection within the transportation 
infrastructure; the development of advanced technologies for more 
effective crisis response at the time of an event; and the development 
of an effective, science-based consequence management program. The 
portfolio will also provide an enduring science and technology base for 
addressing such long-term challenges in radiological and nuclear 
detection systems as the detection of Highly-Enriched Uranium (HEU) and 
shielded plutonium and radioactive sources. Technical expertise will 
also be provided to the operational directorates of DHS as needed and 
the performance of deployed systems will be continually assessed to 
identify vulnerabilities and opportunities for improvement.
    Assessment of proposals submitted in support of Rad/Nuc portfolio 
goals will require a broad cross-section expertise that could include 
nuclear science, nuclear chemistry, engineering, nuclear medicine, 
systems analysis, and emergency response.

III. General Structure of Submissions and Review
    ONL expects two large submissions from two groups of DOE national 
laboratories. These submissions will contain specific proposals to 
execute work in response to needs outlined by the S&T Rad/Nuc portfolio 
manager in a briefing to the laboratories given on July 22, 2003 in 
Washington, DC. Each of the two submissions will contain major sections 
as described during the ONL/National Laboratories meetings on this 
subject conducted July 22-23, 2003 in Washington, DC. Each section will 
contain specific proposals for work in support of the Rad/Nuc 
portfolio. These specific proposals must be contained in separate 
files.
    ONL has been notified that the Lawrence Livermore National 
Laboratory (LLNL), the Los Alamos National Laboratory (LANL), and the 
Sandia National Laboratory (SNL) will be the principal authors of one 
submission. This submission may also contain work that is proposed for 
execution at other national laboratories. ONL has also been notified by 
the Argonne National Laboratory (ANL), Bechtel/Nevada (BN), the 
Brookhaven National Laboratory (BNL), the Idaho National Environmental 
and Engineering Laboratory (INEEL), the Oak Ridge National Laboratory 
(ORNL), and the Pacific Northwest National Laboratory (PNNL) that this 
group of laboratories will team as principal authors to generate a 
second submission. Again, this submission may have roles identified for 
other institutions.
    Each submission must be delivered electronically in files formatted 
in standard ``.pdf'' format. Electronic submission will be made to the 
PeerNet website according to instructions that will be supplied to the 
labs in the near future. Authors can check the web-site at 
www.orau.gov/dhsuce for a similar site. Questions concerning submission 
should be directed to the Deputy Office Director of ONL (Dr. Caroline 
Purdy, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e4a785968b888d8a81cab49196809da4808c97ca838b92">[email&#160;protected]</a>).
    Each submission must be received by 8:00 a.m., EDT, on August 25, 
2003.
    Each submission must be clearly separated into distinct sections 
that roughly align with the Work Breakdown Structure devised for the 
Rad/Nuc portfolio. These sections will be used by ONL to organize 
proposals for separate review groups. The major elements of the Rad/Nuc 
portfolio Work Breakdown Structure are Systems Architecture and Pilot 
Deployments, Pre-Planned Product Improvement, Technology Development 
Initiatives, and Incident Management. In the July 22-23, 2003 ONL/
National Laboratories meeting concerning the Rad/Nuc portfolio, it was 
agreed that there was not significant National Laboratory work in the 
Pre-Planned Product Improvement WBS element. The Laboratories also 
indicated a preference for organizing their proposals into sections 
that represented broad capabilities. Finally, ONL desired to group the 
proposals into major categories for which separate review teams could 
be formed. Therefore, there should be six major sections for each 
submission. These sections are :
        1. Systems Analysis and Integration
        2. Pilot Demos
        3. Passive Detection Technology
        4. Active Detection Technology
        5. Pre-Event Incident Prevention and Response
        6. Post-Event Incident Prevention and Response

    The Systems Analysis and Integration section is to contain 
proposals addressing systems analysis, systems integration, and sensor 
network needs shown in the Rad/Nuc portfolio briefing on July 22, 2003. 
The Pilot Demos section is not to include the ongoing New York/New 
Jersey Port Authority project but should include proposals addressing 
surreptitious entry needs from the Rad/Nuc portfolio briefing and any 
additional work concerning TSA or other operational elements, 
representative pilot demos, etc. The Passive and Active Detection 
Technology sections are self-explanatory and the detailed needs listed 
in the July 22 briefing should be addressed. The Pre-Event Incident 
Prevention and Response section should include all attribution 
material.
    Each submission must be clearly separated into these areas so that 
ONL and ORISE can present each to a separate review team. Each section 
should contain specific, individual proposals for work. Each of the 
individual proposals should be contained in a separate ``.pdf'' file. 
Each proposal should each have a specific, unique name, and be 
associated with a specific section of the submission. The PeerNet 
system will also generate a unique numerical designation for each 
proposal. Each proposal should be responsive to the goals and 
objectives of the Rad/Nuc portfolio or include work that falls within 
that DHS mission space. Each proposal must represent a clearly defined 
project or research effort, with clearly defined objectives or problems 
to be addressed, clearly defined assumptions, clearly defined methods 
of accomplishment (including as much detail as possible on facilities, 
techniques, and personnel to be used), clearly defined deliverables, a 
clearly defined schedule, and a clearly defined cost.
    S&T will choose to fund laboratories at the proposal level and will 
not necessarily be choosing one of the two consortia submissions over 
another. Instead, S&T will consider each proposal in each section of 
the submissions. The final assignments made by S&T are expected to 
consist of a mixture of proposals from each submission.
    Each proposal will be subjected to two types of review. The first 
will be a semi-quantitative, scored review. The second type will be a 
management assessment that considers issues and inputs difficult to 
address using the scored system.
    The scored review has three components. These components are 
Technical Merit, User Relevance, and Execution Planning. Numerical 
scores will be given for each of several criteria that are defined 
below for each component. An overall numerical score will be generated 
by weighting the scores for each component. Technical Merit will 
account for 40% of the overall score. User Relevance will also account 
for 40% of the final score. Execution Planning will account for the 
remaining 20%.
    Independent technical experts shall be utilized by ONL to conduct 
the Technical Merit component of the scored review. These experts will 
be selected from organizations such as the American Physical Society, 
the American Chemical Society, academia, other government agencies, or 
private industry. National Laboratories will not be asked to provide 
reviewers. The reviewers will be grouped into teams of 3-4 persons with 
each team reviewing a separate section of the submissions. Numerical 
scores will be given according to the Technical Merit criteria 
discussed below and entered by the reviewers into the PeerNet system. 
Telephone conferences will be held between ONL and the reviewers before 
the review begins and near the end of the review. During the second 
conference, ONL will check to see if there are unanswered questions 
that could affect the final scoring of proposals. If such questions 
exist that can be answered quickly, ONL or the reviewers will contact 
the proposal authors for clarification and the results of that contact 
considered before the Technical Merit component of the review is 
finalized.
    The User Relevance component of the scored review will permit user 
input to influence the selection of proposals to be funded. ONL will 
ask S&T portfolio managers that represent DHS operational elements to 
serve as reviewers for this component of the review. Portfolio managers 
representing the U.S. Coast Guard, U.S. Secret Service, the DHS Borders 
and Transportation Security Directorate, the DHS Information Analysis 
and Infrastructure Protection Directorate, and the DHS Emergency 
Preparedness and Response Directorate will serve as reviewers to score 
each proposal that could impact their area of responsibility according 
to the User Relevance criteria below.
    Finally, the Execution Planning component of the scored review will 
be conducted by the Portfolio Manager and Program Managers of the Rad/
Nuc portfolio and the ONL Director and Deputy Director. The criteria 
for this component are also shown below.
    Upon conclusion of the scored review, a Management Assessment 
review will be conducted. This review is necessary to consider inputs 
and issues that are not well captured by the scored part of the review. 
These inputs and issues are listed in the Review Criteria section below 
as well. The Management Assessment will be conducted by the ONL 
Director with assistance from the ONL Deputy Director and the Portfolio 
Manager and Program Managers of the Rad/Nuc portfolio
    Upon completion of the scored components of the review and the 
Management Assessment, ONL will compile a rank-ordered list of 
proposals for each of the three major sections of the national 
laboratory submissions. These rank-ordered lists of proposals and ONL's 
recommendations for funding actions will be presented to S&T's 
Director, Office of Planning, Programs, and Budgets (PPB), and 
Director, Office of Research and Development (ORD). The final decision 
as to which proposals will be funded will be made by the ORD Director, 
a federal government employee. The PPB Director will certify this 
decision and be S&T's final signature on funding documents that will 
move funding and authorization to the laboratories.
    Finally, ONL will furnish documentation of the review including a 
proposal evaluation form that will summarize the results of the review 
for each proposal in each section of the submissions.
IV. PeerNet
    PeerNet is a secure, web-based peer review system maintained by the 
Oak Ridge Associated Universities (ORAU) through its operation of the 
Oak Ridge Institute for Science and Education (ORISE) for the U.S. 
Department of Energy. Neither ORAU nor ORISE are associated with ORNL. 
Annually, ORAU coordinates over 30 panel and postal reviews involving 
more than 1,300 reviewers of over 1,600 proposals for DOE, the 
Pennsylvania Department of Health, and now DHS. ORAU coordinated 96% of 
the peer reviews for the DOE Office of Science in fiscal year 2002.
    PeerNet was used to record reviewer scores and comments and provide 
reports to the sponsors of the review. The scientific focus areas of 
the fiscal year 2002 reviews were varied and included biomedical, 
clinical, and health services, as well as science, energy, defense, and 
environmental programs. This system was designed to streamline 
collecting, tabulating, and reporting evaluative comments and/or scores 
from multiple reviewers with common criteria. It has a straightforward 
interface to provide access to significant flexibility for each peer 
review.
    ORAU also has access to extensive professional networks to recruit 
and select reviewers with the necessary expertise for each review, 
including an 86-member university consortium and councils, other 
universities, relevant professional organizations, and public lists. We 
will access ORAU's list of possible reviewers and combine it with S&T's 
contacts to establish credible review panels for each section of the 
laboratory submission.
    After selection by ONL, each reviewer will sign a conflict of 
interest form to ensure that each reviewer is an uninterested external 
examiner of the proposal. They will then be assigned by ORISE a 
password for access to the secure portion of PeerNet. Electronic 
versions of each laboratories submission will be posted on PeerNet. 
ORISE or ONL will have separated each submission into its component 
sections and will have organized each section into its component 
proposals. Each proposal will be associated with one of the two 
submissions and carry a unique title provided by the submission 
authors. A unique numerical identification number will also be 
associated with each proposal by the PeerNet operators. To support this 
system, it is therefore necessary for each submission to be provided to 
ONL electronically in standard ``.pdf'' format.
    Each reviewer will read the proposals on-line and score them 
according to the criteria below. Each reviewer will also enter their 
individual comments as needed. Any questions, especially those that 
affect the reviewers final scoring, will be noted by ONL. The 
submission authors will be provided an opportunity to respond to 
question with a rapid one- or two-day turnaround. Therefore, authors 
will not be able to rewrite the proposal, but will be able to offer 
clarifications.
    Upon receipt of any answers that were requested, reviewers will 
conclude their review. ORISE will then compile the results as directed 
by ONL.
    We anticipate that PeerNet will be used for all components of the 
scored portion of the review.

V. Review Criteria
    The scored components of the review will use a scoring system 
running from 1 to 4. Generally, a value of 1 is assigned to excellent 
proposals and 4 to poor proposals. The Technical Merit and User 
Relevance components of the scored review will also include a single 
qualitative indicator as shown below.
    To the extent possible consistent with delivery of submissions by 
August 25, authors are encouraged to write their proposals as clearly 
as possible with respect to the review criteria shown below. In this 
way, reviewers will be more likely to consider all information that the 
laboratories think is important for each reviewer to complete the 
evaluation.
    The Technical Merit component of the review will apply a numerical 
score for ``technical merit'' and a second numerical score for 
``technical team'' as shown below. A single qualitative indicator for 
``technical risk assessment'' will also be provided. The Technical 
Merit scoring criteria are:

``Technical Merit''
        1. Scientifically and technically sound; technical approach is 
        clear and appropriate
        2. Scientifically and technically sound, but there are minor 
        questions about the technical approach or underlying 
        assumptions
        3. There are one or more significant questions about the 
        technical approach or the scientific/technical basis of this 
        proposal
        4. Scientifically or technically unsound; OR the technical 
        approach is very unclear, missing, or inappropriate

``Technical Team''
        1. The Principal Investigator (PI, if identified) and team have 
        an established record of technical achievement in this area or 
        in closely related work
        2. The PI and team have an established record in an area that 
        is indirectly related to the proposed work
        3. The PI and team are generally experienced in related work, 
        but have little or no track record in the area of the proposal
        4. The PI and team's record is poor

``Technical Risk Assessment''
        ``Low''--straightforward technical path, no significant 
        challenges or impediments to success
        ``Medium''--moderately difficult technical path; impediments 
        can probably be overcome
        ``High''--very challenging technical path; impediments could 
        prevent successful outcome

The User Relevance component of the review will apply a numerical score 
for ``alignment with DHS missions and needs'', a second numerical score 
for ``time to return-on-investment'', and a third numerical score for 
``difficulty of user implementation (assuming technical success)'', as 
shown below. A single qualitative indicator for ``operational risk 
assessment'' will also be provided. The User Relevance scoring criteria 
are:
``Alignment with DHS missions and needs''
        1. The outcome of the proposed work is highly aligned with the 
        broad missions and needs of DHS; meets a goal in the Rad/Nuc 
        PADs; a specific DHS user community is highly interested in the 
        outcome of the proposed work.
        2. The outcome of the proposed work is generally aligned with 
        the broad missions and needs of DHS, although it is not in the 
        Rad/Nuc PADs; there is general interest from one or more DHS 
        user communities
        3. The outcome of the proposed work is clearly not aligned with 
        the broad missions and needs of DHS and is not in the Rad/Nuc 
        PADs; no DHS user community has expressed interest, but 
        interest should be solicited before proposal disposition is 
        decided
        4. The outcome of the proposed work is not relevant to the 
        missions and needs of DHS; OR no DHS user community has 
        expressed an interest and solicitation of interest is not 
        recommended

``Time to return-on-investment''
        1. The outcome of this work is likely to impact a relevant DHS 
        user group in less than 2 years
        2. The outcome of this work is likely to impact a relevant DHS 
        user group in 2-5 years
        3. The outcome of this work is likely to impact a relevant DHS 
        user group in 5-10 years
        4. The outcome of this work may impact a relevant DHS user 
        group in 5-10 years, but DHS funding is not appropriate

``Difficulty of user implementation (assuming technical success)''
        1. Straightforward implementation; no significant challenges to 
        implementation
        2. Moderately difficult; implementation challenges can probably 
        be overcome
        3. Very challenging; there are significant difficulties to 
        implementation, but implementation is plausible
        4. Too challenging; there are significant difficulties to 
        implementation so that implementation is not plausible

``Operational Risk Assessment''
        ``Low''--straightforward; no significant challenges or 
        impediments to success
        ``Medium''--moderately difficult; impediments can probably be 
        overcome
        ``High''--very challenging; impediments could prevent 
        successful outcome

The Execution Planning component of the review will apply a numerical 
score for ``project management plan'', a second numerical score for 
``Resources (people and facilities)'', and a third numerical score for 
``overall plan execution risk'', as shown below. The Execution Planning 
scoring criteria are :
``Project management plan''
        1. Plan is very clear and credible; tasks, milestones, and 
        deliverables are well defined; proposed funding is consistent 
        with the scope of the project
        2. Plan is generally clear and credible, but there are minor 
        questions about tasks, milestones, deliverables, or funding 
        levels
        3. There are one or more significant questions about the 
        project management plan (tasks, milestones, deliverables, or 
        funding levels)
        4. Plan is missing, unclear, or not credible; OR significant 
        prior deliverables for the project have not been met

``Resources (people and facilities)''
        1. The proposed technical team, facilities, and resources are 
        known to be available at the necessary level and the resource 
        plan includes all required resources
        2. The proposed technical team, facilities, and resources are 
        not complete or not fully available, but the gap can probably 
        be filled without significant difficulty
        3. The reviewer has one or more significant questions 
        concerning the proposed technical team, facilities, and 
        resources, and it is not clear that these gaps can be filled 
        without significant difficulty
        4. The proposed technical team, facilities, and resources have 
        significant gaps or questions that are not likely to be 
        addressed.

``Overall Plan Execution Risk''
        1. Risk for successful execution is acceptable or a robust 
        mitigation plan is in place
        2. A risk mitigation plan has been prepared and is plausible
        3. There are multiple risks with questionable mitigation 
        strategy
        4. Risk is considered too high; risk mitigation plan is 
        unacceptable or not identified

    After the scored components of the review have been compiled, an 
overall Management Assessment of the proposals will be conducted to 
address inputs and issues not captured by the scored components of the 
review. The final ranking of the proposals will consider both the 
scored results and the qualitative results of the Management 
Assessment. The list of issues that will be considered during the 
Management Assessment include :
        A. The possibility of congressional language or guidance
        B. S&T strategy for the development of a manageable intramural 
        national laboratory capability
        C. The total funding available to the portfolio
        D. The balance of risk for all projects across the portfolio 
        (S&T believes that risk is not inherently bad, but we seek the 
        right balance of low, medium, and high risk projects )
        E. The merit of proposals or approaches that show innovation to 
        address problems in a way S&T of the DHS User Community had not 
        considered
        F. Integration with other S&T portfolios, other DHS 
        directorates, and other federal agencies, such as DOE/NNSA.
        G. The overall technical and program execution performance of 
        the proposed technical team for similar projects in the past.

VI. Dates and Check List.

July 22 ONL/National Laboratories meeting to present details from the 
Rad/Nuc portfolio and develop structure for proposal submissions

Aug. 25 Laboratory submissions received at ONL by 8:00am EDT. ONL and 
ORISE parse the submissions and install in PeerNet. ONL distributes to 
other reviewers as needed, including User Relevance reviewers and 
Management Assessment reviewers.

Sept. 5 Initial technical merit review closes

Sept. 8 ONL compiles initial technical merit review results and 
distributes to the National Laboratories any clarification questions 
that may have been developed.

Sept. 9 First session of User Relevance review.

Sept. 10 National laboratories provide responses as needed to requests 
for clarification from technical merit review. ONL distributes 
responses to technical reviewers as needed. Technical reviewers use 
these responses to finalize their review.

ONL distributes to National Laboratories any requests for clarification 
that May have been developed in the first session of the User Relevance 
Review.

Sept. 12 Technical Merit review is finalized.

National Laboratories respond by the beginning of the day with 
responses that may be required to complete the User Relevance review.

Second and final session of the User Relevance review.

Sept. 15 ONL compiles final results of the Technical Merit and User 
Relevance reviews.

Sept. 16 Management Assessment review and development of ONL 
recommendations

Sept. 17-18 ONL delivers recommendations to ORD and PPB
Sept. 19 Funding decisions by ORD, certified by PPB, provided to ONL. 
Processes to distribute funds initiated.

The following checklist for National Laboratory submissions may benefit 
the principal authors to ensure the submissions can be effectively 
evaluated by S&T.
    Organize the overall submission with six clearly identified 
sections as shown below:
        1. Systems Analysis and Integration
        2. Pilot Demos
        3. Passive Detection Technology
        4. Active Detection Technology
        5. Pre-Event Incident Prevention and Response
        6. Post-Event Incident Prevention and Response
    Ensure each section contains clearly identified proposals. Each 
proposal is contained in a separate ``.pdf'' file. Each proposal must 
represent a clearly defined project or research effort, with clearly 
defined objectives or problems to be addressed, clearly defined 
assumptions, clearly defined methods of accomplishment (including as 
much detail as possible on facilities, techniques, and personnel to be 
used), clearly defined deliverables, a clearly defined schedule, and a 
clearly defined cost.
    Submissions must be received by 8:00am, EDT, August 25, 2003. 
Submissions must be in the standard ``.pdf'' format.
    Be prepared to respond to possible requests for clarification from 
ONL concerning the Technical Merit review on Sept. 8, 2003 with 
responses due on Sept. 10, 2003.
    Be prepared to respond to possible requests for clarification from 
ONL concerning the User Relevance review on Sept. 10, 2003 with 
responses due at the start of business, eastern time, on Sept. 12, 
2003.

[GRAPHIC] [TIFF OMITTED] T7119.002

         Appendix C is being retained in the Committee's files.

                        Appendix D--NIST/DHS MOU

                      MEMORANDUM OF UNDERSTANDING

                              between the

                 DIRECTORATE OF SCIENCE AND TECHNOLOGY,

                  U.S. DEPARTMENT OF HOMELAND SECURITY

                                and the

                       TECHNOLOGY ADMINISTRATION,

            NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY,

                      U.S. DEPARTMENT OF COMMERCE

I. PURPOSE

The Department of Homeland Security (``DHS'') Science and Technology 
Directorate (``Directorate'') is developing technological tools to 
protect our nation's homeland. Successful development, testing, 
evaluation, and deployment of these technologies require expertise in 
measurement science and in the development of standards. The 
Directorate intends to take advantage of the significant capabilities 
that exists in these areas within the Department of Commerce's 
Technology Administration (``TA''), specifically at the National 
Institute of Standards and Technology (``NIST'').
Therefore, wherever possible and mutually beneficial, the Directorate 
and TA seek to collaborate on research and planning activities, and 
share where appropriate facilities, personnel, and scientific 
information. This Memorandum of Understanding (MOU) sets forth the 
basic principles and guidelines under which the parties will work 
together to accomplish these goals.

II. Authority
Authority for cooperation in areas of overlapping interests and 
responsibilities is provided for the Directorate pursuant to the 
authority of Public Law 107-296, The Homeland Security Act of 2002 that 
established DHS and for NIST, under the National Institute of Standards 
and Technology Act (15 U.S.C. 271 et. seq.)

III. Implementation
        (a) In order to enable close and effective collaboration, it is 
        agreed that the scope of cooperative activity will be reviewed 
        annually. Both the Directorate and TA will identify managers to 
        implement and coordinate the MOU. The managers shall meet on a 
        regular basis to discuss and direct activities conducted under 
        the MOU.

        (b) The managers shall obtain appropriate express written 
        agreement by the Directorate and TA on each significant 
        activity to be undertaken pursuant to the MOU--including 
        consensus on the scope of work; deliverables (if any) and 
        delivery dates; anticipated products and outcomes; periods of 
        performance; levels of funding and resources to be provided for 
        each activity by the parties; and any other appropriate and 
        necessary aspects of mutual activities.

        (c) Costs associated with the participation of the Directorate 
        and TA shall be subject to the availability of appropriated 
        funds and designated personnel of each party, or the approval 
        of other sources of funding. Funding for, and resources 
        allocation to, each significant activity undertaken pursuant to 
        this MOU shall be arranged in accord with the applicable 
        written implementing agreement of the parties required in the 
        above paragraph II(b).

        (d) Costs associated with participation by Directorate-
        supported personnel who use TA facilities and resources, 
        including equipment, laboratory, and office facilities, will be 
        provided through the Directorate. Costs associated with 
        participation by TA-supported personnel who use the 
        Directorate's facilities and resources, including equipment, 
        laboratory, and office facilities, will be provided through TA.

        (e) The managers shall seek to resolve any dispute concerning 
        the MOU through good-faith discussions.

IV. EFFECTIVE DATE
This MOU is effective upon signature of the parties and will remain in 
effect unless and until terminated as provided under Article VI.

V. AMENDMENTS
This MOU may be modified or amended by written agreement among the 
parties hereto. Additionally, any terms or conditions involving the 
Directorate and TA not stated in this MOU but expressly agreed to in a 
future MOU signed by the Secretary of the Department of Homeland 
Security and the Secretary of the Department of Commerce is considered 
integrated into this MOU.

VI. TERMINATION
This MOU will expire sixty (60) months from the date of execution 
unless renewed by mutual agreement of the parties. This MOU may be 
terminated at any time by mutual agreement of both parties. Expiration 
or termination would affect only pursuit of new projects under the MOU. 
Projects under way will be governed by the specific individual 
agreements anticipated above.

AGREED TO BY:

Charles E. McQueary                                      ..............  Phillip J. Bond
Under Secretary for Science                                              Under Secretary for Technology
 and Technology                                                          Science and Technology
Technology Administration                                                 Directorate
U.S. Department of Homeland Security                                     U.S. Department of Commerce
On this date: May 22, 2003                                               On this date: May 22, 2003



                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
